APPENDIX A

Case: 17-60502
Document: 00514447922 Page: 60 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 1 of 41

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
EASTERN DIVISION
UNITED STATES OF AMERICA
v.

CRIMINAL ACTION NO. 2:16-CR-7-KS-MTP

CHARLES BOLTON and
LINDA BOLTON
MEMORANDUM OPINION AND ORDER
This matter is before the Court on the “Motion for New Trial Due to Defense Counsel for
Defendant Charles Bolton Commenced the Representation With an Actual Conflict of Interest”
(“Charles’s First Motion for New Trial”) [175], “Motion to Vacate Conviction and Sentence and
in the Alterative, for New Trial Under Federal Rule of Criminal Procedure Rule 33 and Request
for Garcia Hearing” (“Charles’s Second Motion for New Trial”) [177], “Motion to Vacate
Conviction and Sentence and in the Alternative, for New Trial Under Federal Rule of Criminal
Procedure Rule 33 and Request for Garcia Hearing” (“Charles’s Third Motion for New Trial”)
[181], and “Expedited Motion by Charles Bolton to Vacate Conviction and Sentence, or in the
Alternative for New Trial, Based on Newly Discovered Evidence and Prosecutorial Misconduct”
(“Charles’s Fourth Motion for New Trial”) [226] filed by Defendant Charles Bolton, and the
“Motion to Vacate Conviction and Illegal Sentence or in the Alternative, for New Trial Under
Federal Rule of Criminal Procedure Rule 33 Based on New Evidence” (“Linda’s First Motion for
New Trial”) [178] and “Limited Supplemental Motion to Vacate and/or for New Trial” (“Linda’s
Second Motion for New Trial”) [231] filed by Defendant Linda Bolton. After considering the
submissions of the parties, the record, and the applicable law, the Court finds that these motions
are not well taken and should be denied.

R.E.52

17-60502.2108

Case: 17-60502
Document: 00514447922 Page: 61 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 2 of 41

I. BACKGROUND
On March 22, 2016, a federal grand jury indicted Defendants Charles Bolton (“Charles”)
and Linda Bolton (“Linda”) (collectively “Defendants”) on five counts of attempted tax evasion
for the years 2009-2013 (Counts 1-5) under 26 U.S.C. § 7201 and five counts of filing false tax
returns for those same years (Counts 6-10) under 26 U.S.C. § 7206(1). Attorney Joe Sam Owen
(“Owen”) filed his initial appearance on behalf of Charles on March 28, 2016. Attorney Paul
Holmes (“Holmes”) initially appeared in this case on behalf of Linda at her initial appearance
before the magistrate judge on March 31, 2016. Parties are husband and wife, and represented to
the Court that there was a joint defense agreement between them. It was discussed on the record
that Owen was taking the lead in the defense.1 He hired experts to review the records and provided
help in the defense of both Defendants.
Trial was initially set for May 23, 2016. Defendants filed a joint Unopposed Motion to
Continue [17] on April 25, 2016. The Court granted this motion on April 29, 2016, and the trial
date was then set for July 18, 2016.
Attorney James K. Dukes (“Dukes”) filed his appearance in the case on behalf of Linda on
June 22, 2016, less than four weeks before trial. It was represented to the Court by both Dukes
and Owen on the record in multiple hearings that Dukes was retained by Linda because Holmes
needed some help understanding the case and had not practiced in federal court in a number of
years. Despite the circumstances and the short time her new attorney had to prepare for the
impending trial, Linda did not file for a continuance.

1

This discussion took place during the disqualification hearing held before the Court on July 28, 2016.

2

R.E.53

17-60502.2109

Case: 17-60502
Document: 00514447922 Page: 62 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 3 of 41

Due to courtroom unavailability2 and after conferring with the parties to ascertain any
objections, the Court sua sponte continued the case until August 22, 2016.
Because they were potential witnesses in the case,3 Holmes and Dukes were disqualified
from the case in a hearing held on July 28, 2016,4 and the Court gave Linda ten days to find new
representation. On August 8, 2016, the deadline the Court originally gave Linda to find a new
attorney, Attorney Lisa Ross (“Ross”) entered her appearance on behalf of Linda. Attorney Carlos
Tanner (“Tanner”) attempted to enter his appearance as well, but it was not properly filed. Tanner
did not properly enter his appearance in the case until August 12, 2016. Nevertheless, both Ross
and Tanner appeared on behalf of Linda on August 10, 2016, at a telephonic hearing pertaining to
the possibility of obtaining a continuance in this case. The Court advised parties that a motion to
continue had to be filed before it could grant a continuance. The Court further informed the parties
that the only trial dates available to continue the case until would be either August 29, 2016, or
September 12, 2016, due to the scheduling constraints caused by the Court’s own docket as well
as Owen’s and AUSA Fred Harper’s conflicts,5 which had long been brought to the attention of
the Court. When Ross asked about dates in December, the Court advised her that it did not feel
such a long continuance would be appropriate given the nature of the case, but that it would
consider any arguments she may make if she filed a motion.
On August 12, 2016, the Court held a telephonic conference with the parties to remind
them that, because a motion for continuance had yet to be filed and the trial date was still set for
August 22, proposed jury instructions and the parties’ exhibit and witness lists were due the

Both courtrooms in Hattiesburg were undergoing renovations and were not serviceable for most of the month of
July.
3
Checks from both attorneys were included as evidence of Defendants’ undisclosed income.
4
This disqualification hearing occurred after the Government filed its Motion to Disqualify [26] on July 15, 2016.
5
Owen informed the Court much earlier in the case that he would be unavailable for the entire month of October.
AUSA Harper was equally upfront with the Court about his unavailability during November.
2

3

R.E.54

17-60502.2110

Case: 17-60502
Document: 00514447922 Page: 63 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 4 of 41

following Monday on August 15, 2016. Ross informed the Court that she intended to file a motion
for continuance that day on behalf of Linda, and Owen confirmed that he would join in whatever
motion she filed on behalf of Charles. Ross contacted the Court later that date seeking information
regarding the ordering of transcripts of previous proceedings. She then filed the Motion to
Continue [42][43]6 on behalf of Linda late that evening, after business hours. Because it was a
Friday, the Court did not receive the motion until the morning of August 15, 2016. Nevertheless,
on August 16, 2016, the Court granted the Motion to Continue [42][43] and continued the trial
date to September 12, 2016.
Attorney Robert McDuff (“McDuff”) entered his appearance in this case on August 26,
2016, eighteen days before the trial date. Less than a week later, on September 1, 2016, McDuff
filed a second Motion to Continue [69] on behalf of Linda, less than two weeks before trial. On
September 2, 2016, Ross filed her Motion to Withdraw as Attorney [72].
The Court issued its rulings on these motions on September 8, 2016. 7 In its Order [81]
denying the Motion to Withdraw as Attorney [72], the Court found that Ross had not shown good
cause as to why she should be allowed to withdraw from the case. (See Order [81] at pp. 3-4.) In
its Order [82] denying the Motion to Continue [69], the Court found, in light of the multiple
continuances already granted in the case, that Linda’s purported reasons for a continuance did not
warrant such an action.8

Charles filed his Notice of Joinder [43] that same day.
On that same date, the Court also issued rulings on the multiple motions in limine [47][48][49][50] filed on behalf
of the Government and Charles.
8
Linda gave two reasons: (1) an official review of the investigation by DOJ and (2) the need for her attorney to
prepare. The Court did not find these reasons persuasive because (1) there was no proof of an official review by DOJ
and (2) McDuff entered the case with full knowledge of the impending trial date and when Linda was already
represented by two other attorneys.
6
7

4

R.E.55

17-60502.2111

Case: 17-60502
Document: 00514447922 Page: 64 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 5 of 41

On September 9, 2016, counsel for John Lee filed a Motion to Quash Trial Subpoena and
Rule 17 Subpoena [84] on his behalf. Because this motion pertained to documents9 subpoenaed
for the trial, the Court continued the trial by one day and heard arguments pertaining to this motion
on September 12, 2016. The Court ultimately denied the motion.
Trial began on September 13, 2016. Due to the high local interest in the case, the Court
took the precaution of calling for a district-wide venire instead of a division-wide one, in order to
ensure the Defendants would be tried before an unbiased panel.
The government rested its case on September 15, 2016, after presenting several witnesses
and exhibits. Defense called one witness and rested that same day. After deliberations, the jury
returned a verdict of guilty for Charles on Counts 2-10 and for Linda on Counts 6-10. Both
Defendants were found not guilty as to Count 1. The jury was unable to reach a verdict as to
Counts 2-5 with respect to Linda Bolton, and the Court declared a mistrial as to those counts.
On September 28, 2016, Charles filed his Motion for a Judgment of Acquittal and the
Conditional Grant of a New Trial or, Alternatively, Motion for a New Trial [118], and Linda filed
her Motion for a Judgment of Acquittal or, in the Alternative, for a New Trial [119] a day later on
September 29, 2016. Both motions were fully briefed, and the Court entered its Order [127]
denying them both on November 4, 2016.
Sentencing was originally set for December 19, 2016. On that date, Attorney Owen,
counsel for Charles, and counsel for the Government requested an in camera meeting with the
Court and made a joint request for a continuance, citing Charles’s willingness to cooperate with
the Government in connection with ongoing investigations. Linda made no objection to this

The motion also pertained to a subpoena to testify, which the Government agreed not to enforce owing to the fact
that it knew John Lee would only invoke the Fifth Amendment if called to the witness stand and owing to John Lee’s
health issues.
9

5

R.E.56

17-60502.2112

Case: 17-60502
Document: 00514447922 Page: 65 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 6 of 41

continuance. The sentencing was then continued to January 18, 2017. Owen and counsel for the
Government contacted the Court again on January 13, 2017, requesting the Court to continue the
sentencing once more to allow Charles more time to speak with agents of the Government.
Sentencing was then continued to February 3, 2017, again with no objection from Linda.
On January 20, 2017, during the time Charles was supposedly actively cooperating with
the Government and being represented by Owen, an affidavit was signed by Carl Nicholson
(“Nicholson”) with a heading bearing the style of this case, detailing John Lee’s purported
involvement with Owen. (See Nicholson Affidavit [177-3].)
On January 24, 2017, because of internal scheduling conflicts of the Court,10 sentencing
was continued once again, with the consent of the parties, and set for March 17, 2017.
On March 15, 2017, Owen filed his Motion to Deem Attorney-Client Privilege
Waived [151], stating that Charles had terminated his representation and was now attempting to
allege Owen had conducted himself unethically during his representation of Charles. At the time,
Charles was also represented by Robert Nathan Udashen (“Udashen”), who represented that he
would not be present for the sentencing hearing as his representation was for the appeal phase
only, and Samuel S. McHard (“McHard”), who served as local sponsoring counsel for the pro hac
vice admission of Udashen and who also did not intend to attend the sentencing hearing. The
Court learned through the filings connected with Owen’s motion that Charles had apparently hired
Alabama Attorney Willie J. Huntley (“Huntley”) some time during the prior week and that Huntley
intended to represent Charles at the sentencing hearing. Despite these intentions, Huntley had not

The undersigned was the presiding judge over a case pending in the Northern District of Texas, which was set for a
three-week trial in February.
10

6

R.E.57

17-60502.2113

Case: 17-60502
Document: 00514447922 Page: 66 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 7 of 41

entered an appearance in the Court and had not filed a motion for pro hac vice admission, as
required by an out-of-state lawyer not licensed to practice in Mississippi.11
On March 17, 2017, prior to the sentencing hearing, the Court heard in camera arguments
as to the Motion to Deem the Attorney-Client Privilege Waived [151].12 During these arguments,
the Government represented to the Court that Charles, despite his promises to cooperate, had given
its agents no useful information despite the continuances of sentencing granted by the Court and
that, as a result, it was ready to move forward with the sentencing with no further delay. Despite
his previous termination of Owen’s representation, Charles allowed Owen to represent him at the
sentencing hearing as he had no other counsel present13 and did not wish to utilize the Federal
Public Defender.14
After the in camera arguments, the sentencing hearing was held in open court. Over the
objections of the Defendants, the Court adopted the Pre-Sentence Reports’ calculated sentencing
guideline range of 27 to 33 months for both Charles and Linda. The Court then sentenced Linda
to 30 months confinement per count with the Federal Bureau of Prisons (“BOP”), to be served
concurrently. Charles was sentenced to 33 months confinement as to Counts 2 through 5, to run
concurrently, and 12 months confinement for Counts 6 through 10, to run concurrently with each
other but consecutively with the 33-month sentence under Counts 2 through 5, for a total of 45
months confinement in the custody of the BOP.15 Fines and restitution were also levied against

In fact, despite the Court allowing him to appear unofficially on behalf of Charles at the sentencing hearing, Huntley
did not move to appear pro hac vice until March 29, 2017.
12
These arguments were heard on the record.
13
As previously stated, Huntley was allowed to unofficially appear on behalf of Charles despite not being properly
admitted as pro hac vice counsel.
14
As a precautionary measure, the Court had requested the presence of an attorney from the Federal Public Defender’s
Office be present at the sentencing hearing and in the in camera hearing, to allow Charles an additional option for the
sentencing hearing.
15
This was an upward variance from the sentencing guideline range, which the Court imposed because of Charles’s
position as a public official and for other reasons stated in open court.
11

7

R.E.58

17-60502.2114

Case: 17-60502
Document: 00514447922 Page: 67 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 8 of 41

both Defendants. Judgment was entered in the case on March 28, 2017. (See Judgments
[165][166].) Defendants were allowed to self-surrender to the custody of the BOP as notified by
the U.S. Marshal, but no later than 60 days from the date of sentencing.
Huntley and his associate, Attorney Dennis James Knizley (“Knizley”) were admitted pro
hac vice on March 29, 2017. On March 30, 2017, Margaret W. Holmes (“Margaret”)16 entered an
appearance on behalf of both Defendants. On March 31, 2017, Knizley filed a Notice of Appeal
[172] on behalf of Charles. Subsequently, on April 3, 2017, Huntley requested that Notice of
Appeal be dismissed without prejudice, as it was filed in error. The Court granted this request that
same day. (See Order [174].)
On April 11, 2017, Huntley filed Charles’s First Motion for New Trial [175] and Charles’s
Second Motion for New Trial [177]. That same day, Huntley filed a Notice of Appeal [180] on
Charles’s behalf, despite knowledge that, under Federal Rule of Criminal Procedure 33, a pending
appeal took away the Court’s authority to grant any motion for a new trial based on new evidence.
Also on April 11, 2017, Attorney Ursula K. Mitchell (“Mitchell”) entered an appearance
on behalf of Linda, and Attorney Sharon Denotra Henderson (“Henderson”) entered an appearance
on behalf of Charles. Mitchell then filed Linda’s First Motion for New Trial [178], while
Henderson filed Charles’s Third Motion for New Trial [181]. That same day, Attorney McDuff
filed a Notice of Appeal [182] on behalf of Linda, again despite knowledge that an appeal divested
the Court of authority to grant the motions for a new trial previously filed on behalf of his client.
The Court issued an Order [183] on April 12, 2017, terminating all pending Motions for
New Trial [175][177][178][181], finding that it did not have jurisdiction over the matters they
involved. See United States v. Hitchmon, 602 F.2d 689, 692 (5th Cir. 1979) superceded by statute

16

Margaret is the daughter of the previously disqualified Holmes, and works at the Holmes Law Firm.

8

R.E.59

17-60502.2115

Case: 17-60502
Document: 00514447922 Page: 68 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 9 of 41

on other grounds as stated in United States v. Martinez, 763 F.2d 1297, 1308 (11th Cir. 1985)
(citations omitted); see also Fed. R. Crim. 33(b)(1) (“If an appeal is pending, the court may not
grant a motion for a new trial until the appellate court remands the case.”)
On April 21, 2017, Defendants filed their Motions to Seal [189][190],17 asking for leave to
file certain confidential medical information under seal for purposes of forthcoming motions to
stay the Defendants’ self-report dates. The Court entered its Order [191] granting these motions
on April 24, 2017.18 Defendants’ Motions to Stay [198][199] were subsequently filed on April 26,
2017.
The Court learned on April 26, 2017, that Defendants had filed motions for bail pending
appeal in the Fifth Circuit.19 These motions were procedurally incorrect, as motions for bail
pending appeal must first be filed with the district court before they are brought to the appellate
court, and no such motions were filed with this Court. See Fed. R. App. P. 9(b); see also Jago v.
U.S. Dist. Court, N. Dist. of Ohio, 570 F.2d 618, 623 (6th Cir. 1978) (“Release pending an appeal
must be first sought in the district court even after an appeal has been noted from the judgment of
conviction.”). Because of the confusing motion practice of Defendants and because it was
uncertain how to proceed on the Motions to Stay [198][199] given the motions for bail, the Court
consulted with staff attorneys at the Fifth Circuit.

These motions were entitled “Motion to Stay Self-Report Date,” but the event chosen when filing these documents
was “Motion to Seal.” The Court interpreted them, not as motions to seal, but as motions for leave to file under seal,
as that was the relief asked for in the motions.
18
The Motions to Seal [189][190] were filed on a Friday, and the Court was unable to address them until the following
Monday.
19
Also on April 26, 2017, adding to the confusion of the case, yet another attorney, William Walter (“Walter”), made
an appearance on behalf of both Defendants. Three days later, on April 28, 2017, Mary Lee Holmes made an
appearance on behalf of both Defendants as well.
17

9

R.E.60

17-60502.2116

Case: 17-60502
Document: 00514447922 Page: 69 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 10 of 41

It was ultimately decided that the best course of action was for the Court to request a
remand pursuant to Federal Rule of Appellate Procedure 12.1(b),20 in order to streamline the
proceedings and to allow for factual findings to be made on the issues in all of the motions filed
by Defendants. The Fifth Circuit panel issued a per curiam order remanding the case on April 27,
2017, divesting itself of jurisdiction and denying all pending motions before it as moot. (See Order
of USCA [205].) The Court issued an Order [206] on April 27, 2017, reviving the Motions for
New Trial [175][177][178][181] and setting briefing deadlines. Because of the remand, no appeal
is currently pending in this case.
The Court denied the Motions to Stay [198][199] on May 1, 2017. That same day,
Defendants filed their Motions for Bond [214][218]21 and asked for expedited consideration of
these motions, which the Court denied. Linda surrendered to the custody of the BOP on May 2,
2017, and Charles surrendered on May 3, 2017.
Charles’s Fourth Motion for New Trial [226] was filed on May 3, 2017, and Linda’s
Second Motion for New Trial [231] was filed on May 6, 2017.
The Court denied Defendants’ Motions for Bond [214][218] on June 28, 2017. All of the
Motions for New Trial [175][177][178][181][226][231] have been fully briefed and the Court is
now ready to rule.
II. STANDARD OF REVIEW
All but one of the Motions for New Trial [175][177][178][181][226][231] are styled as
motions to vacate or, in the alternative, for a new trial under Federal Rule of Criminal Procedure

Federal Rule of Appellate Procedure 12.1(b) allows a district court to request remand in order to consider a motion
that “raises a substantial issue.”
21
Charles’s Motion for Bond [218] was incorrectly filed as a motion for new trial, but it was styled as a motion for
bond and that is how the Court analyzed it.
20

10

R.E.61

17-60502.2117

Case: 17-60502
Document: 00514447922 Page: 70 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 11 of 41

33(b) based on new evidence.22 The only avenue for a motion to vacate for a prisoner in federal
custody is through a motion under 28 U.S.C. § 2255. Motions under § 2255 are collateral attacks
on a federal conviction which may not be heard “until [the conviction] has been affirmed on direct
appeal.” Fassler v. United States, 858 F.2d 1016, 1019 (5th Cir. 1988) (citing Jones v. United
States, 453 F.2d 351, 352 (5th Cir. 1972)). Because Defendants’ convictions have not been
affirmed on direct appeal, the only relief the Court can consider is under Rule 33(b) for a new trial
based on new evidence.
“Motions for new trial based on newly discovered evidence are disfavored and reviewed
with great caution.” United States v. Wall, 389 F.3d 457, 467 (5th Cir. 2004) (quoting United
States v. Erwin, 277 F.3d 727, 731 (5th Cir. 2001)) (internal quotations omitted). There are five
prerequisites, referred to as the “Berry rule,” that must be met for a new trial to be granted based
on new evidence:
(1) the evidence is newly discovered and was unknown to the defendant at the time
of trial; (2) the failure to detect the evidence was not due to a lack of diligence by
the defendant; (3) the evidence is not merely cumulative or impeaching; (4) the
evidence is material; and (5) the evidence if introduced at a new trial would
probably produce an acquittal.
Id.
As a preliminary matter, the Court would state that Defendants have failed to introduce any
new evidence that satisfies the Berry rule, nor do they even attempt to argue that this standard is
met.23 Furthermore, many of Defendants’ arguments are duplicative of each other, and most
contain flagrant misrepresentations of the record. Some of the allegations in Defendants’ motions

Charles’s First Motion for New Trial [175] is simply styled as a motion for new trial, without reference to the
applicable rule of procedure.
23
Though Defendants refer often to “new evidence” in their motions, they display an utter disregard to Fifth Circuit
precedent as to what actually qualifies as “new evidence” under Rule 33(b).
22

11

R.E.62

17-60502.2118

Case: 17-60502
Document: 00514447922 Page: 71 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 12 of 41

even cross the thin line between flagrant misrepresentation and blatant lie.24 At least three of these
motions [175][178][181] should rightfully be stricken under Local Criminal Uniform Rule 47(E)
for exceeding the page limit of such motions without obtaining leave from this Court. The only
reason the Court has not done so is because it finds it necessary to address the misrepresentations
contained in those motions in order to give clarity to any reviewing court, whether on direct appeal
or collateral review.
III. CHARLES’S FIRST MOTION FOR NEW TRIAL [175]
Charles’s First Motion for New Trial [175] raises only two issues: Owen’s alleged conflict
and Owen’s deficiency as counsel for failure to call certain witnesses to the stand. These issues
are addressed in more detail below, see infra IV. For the same reasons, this motion will be denied.
IV. CHARLES’S SECOND MOTION FOR NEW TRIAL [177]
A.

Owen Conflict of Interest

Most of Charles’s arguments stem from what he contends is a conflict of interest his
attorney Owen had in his representation of Charles. Charles contends that this conflict arose
because Owen’s attorney fees were paid by John Lee, who he calls a “key Government witness.”
(See Charles’s Second Motion for New Trial [177] at pp. 5-6.)
Before the Court addresses this alleged conflict, it must first point out this first lie by
Defendants that is featured prominently throughout all the motions currently pending before the
Court. Not only was John Lee not a “key Government witness,” John Lee was never even a witness
at trial and no subpoena to testify was ever enforced against him, as all parties were aware that he
would only invoke the Fifth Amendment if called to the witness stand.25

24
25

No testimonial

The Court has not ruled out sanctions under its inherent powers for these falsehoods against the attorneys involved.
Defendants were allowed and did in fact comment on John Lee’s invocation of the Fifth Amendment.

12

R.E.63

17-60502.2119

Case: 17-60502
Document: 00514447922 Page: 72 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 13 of 41

statements26 from John Lee were introduced at trial,27 and the Court specifically ruled that any
such statements would be inadmissible as hearsay in violation of both the Federal Rules of
Evidence and the Sixth Amendment Confrontation Clause. (See Trial Transcript Vol. II [149] at
332:12-333:13.) With that point addressed, the Court moves to Owen’s representation of Charles,
beginning in August 2014.
Owen was first contacted regarding possibly representing Charles Bolton in August 2014,
when Charles’s brother, Terrell Bolton, called his office. (See Call List [276-2] at p. 1.) Owen
met with Charles at his law office on September 3, 2014, to discuss Owen representing Charles,
who was under investigation at the time for the theft of food from the Forrest County Sheriff’s
Office (the “FCSO”) and the Adult and Youth Detention Center (the “Detention Center”). (See
Owen Memo. in Response [277] at pp. 10-11.) Owen agreed to represent Charles in the food theft
case and stated that he would further advise him on his fee structure. (See id. at p. 11.) Owen sent
an email to Charles with the fee structure on October 24, 2014, stating that the fixed retainer fee
for his representation was an initial $75,000, and if an indictment were returned, an additional
$50,000 would be owed four weeks prior to trial or an additional $10,000 would be owed if, four
weeks before the trial date, it was apparent that there would be no trial.28 (See Oct. 24 Email [2765]; see also Owen Memo. in Response [277] at p. 12.)
On October 22, 2014, Charles informed Owen about a scheduled meeting with the U.S.
Attorney’s Office of the Southern District of Mississippi (the “Mississippi USAO”) and directed

John Lee’s business records, which are non-testimonial in nature, were admitted into evidence by stipulation of
parties.
27
Including any statements John Lee made to investigators, which were included in the PSR and considered by the
Court only at sentencing, as the hearsay rules and Confrontation Clause do not apply at sentencing.
28
Owen’s email represented that this was “significantly less” than what he typically charged. (See Oct. 24 Email
[276-5].)
26

13

R.E.64

17-60502.2120

Case: 17-60502
Document: 00514447922 Page: 73 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 14 of 41

him to consult Dukes29 about the meeting, which Owen did. (See Emails [276-4]; Owen Memo.
in Response [277] at p. 11.) Owen and an associate with his office, along with Dukes, Holmes,30
John Colette,31 and an associate from Dukes’s office, attended this meeting with the Mississippi
USAO on October 27, 2014. (See Owen Memo. in Response [277] at pp. 12-13.) During this
meeting, the Mississippi USAO “presented an abbreviated, but fairly detailed version of the facts
supporting the Government’s claim” against the Defendants in the food theft case, which had “zero
connection to John Lee.” (Id. at p. 13; see also Ballard Affidavit [276-16] at ¶ 5.) Charles has not
claimed at any time that John Lee had an interest in the food theft case.
The Mississippi USAO contacted all attorneys after this meeting seeking clarification on
the representation of Charles, as Dukes could not represent Charles because of conflicts with his
representation of the FCSO and the Detention Center. (See Oct. 27 Letter [276-6].) On October
19, 2014, the Mississippi USAO transmitted a plea offer to Owen, which was communicated to
Charles and ultimately turned down. (See Plea Email [276-14]; Jan. 9 Email [276-15].)
On November 3, 2014, Charles called Owen and advised that he had made arrangements
to pay his retainer fee. (See Owen Memo. in Response [277] at p. 14; Nov. 3 Call List [276-7].)
On November 5, 2014, Charles, accompanied by no other person, met with Owen at his law office
and presented him with three checks totaling $60,000. (See Owen Memo. in Response [277] at
pp. 14-15; Nov. 5 Calendar [276-8]; Ballard Affidavit [276-16] at ¶ 3.) One of these checks was
from Nicholson32 in the amount of $25,000 and dated November 3, 2014, one was from John Lee

Dukes is the disqualified counsel for Linda in this case, and Owen was uncertain as to Dukes’s connection to the
food theft case at the time.
30
Holmes is also a disqualified counsel for Linda in this case, and his involvement with the food theft case remains
unclear.
31
John Colette is a criminal defense attorney well-known to the Court, and was previously involved in this case on
behalf of Holmes and Dukes after the Government moved to disqualify them.
32
Nicholson states in his Affidavit [177-3] that this money was given to him by John Lee because “he did not want
his office manager to know all of his personal activities.” (Nicholson Affidavit [177-3] at p. 2.)
29

14

R.E.65

17-60502.2121

Case: 17-60502
Document: 00514447922 Page: 74 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 15 of 41

in the amount of $25,000 and dated November 5, 2014, and one was from Southern Neurologic &
Spinal Institute for $10,000 and dated October 31, 2014. (See Checks [276-9]; see also Checks
[177-3][181-3].) Charles told Owen “that he obtained loans from friends and had the checks made
payable to Owen” and that “he would make arrangements to obtain the additional $15,000.00
payment in due course.”33 (Owen Memo. in Response [277] at p. 15.) At no point before or after
November 5, 2014, did Owen or any member of his firm “meet with, converse with or have any
contact with John Lee concerning the money Charles Bolton borrowed from John Lee or about the
food theft case.” (Id. at p. 16; see also Ballard Affidavit [276-16] at ¶ 4.) Charles has not alleged
any specific contact between John Lee and Owen. Rather he relies on statements that “John Lee
made payments to Attorney Owen for attorney fees with funds controlled by Lee” without
mentioning that these payments were made through Charles himself,34 who personally delivered
the checks to Owen’s law office and who represented that they were “loans from friends.”
(Charles’s Second Motion for New Trial [177] at p. 6; Owen Memo. in Response [277] at p. 15.)
Owen transmitted Charles’s denial of the plea offer on January 9, 2015. (See Jan. 9 Email
[276-16].) To the Court’s knowledge, no further activity has occurred in the food theft case and
no indictment was ever filed against Charles or Linda.
Owen was first given notice of the Indictment [1][2] in this case on March 23, 2016,35 the
day after it was filed. (See Owen Memo. in Response [277] at p. 17.) Neither Charles nor Owen
knew about the tax investigation or indictment until this time. (See id. at p. 18.) The tax indictment
was filed by the U.S. Attorney’s Office for the Eastern District of Louisiana (the “Louisiana

The remaining portion of the retainer fee was never paid to Owen. (See Owen Memo. in Response [277 at p. 18.)
Charles does not dispute that he gave the checks to Owen himself.
35
At the time, Charles was involved in a civil trial before this Court, of which Owen had no knowledge and in which
Owen was not involved.
33
34

15

R.E.66

17-60502.2122

Case: 17-60502
Document: 00514447922 Page: 75 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 16 of 41

USAO”) and was unrelated to the potential charges in the food theft case. (See Owen Memo. in
Response [277] at p. 19; see also Indictment [1][2].)
Owen took up the representation of Charles in this case under the same fee structure as he
previously detailed and, because no indictment was filed in the food theft case and as a gesture of
good will, gave Charles credit for the fees already paid in the previous case and only charged a fee
of $65,000 for his representation in the tax case, plus expenses.36 (See Owen Memo. in Response
[277] at p. 19; see also Ballard Affidavit [276-16] at ¶ 3.) Of this $65,000 fee, only $35,000 was
paid: $2,500 from Charles Bolton on April 21, 2016, $2,500 from C. T. Finnegan/Bolton on April
21, 2016, $5,000 from Frazier Bolton on June 14, 2016, and $25,000 from Linda Bolton on August
29, 2016. (See Client Settlement Trust Report [276-10].) With litigation expenses totaling
$38,000 in relation to the tax case, Charles still owes Owen and his firm approximately $58,000
in fees and expenses. (See Owen Memo. in Response [277] at p. 19; Ballard Affidavit [276-16] at
¶ 3.)
With this history of Owen’s representation of Charles and his fee arrangement before it,
and with no allegation of any actual contact between Owen and John Lee, the Court can find with
certainty that Owen had no conflict of interest in this case based on any payment made by John
Lee for Charles’s legal fees.
Even assuming arguendo that such a conflict did exist, the Court is at a loss as to how this
could possibly be new evidence to qualify for a new trial under Rule 33(b). Although he never
raised the issue with the Court until he filed his First Motion for New Trial [175],37 Charles knew

Owen stresses that he was in no way obligated to give Charles this credit and that it was a “gratuitous benefit.” (See
Owen Memo. in Response [277] at p. 19.)
37
Owen himself brought the allegations of a conflict to the Court’s attention in his Motion to Deem the AttorneyClient Privilege Waived [151]. Charles has never raised the issue of his own initiative until the subject motions were
filed.
36

16

R.E.67

17-60502.2123

Case: 17-60502
Document: 00514447922 Page: 76 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 17 of 41

that he borrowed money from John Lee to pay his legal fees in 2014 for the food theft case when
he gave the check from John Lee to Owen in 2014. So the evidence was not unknown to him as
required by the first prong of the Berry rule, and cannot be the basis for a new trial under Rule
33(b). See Wall, 389 F.3d 467. The Court will deny his motion under his conflict argument.
B.

Ineffective Assistance of Counsel

Charles argues that, because Owen had a conflict of interest due to John Lee’s payment of
his legal fees, he provided ineffective assistance of counsel. This argument unravels with the
Court’s determination that Owen had no such conflict of interest. The Court would also be remiss
if it did not comment on the irony of this claim, as Owen’s representation was so effective that he
was able to negotiate a plea bargain with the Government on Charles’s behalf, which would have
significantly reduced his sentencing guideline range and put probation potentially within his reach.
(See Galloway Affidavit [276-1] at ¶ 7.) Because Owen could not guarantee probation, however,
Charles turned this offer down, as was his right. (See id.)
Furthermore, the Fifth Circuit has held that “a Rule 33 motion . . . premised on ‘newly
discovered evidence,’ is an improper vehicle for raising a claim of ineffective assistance of
counsel.” United States v. Medina, 118 F.3d 371 (5th Cir. 1997) (per curiam) (citing United States
v. Ugalde, 861 F.2d 802, 807-09 (5th Cir. 1988)). In Ugalde, the Fifth Circuit reasoned that
allowing such claims under Rule 33 would “greatly expand the opportunities to make a late request
for a new trial” and noted that “defendants prejudiced by ineffective assistance of counsel” already
have a “ready remedy” in 28 U.S.C. § 2255. 861 F.2d at 809. Therefore, the Court must deny his
motion under this argument.
Even if Charles could bring an ineffective assistance of counsel claim under a Rule 33(b)
motion for new trial based on new evidence, he has woefully failed to bring a meritorious claim.
17
R.E.68

17-60502.2124

Case: 17-60502
Document: 00514447922 Page: 77 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 18 of 41

All of Charles’s arguments are based on misrepresentations of the record, an almost willful
misunderstanding of the law, or a combination of both.
The standard for ineffective assistance of counsel claims is found in Strickland v.
Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L.Ed.2d 674 (1984). The Strickland test requires
that two prongs be met before assistance of counsel is found to be deficient. Id. at 687. First,
counsel’s performance must be shown to be deficient. Id. “To establish deficient performance, a
petitioner must demonstrate that counsel’s representation ‘fell below an objective standard of
reasonableness’” as established by “prevailing professional norms.” Wiggins v. Smith, 538 U.S.
510, 521, 123 S. Ct. 2527, 156 L.Ed.2d 471 (2003) (quoting Strickland, 466 U.S. at 688, 104 S.
Ct. 2052). Such scrutiny of counsel’s performance is “highly deferential.” Strickland, 466 U.S.
at 689, 104 S. Ct. 2052. Second, counsel’s performance must have prejudiced the defendant. Id.
at 687. To establish prejudice, a “defendant must show that there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of the proceeding would have been different.”
Id. at 694, 104 S. Ct. 2052.
1.

Failure to Request a Garcia Hearing

A Garcia hearing is typically held when “a defendant chooses to proceed with
representation by counsel who has a conflict of interest” in order for the district court “to ensure a
valid waiver by the defendant of his Sixth Amendment right.” United States v. Garcia-Jasso, 472
F.3d 239, 243 (5th Cir. 2006) (citations omitted). A Garcia hearing is only necessary “if there is
an actual conflict of interest.” Id. (quoting United States v. Carpenter, 769 F.2d 258, 263 (5th Cir.
1985)).
The Court only became aware of a potential conflict of interest when Owen filed his Motion
to Deem the Attorney-Client Privilege Waived [151], in which Owen represented that he only a
18
R.E.69

17-60502.2125

Case: 17-60502
Document: 00514447922 Page: 78 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 19 of 41

few days prior had any notification that Charles was alleging that he, Owen, had a conflict of
interest in this case. After the in camera hearing held on March 17, 2017, the Court was not
convinced that an actual conflict existed, and after the extensive briefing on the current motions,
it is still not convinced that any actual conflict exists. See supra, IV.A. The Court does not find
Owen’s performance here deficient as there was no actual conflict mandating a Garcia hearing
and, even if there were, Owen brought it to the Court’s attention as soon as he learned about the
allegation of a conflict.
2.

Failure to Call Nicholson

Charles claims Owen’s performance was deficient in failing to call Nicholson as a witness
in his defense. To establish Owen was ineffective based on his failure to call a witness, Charles
“must name the witness, demonstrate that the witness was available to testify and would have done
so, set out the content of the witness’s proposed testimony, and show that the testimony would
have been favorable to a particular defense.” Day v. Quarterman, 566 F.3d 527, 538 (5th Cir.
2009) (citing Bray v. Quarterman, 265 F.App’x 296, 298 (5th Cir. 2008)). Charles has failed to
set out what Nicholson would have testified to at trial38 or that such testimony would have been
favorable to him. Furthermore, “the initial defense strategy of Owen, Galloway and OGM was to
aggressively challenge Nicholson & Co., particularly Carl Nicholson” and to “lay the blame for
the indictment at the feet of Nicholson,” a strategy to which Charles objected. (Owen Memo. in
Response [277] at p. 10.) Moreover, Owen was of the opinion that Nicholson “may be considered
by the Government as a possible co-conspirator” and “would be subjected to grueling cross
examination” if called. (Id. at p. 22.) Owen also states that “[t]here were other secondary factors

Though Nicholson states in his affidavit that he would have testified at trial, despite having pleaded the Fifth
Amendment when he testified before the Grand Jury in connection with John Lee, he at no point details what his
testimony would have been. (See Nicholson Affidavit [177-3].)
38

19

R.E.70

17-60502.2126

Case: 17-60502
Document: 00514447922 Page: 79 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 20 of 41

that play[ed] into a decision to call Carl Nicholson, such as credibility, reputation in the community
and any prior arrest/convictions,”39 and that it “would have been imprudent to call Nicholson as a
witness” even “[a]side from the very important fact Nicholson would have invoked protection
from self-incrimination under the Fifth Amendment,” as he “would have encountered damaging
cross examination on several issues.” (Id. at p. 23.) As such, the Court does not find that Owen
was deficient in his performance for failing to call Nicholson as a witness.
3.

Failure to Object to Lee’s Attorney’s Participation at Trial

Charles claims that Owen’s representation was deficient for not objecting to the
participation of John Lee’s attorney at trial. This argument is based on the assertion that John
Lee’s attorney participated at trial, an assertion which is patently false. The only proceeding in
which John Lee’s attorney participated was John Lee’s own third-party Motion to Quash Trial
Subpoena and Rule 17 Subpoena [84], which the Court heard before trial began and to which Owen
could not have raised any meritorious objection. Therefore, Owen’s representation was not
ineffective under this argument.
4.

Failure to Refute Lee’s Checks as Income

Charles argues that Owen’s performance was deficient because he failed to call witnesses
and offer testimony to refute the claim that John Lee’s checks were income to the Defendants.
Charles also claims that sales records from a different liquor store, 27th Avenue Liquor Store,
should have been introduced at trial to show John Lee’s alcohol purchases were not from the
Defendants’ liquor store, Hall’s Avenue Package Store. Because Charles’s second argument is

Though Owen does not elaborate on Nicholson’s prior arrests and convictions, the Court is well-aware of
Nicholson’s criminal history, including his arrests for disorderly conduct, public drunkenness, and public profanity,
as well as his plea of guilty on the disorderly conduct charge. The Court is also aware that these arrests were highly
publicized in the Hattiesburg area. See Nicholson v. Garmon, et al., Civ. Action No. 2:16-CV-152-KS-MTP, Docket
No. 21 (S.D. Miss. Oct. 7, 2016).
39

20

R.E.71

17-60502.2127

Case: 17-60502
Document: 00514447922 Page: 80 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 21 of 41

contrary to actual fact, as the records of 27th Avenue Liquor Store were entered into evidence at
trial, (see Exhibit DC-76 [184-76]), the Court analyzes only his first argument as to witnesses not
called.
As previously stated, to succeed on such a claim, Charles “must name the witness,
demonstrate that the witness was available to testify and would have done so, set out the content
of the witness’s proposed testimony, and show that the testimony would have been favorable to a
particular defense.” Day, 566 F.3d at 538 (citing Bray, 265 F.App’x at 298). The only witness
named by Charles is Maggie Hancock, who was an employee of Defendants’ restaurant and who
in her affidavit states that she was available to testify and would have testified that, during her
employment, she “never catered a party or event whatsoever for John Lee, P.A. at his office or his
residence.”40 (Hancock Affidavit [177-10] at ¶ 6.) The Court assumes Charles’s argument is that
this testimony would have been favorable to his defense that the John Lee checks were not
income.41
Owen, on Charles’s behalf, has three times argued that the John Lee checks were not
proven to be income to the Defendants at trial—first at trial, (see Trial Transcript [150] at 405:18413:24, 506:16-510:15.), second in his Motion for New Trial [118] and third in his Joinder [140]
to Linda’s Renewed Motion for New Trial Based on New Information [128]. The Court has three
times rejected this argument, finding that the Government had presented sufficient evidence that
these checks were income to Defendants, and has twice ruled that even if Defendants had

Ms. Hancock does not purport to have any knowledge as to whether John Lee purchased alcohol from Hall Avenue
Package Store.
41
The Court does not understand the insistence of Defendants in continually advancing this defense as, under their
arguments, they contend that the John Lee checks were not income to them but rather part of a scheme in which they
aided John Lee in evading taxes by cashing checks made out to their businesses and returning the money to him. Such
a scheme, however, would also be criminal in nature, meaning Defendants are attempting to defend one crime by
arguing that they committed a different crime.
40

21

R.E.72

17-60502.2128

Case: 17-60502
Document: 00514447922 Page: 81 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 22 of 41

completely succeeded in showing that the John Lee checks were not income, there was still
sufficient evidence of unreported income to support their convictions. (See Trial Transcript [150]
at 416:5-421:8; Order [127] at p. 3; Order [145] at pp. 3-4.) To reiterate the argument here in his
Second Motion for New Trial [177] is yet another futile attempt by Charles to misrepresent the
evidence which was brought against him at trial. Besides the fact that the Government produced
sufficient evidence at trial to show that the John Lee checks were income, (see Trial Transcript
[150] at 416:5-421:8), the Government has also produced checks, claimed as loans by Defendants,
written to either Sports 22 Restaurant or Hall Avenue Package Store by Manheim Mississippi Auto
Action, the Mississippi Air National Guard, Forrest General Hospital, Linda’s former attorneys,
Holmes and Dukes, and, incredibly, a Sports 22 customer, who wrote a check for $8.75 to pay for
a fish dinner, which were undoubtedly shown to be income. (See Trial Transcript [148] at 106:12107:23; Exhibit G-75 [188-75]; Exhibit G-78 [188-78]; Exhibit G-80 [188-80]; Exhibit G-82 [18880]; Exhibit G-84 [188-84].)
Because Owen did in fact argue and present evidence that John Lee’s checks were not
income and because, even if he had failed to do so, this defense would have proven ultimately
ineffective, the Court cannot find that his performance was deficient under this argument.
5.

Failure to Present Alternate Theories

Charles argues that Owen should have presented alternate defense theories. In addition to
the already-discussed theory that John Lee’s checks were not income, Charles contends that Owen
should have advanced a theory that “loaning capital back to the business as loans (as was the case
with Charles and Linda Bolton) is not a crime under the income tax evasion and filing a false tax
return statutes,” citing Boulware v. United States, 552 U.S. 421, 128 S. Ct. 1168, 170 L.Ed.2d 34
(2008), in support of this defense.
22
R.E.73

17-60502.2129

Case: 17-60502
Document: 00514447922 Page: 82 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 23 of 41

First of all, this argument is in no way supported by the Supreme Court’s decision in
Boulware. That case dealt with allegedly unreported income to the defendant from a corporation
to which he was a shareholder, and the defendant argued that the alleged income was actually a
return of capital, and not a dividend as the government contended. Boulware, 552 U.S. at 426-28,
128 S. Ct. 1168. Boulware does not in any way make any comment on the tax treatment or criminal
tax liability of capital contributions, as the Defendents contend the checks marked as loans in this
case were. Rather, Boulware dispenses with the rule that “a criminal defendant may not treat a
distribution as a return of capital without evidence of a corresponding contemporaneous intent” on
the part of the corporation. 552 U.S. at 430-31, 128 S. Ct. 1168. This has no impact on Defendants’
case, however, as they do not claim that any of the unreported income is a return of capital.
Defendants do, however, argue that the checks marked as loans were “capital
contributions” that were exempt from taxation. This is yet another misunderstanding of the law
on Defendants’ part. Contributions of capital are exempt from income of a corporation under 26
U.S.C. § 118. Neither Sports 22 Restaurant nor Hall Avenue Package Store is a corporation,
however, but rather both are Schedule C businesses claimed on Defendants’ joint individual tax
returns. Defendants have pointed to no section of the tax code to exempt capital contributions
from the income of Schedule C businesses.42
Furthermore, even if Schedule C businesses could exempt capital contributions from their
income, there are certain requirements of capital contributions given by non-owners, which would
be the case here as the checks marked as “loans” were written, not by either Charles or Linda, but
by third-parties. To be a capital contribution by a non-owner:

The equivalent to capital contributions to Schedule C businesses would be loans from either the owners of the
business or from third parties, which would not generally be considered taxable income.
42

23

R.E.74

17-60502.2130

Case: 17-60502
Document: 00514447922 Page: 83 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 24 of 41

[1] It certainly must become a permanent part of the transferee's working capital
structure. [2] It may not be compensation, such as a direct payment for a specific,
quantifiable service provided for the transferor by the transferee. [3] It must be
bargained for. [4] The asset transferred foreseeably must result in benefit to the
transferee in an amount commensurate with its value. [5] And the asset ordinarily,
if not always, will be employed in or contribute to the production of additional
income and its value assured in that respect.
AT&T, Inc. v. United States, 629 F.3d 505, 513 (5th Cir. 2011) (quoting United States v. Chicago,
B. & Q. R. Co., 412 U.S. 401, 413, 93 S. Ct. 2169, 37 L.Ed.2d 30 (1973)). The unreported income
in this case fails to meet the second requirement to be a capital contribution, as these checks marked
as loans were shown to be compensation for goods and services of Sports 22 Restaurant and Hall
Avenue Package Store.
Finally, despite all the legal reasons why Defendants’ claim that these checks were capital
contributions fail, the Court must point out that Owen did in fact put forward the argument that
these checks were capital contributions. (See, e.g., Trial Transcript [150] at 529:9-530:5; 510:22511:8.) Owen fully admits that this defense was not presented fully because “the testimony of
Linda Bolton was crucial” to it because “Charles claimed he had no knowledge of the deposits
marked as loan and was not aware that Linda marked deposits as a loan until after the tax
indictment.” (Owen Memo. in Response [277] at p. 39.) Linda, who was not Owen’s client,
exercised her Fifth Amendment right not to testify at trial, despite Owen “implor[ing] Charles
Bolton to intervene,” which he refused to do. (Id.) Since the beginning of this case, Owen had
been “emphatic in [his] position that only four people had specific knowledge of these events and
only four people could provide the jury with the guidance the jury would need: (1) Charles Bolton;
(2) Linda Bolton; (3) John Lee; (4) Nicholson & Co.” (Sept. 20 Letter [276-20] at p. 3.) John Lee
invoked the Fifth Amendment, and Owen believed that testimony from Nicholson would be
damaging to Charles’s case. (See Memo. in Response [277] pp. 22-23.) The only remaining
24
R.E.75

17-60502.2131

Case: 17-60502
Document: 00514447922 Page: 84 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 25 of 41

witnesses would have been Charles and Linda themselves, who both opted to not testify over
Owen’s advice, as was their right under the Fifth Amendment.43
The Court can find no fault with Owen’s representation on this theory, as it was advanced
despite being hindered by Defendants’ decisions to not testify, decisions which went against
Owen’s counsel.44
6.

Failure to Object to Sixth Amendment Violation

Charles claims that Owen was deficient for not objecting to the violation of his rights under
the Confrontation Clause of the Sixth Amendment by the admission of John Lee’s out-of-court
statements at trial.
This argument is based on testimony concerning out-of-court statements made by John Lee
to Agent Luker, to which Owen did, in fact, object. (See Trial Transcript Vol. II [149] at 329:8330:12.) Furthermore, the Court ruled specifically and in detail that the hearsay rules barred such
testimony from Agent Luker. (See id. at 332:12-333:13.) On cross-examination, Agent Luker
stated that the John Lee checks were written for food and liquor and were claimed on John Lee
PA’s tax return as business supplies. (See id. at 348:12-349:6.) At trial, all parties agreed that this
information was available in John Lee’s ledger and check registers, which were admitted by
parties’ stipulation and, insofar as they may have contained hearsay, were subject to the business
records exception of Federal Rule of Evidence 803(6). (See id. at 345:17-348:6.) As a general

Defendants may have had a remote possibility of succeeding on this defense if Linda or Charles would have testified
that they relied in good faith on what they mistakenly believed to be the law. See generally Cheek v. United States,
498 U.S. 192, 111 S. Ct. 604, 112 L.Ed.2d 617 (holding that whether an objectively unreasonable belief that a taxpayer
had no legal duty under the tax law negated the willfulness element of tax evasion was a question for the jury).
44
Owen counseled that both Defendants should testify, but when Linda refused, he advised Charles on “the
implications of testifying and not testifying” and “conducted several direct and cross-examination simulations before
and during trial,” during which it was apparent that Charles could not give “a clear explanation regarding Mr. John
Lee’s cashed checks” and that he “would equivocate regarding the reasons for the cashed checks” if put on the stand.
(Galloway Affidavit [276-11] at ¶¶ 5-6; see also Ballard Affidavit [276-16] at ¶¶ 14-15; Blum Affidavit [276-22] at
¶ 3; Rhodes Affidavit [276-21] at ¶ 4.)
43

25

R.E.76

17-60502.2132

Case: 17-60502
Document: 00514447922 Page: 85 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 26 of 41

rule, “business records are not testimonial in nature and their admission at trial is not a violation
of the Confrontation Clause.” United States v. Jackson, 636 F.3d 687, 692 (5th Cir. 2011) (quoting
United States v. Morgan, 505 F.3d 332, 339 (5th Cir. 2007)). Owen’s representation was not
deficient under this argument.
7.

Failure to Object to Brady Violations

Charles contends that Owen provided ineffective assistance of counsel for his failure to
object to certain Brady violations by the Government. Specifically, Charles argues that the
Government violated Brady by not disclosing the statements of John Lee from an interview
investigators had with him and the alleged late disclosure of the Government’s summary charts
and photographs.
The Court has already ruled in detail that the non-disclosure of John Lee’s statements from
his interview with investigators was not a Brady violation, as those statements were not favorable
to the Defendants as required by Brady. (See Order [145] at pp. 2-4.) The Court cannot find
Owen’s performance as counsel deficient in some way for failing to object to a non-violation,
particularly when he did, in fact, object by joining Linda’s Renewed Motion for New Trial [128],
which argued unconvincingly that this was a violation of Brady.
As for Charles contention that the late disclosure of certain summary charts and
photographs introduced by the Government was a Brady violation, this argument has absolutely
no merit. The summary charts were produced by the Government in April 2016 and supplemented
before trial, and the photographs were stipulated to by all parties. A Brady violation “occurs when
the [Government] fails to disclose evidence materially favorable to the accused.” Banks v. Thaler,
583 F.3d 295, 310 (5th Cir. 2009) (quoting Youngblood v. West Virginia, 547 U.S. 867, 869, 126
S. Ct. 2188, 165 L.Ed.2d 269 (2006)). Even if the summary charts and photographs were untimely
26
R.E.77

17-60502.2133

Case: 17-60502
Document: 00514447922 Page: 86 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 27 of 41

disclosed, a contention for which the Court finds no evidence, they were still undoubtedly
disclosed and cannot be the basis for a Brady violation, particularly when they are not materially
favorable to Defendants. The Court therefore does not find Charles’s argument against Owen
persuasive here.
8.

Failure to Object to Government’s “False Tax Deficient [sic]”

Charles argues that Owen was ineffective because he failed to object to the Government’s
“false tax deficient [sic],” but he gives absolutely no support to his allegation that the Government
presented “false tax deficient [sic] calculations that the Prosecution Knew [sic] were False [sic].”
(Second Motion for New Trial [177] at p. 26) (emphasis omitted). There is nothing in the record
but Charles’s baseless allegation that the Government’s tax deficiency calculations were
erroneous, and the Court will not find Owen deficient on such an argument.
9.

Failure to Research Tax Law

Charles offers two arguments here. First, he states that all the claims against him were
barred because the six-year statute of limitations for criminal tax evasion only applies when the
gross income omitted exceeded 25 percent of the gross income claimed and because they submitted
their records along with their returns documenting their “loans.” This is a false statement of the
law. The provision cited by Charles, 26 U.S.C. § 6501, deals only with assessment and collection
of taxes owed, not criminal prosecutions for attempted tax evasion. Additionally, the statute
explicitly allows for the collection of past due taxes “at any time” in a case of a “willful attempt to
evade tax,” as Charles was convicted of here. 26 U.S.C. § 6501(c)(2). The Court cannot say that
Owen was deficient in his performance because he failed to willfully misinterpret the law as
Charles does in his motion.

27
R.E.78

17-60502.2134

Case: 17-60502
Document: 00514447922 Page: 87 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 28 of 41

Next, Charles argues that Owen was ineffective because he failed to argue against the
inclusion of tax year 2009. This argument is premised on the lie that Agent Luker testified that
there was no tax deficiency in 2009 and all income tax was properly paid. Agent Luker never
offered such testimony. Agent Luker testified that, although he did not include the loans in
calculating Defendants’ income in 2009 because they were properly reported, he did find that,
while Defendants had claimed $31,179 in Schedule C income on their 2009 tax return, the correct
amount was $99,379, and that their total income, reported as $79,620, should have been
$143,135.10, giving them a tax deficiency of $25,430.13. (See Trial Transcript [149] at 279:2280:5.) The Court will not find Owen ineffective for not making the baseless argument that Agent
Luker testified that there was no tax deficiency for 2009 when Agent Luker specifically testified
that there was a tax deficiency for 2009.
10.

Failure to Raise 2010 Audit

Charles contends that Owen’s representation was ineffective because he did not argue that
the charges dealing with the 2010 tax year were barred because Defendants had been audited that
year. This audit was based on gambling winnings that were unreported by Charles in 2010 and
was explained in detail by Agent Luker at trial, who also explained the divide between the civil
and criminal divisions of the IRS. (See Trial Transcript [149] at 309:1-23.) Even had Owen
offered the argument Charles proposes, the Court would not have found it meritorious, as nothing
in the law states that an audit forecloses a later criminal tax investigation.
11.

Failure to Offer Expert Witness

Charles claims Owen was ineffective because he failed to offer an expert witness to testify.
As for any failure to call a witness claim for ineffective assistance of counsel, Charles “must name
the witness, demonstrate that the witness was available to testify and would have done so, set out
28
R.E.79

17-60502.2135

Case: 17-60502
Document: 00514447922 Page: 88 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 29 of 41

the content of the witness’s proposed testimony, and show that the testimony would have been
favorable to a particular defense.” Day, 566 F.3d at 538 (citing Bray, 265 F.App’x at 298). The
only expert witness Charles identifies that he claims Owen could have called is Phil Hull.
However, the only proposed testimony of Hull is his expert opinion as to the legal sufficiency of
the Government’s case.

(See Hull Affidavit [177-8].)

These opinions would have been

inadmissible legal conclusions at trial. See United States v. Izydore, 167 F.3d 213, 218 (5th Cir.
1999) (citing Owen v. Kerr-McGee Corp., 698 F.2d 236, 240 (5th Cir. 1983)) (finding that Federal
Rule of Evidence 704(a) “does not allow a witness to give legal conclusions). The Court will not
find Owen to have been ineffective for failing to offer inadmissible testimony.
12.

Failure to Challenge Blind Jury Strikes

Charles argues that Owen’s assistance was ineffective because he did not object to what
Charles calls an “unconventional juror selection process.” (Second Motion for New Trial [177] at
p. 71.) Charles further alleges that the Court’s method of utilizing blind strikes in jury selection
“did not meet the provisions under the law to allow sufficient basis to overcome Bastson
challenges.” (Id.) The Court assumes Charles is referring to Batson challenges, which allows
defendants to object to the exclusion of jurors based solely on their race. This argument is based
on a fundamental misunderstanding of the jury selection process utilized by this Court and, as none
of the attorneys who filed the current motions were actually present during the jury selection
process, is likely premised on Attorney Ross’s initial misunderstanding of the process. 45
Far from being “unconventional,” the undersigned implemented the same method of jury
selection as he does in any jury trial. The strikes made by both parties were not “blind” in that the

Ross was the attorney of record for Linda when the Court relayed the jury selection process to all parties during the
pre-trial conference.
45

29

R.E.80

17-60502.2136

Case: 17-60502
Document: 00514447922 Page: 89 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 30 of 41

identities of the jurors stricken by each side were not made known to all parties once they were
made. They were “blind” in the sense that all parties presented their strikes simultaneously,
without knowing who the other side was striking. Defendants knew who the Government struck
and were given the opportunity to pursue any Batson challenge. “The method employed to select
juries is committed to the sound discretion of the trial judge.” United States v. Durham, 587 F.2d
799, 801 (5th Cir. 1979). Owen was not ineffective in his performance for failing to object to this
method the Court chose to employ as any objection would have been meritless.
13.

Failure to Object to Duplicative Charges

Charles argues that Owen should have moved to dismiss the indictment because it
impermissibly charged him with duplicative charges. Specifically, Charles claims that Counts 610 for violations of 26 U.S.C. § 7206(1) are lesser included charges of Counts 1-5 for violations
of 26 U.S.C. § 7201. In support of this, Charles cites case law from multiple courts dealing with
§ 7201 and § 7203, which is not one of the statutes at issue in this case. Case law involving the
correct statutes, § 7201 and § 7206(1), explicitly allows for charges to be brought under both.
A defendant can be guilty of violating section 7201 without violating section
7206(1) and vice versa because the elements of the offenses are not identical.
However, in any particular case, section 7206(1) may not be a lesser included
offense within section 7201 because, on the proof offered, the factual elements may
be identical.
United States v. Bender, 606 F.2d 897, 898 (9th Cir. 1979), cited with approval by United States
v. Barrilleaux, 746 F.2d 254, 255 (5th Cir. 1984). Because Charles is wrong in his belief that
§ 7206(1) is a lesser included charge of § 7201, the Court does not find Owen’s performance
defective under this argument.

30
R.E.81

17-60502.2137

Case: 17-60502
Document: 00514447922 Page: 90 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 31 of 41

C.

Sentencing

Charles raises numerous arguments dealing with his sentencing hearing, none of which
could fairly be classified as based on “new evidence” under the Berry rule. The Court will address
each of them in turn.
1.

Counsel of Choice

Charles argues that the Court denied him his counsel of choice when it forced him to go
forward with the sentencing with Owen as his attorney. This is a gross misrepresentation on
Charles’s part. The truth of the matter is that Charles, on the date of his sentencing and without
giving any notice to the Court that Owen had a potential conflict,46 appeared before this Court with
no attorney present and duly admitted to practice before this Court, in a blatant attempt to force
the Court to continue the sentencing hearing. His attorney of choice, Huntley, had been hired a
week prior to the sentencing, (see Owen Memo. in Response [277] at p. 8; Galloway Affidavit
[276-11] at ¶ 9), but had failed to enter a motion to appear pro hoc vice, in what the Court can only
assume was a calculated tactic aimed at a continuance. The Court cannot and will not allow a
convicted defendant to force a continuance of his sentencing hearing because he willfully appears
without an attorney. If it did, every convicted defendant would attempt to delay sentencing with
the same type of tactic.
Faced with this situation, the Court offered Charles the choice of going forward with the
sentencing with Owen as his attorney or utilizing the Federal Public Defender’s Office, who,
thanks solely to Owen’s notification to the Court, had been advised of the situation and was
present, willing, and ready to represent Charles if he so chose. Additionally, in an abundance of

The only notice the Court had was from Owen himself when he filed his Motion to Deem the Attorney-Client
Privilege Waived [151].
46

31

R.E.82

17-60502.2138

Case: 17-60502
Document: 00514447922 Page: 91 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 32 of 41

caution, the Court allowed Huntley to unofficially represent Charles at the sentencing. The Court
did everything within its power to ensure that Charles was fairly represented at his sentencing
hearing, despite his deceitful delay tactics.
2.

Owen’s Failure to Respond to PSR and Addendum

Charles contends that Owen failed to submit a sentencing memorandum in response to the
PSR. However, Owen did in fact submit objections to the PSR, and argued them before the Court
during the sentencing hearing. The Court is unsure what other “sentencing memorandum” Charles
believes Owen should have submitted.
Charles also argues that Owen should have objected to the Addendum, but does not state
what the objection should have been. The Addendum to the PSR only included penalties and
interest, which Owen advised Charles at the time the original PSR was submitted that he could
face. (See Owen Memo. in Response [277] at p. 34.) Nothing about Owen’s performance was
deficient here.
3.

Owen’s “Derogatory Statements with Connotations of Violence”

Charles claims that Owen made “derogatory statements with connotations of violence to
Chief Deputy Bolton” during the in camera hearing held prior to the sentencing hearing. (See
Second Motion for New Trial [177] at p. 36.) The Court addresses this allegation specifically, not
because it has any merit, but because it shows the absurd inaccuracy apparent throughout his
motions. The “derogatory statements” referred to by Charles are Owen’s colloquial statements
that Charles “shot himself in the foot” by manufacturing a conflict of interest in Owen’s
representation because Owen was doing everything in his power to assist Charles in reducing his
sentence. (In Camera Transcript Excerpt [177-24] at 35:23-24.) To further illustrate his point,
Owen continued his analogy by saying that Charles went a step further than the common idiom
32
R.E.83

17-60502.2139

Case: 17-60502
Document: 00514447922 Page: 92 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 33 of 41

because he “blew off both legs” instead of merely shooting himself in the foot. (Id.) To charge
Owen with making “derogatory statements with connotations of violence” through the use of these
banal rhetorical phrases is a gross mischaracterization of the actual events.
4.

Owen’s Failure to Call McGee as Character Witness

Charles argues that Owen was ineffective at sentencing because he failed to call Sheriff
Billy McGee as a character witness at the sentencing. The testimony McGee says he would have
given if called as a witness at sentencing is substantially the same as the statements contained in
his letter to the Court on behalf of Defendants prior to sentencing, which was duly considered by
the Court. (See McGee Affidavit [177-32].) To introduce him as a character witness at the hearing
would have been redundant and would have not impacted the sentence imposed by the Court.
5.

Owen’s Failure to Object to Booker Violations

Charles argues that his sentence, which was an upward variance from the sentencing
guidelines, violated United States v. Booker, 543 U.S. 220, 125 S. Ct. 738, 160 L.Ed.2d 621 (2005),
and Owen was ineffective at sentencing for not making an objection under Booker. This argument
once again is premised on Charles’s incorrect reading of the law.
Booker held that the federal sentencing guidelines were advisory, requiring “a sentencing
court to consider Guidelines ranges” but permitting it “to tailor the sentence in light of other
statutory concerns as well.” 543 U.S. at 245, 125 S. Ct. 738. In Booker, the sentencing guideline
range was greater than the sentence “authorized by the jury verdict alone.” Id. at 230. The Court
quoted its previous ruling in Apprendi v. New Jersey, which set aside an enhanced sentence
reasoning that, “[o]ther than the fact of a prior conviction, any fact that increases the penalty for a
crime beyond the prescribed statutory maximum must be submitted to a jury.” Id. at 231 (quoting
Apprendi v. New Jersey, 530 U.S. 466, 490, 120 S. Ct. 2348, 147 L.Ed.2d 435 (2000)).
33
R.E.84

17-60502.2140

Case: 17-60502
Document: 00514447922 Page: 93 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 34 of 41

In this case, each conviction under 26 U.S.C. § 7201 allowed for a sentence of up to five
years under the statutory provisions, and each conviction under § 7206(1) allowed for a sentence
of up to three years. There is no statutory requirement under either § 7201 or § 7206(1) for these
sentences to run concurrently. Charles was sentenced to 33 months, or 2.75 years, for his
convictions under § 7201, and 12 months, or one year, for his convictions under § 7206(1), both
of which are well within the statutory limits. (See Judgment [165] at p. 2.) As such, this argument
is meritless, and Owen cannot be deficient for failing to make a meritless argument.
D.

“Attorney-to-attorney Conflict”

An “attorney-to-attorney conflict” is, to the Court’s best knowledge,47 a fictitious legal
concept presented by Charles in the current motion and in his Third Motion for New Trial [181],
and by Linda in her First Motion for New Trial [178]. (See, e.g., Charles’s Second Motion for
New Trial [177] at p. 71.) Under this fabricated issue, Charles and Linda claim that they were
both prejudiced by the disagreement of their attorneys and are therefore entitled to a new trial.
First and foremost, this is not new evidence under the Berry rule, as the disagreement
between their attorneys was known or should have been known to Defendants, evidence of this
disagreement is not material because it would not have made it to a jury, and it would not have
probably resulted in an acquittal if presented at trial. See Wall, 389 F.3d at 467. Second, if an
“attorney-to-attorney conflict” rule were to exist, such a conflict would exist in every case
involving multiple co-defendants with adverse interests where lawyers advocated for their clients’
respective interests over their co-defendants. Because such advocacy is encouraged, there is a
strong policy rationale behind the rejection of a so-call “attorney-to-attorney conflict of interest.”

Defendants cite no legal authority in support of such a concept, and the Court can locate no court, state or federal,
from any jurisdiction within the United States, which even mentions the phrase “attorney-to-attorney conflict.”
47

34

R.E.85

17-60502.2141

Case: 17-60502
Document: 00514447922 Page: 94 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 35 of 41

Because Charles’s arguments under this issue fail to meet the requirements for a new trial
under Rule 33(b), his motion will be denied here as well.
V. CHARLES’S THIRD MOTION FOR NEW TRIAL [181]
Charles’s Third Motion for New Trial [181] is word-for-word identical to his Second
Motion for New Trial [177], with only some minor formatting changes. It will, of course, be
denied for the same reasons. Attorney Henderson, the attorney who filed this motion on Charles’s
behalf, is warned that the Court is considering sanctions against her for such a frivolous filing of
a 73-page document.
VI. CHARLES’S FOURTH MOTION FOR NEW TRIAL [226]
A.

Court “Erroneously” Terminated Motions for New Trial

Charles argues that the Court “erroneously” terminated his previous motions for new trial
after he filed his Notice of Appeal [180]. (Charles’s Fourth Motion for New Trial [226] at p. 1.)
In fact, it was Charles who was in error here, as his Notice of Appeal [180] divested the Court of
jurisdiction to hear his motions. See United States v. Hitchmon, 602 F.2d 689, 692 (5th Cir. 1979)
superceded by statute on other grounds as stated in United States v. Martinez, 763 F.2d 1297,
1308 (11th Cir. 1985) (citations omitted); see also Fed. R. Crim. 33(b)(1) (“If an appeal is pending,
the court may not grant a motion for a new trial until the appellate court remands the case.”)
B.

Denial of Motion to Stay was Denial of Bond

Charles also erroneously argues that the Court’s denial of his Motion to Stay [198] his
report date was a denial of bond pending appeal. (See Charles’s Fourth Motion for New Trial
[226] at p. 2.) Charles’s Motion for Stay [198], however, did not argue for bond pending appeal
but rather for a stay of his report date and cited no legal authority for such a stay. In fact, Charles
did not move for bond pending appeal with this Court until the day the Court’s Order [217] denying
35
R.E.86

17-60502.2142

Case: 17-60502
Document: 00514447922 Page: 95 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 36 of 41

his Motion for Stay [198] was filed.48 Charles’s Motion for Bond [218] was not denied until the
Court issued its Order [294] on June 28, 2017, and provided detailed reasoning as to why Charles
was not entitled to bond pending appeal.
C.

Recusal of U.S. Attorney for the Southern District of Mississippi

Charles’s Fourth Motion for New Trial [226] centers on what he calls “new
evidence . . . that links this case to the selective targeting of Charles Bolton for prosecution by
Office [sic] of the Assistant [sic] United States Attorney for the Southern District of Mississippi
and federal investigators within the Southern District of Mississippi.” (Charles’s Fourth Motion
for New Trial [226] at pp. 2-3.) This “new evidence” is an internal Department of Justice
memorandum dated July 29, 2015, “approv[ing] the recusal of the entire United States Attorney’s
Office for the Southern District of Mississippi from the investigation and potential prosecution of
Charles Bolton . . . based upon existing conflicts of interests or the appearance of conflicts of
interest.” (DOJ Memo. [226-1].) Despite Charles’s allegation that this was an “involuntarily”
recusal, the language of this memorandum reads as if the Mississippi USAO requested recusal.49
(Charles’s Fourth Motion for New Trial [226] at p. 3.) Furthermore, though Charles claims that
this memorandum mandated that Agent Luker recuse himself from the tax investigation, the
memorandum actually only relates to the Mississippi USAO, which is under the authority of the
Department of Justice and which was not in any way involved in the tax case. Agent Luker is an
agent with the Internal Revenue Service, which is not under the authority of the Department of

Charles did incorrectly file a motion for bond pending appeal with the Fifth Circuit, which has no authority to grant
such a motion unless it is first considered by the district court.
49
Though the Court does not know the reason behind this recusal, it suspects that it involves the Mississippi USAO’s
previous involvement in the food theft case against Defendants.
48

36

R.E.87

17-60502.2143

Case: 17-60502
Document: 00514447922 Page: 96 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 37 of 41

Justice,50 and the Department of Justice would have had no authority to order his recusal even if
this memorandum did call for it, which it does not.
D.

Prosecution’s Failure to Follow Internal DOJ Regulations

Charles makes multiple arguments in his Fourth Motion for New Trial [226] that the
Louisiana USAO did not follow internal Department of Justice Regulations, as described in the
United States Attorneys Manual (the “USAM”), in bringing this case against him. Even if Charles
were correct in these allegations, which the Court does not find, the Fifth Circuit has found that
the USAM does not create any substantive or procedural rights for a criminal defendant. United
States v. Cooks, 589 F.3d 173, 184 (5th Cir. 2009) (citations omitted). As such, all Charles’s
arguments to the contrary are meritless.
Because it does not provide any meritorious argument that Charles is entitled to a new trial
under Rule 33(b), Charles’s Fourth Motion for New Trial [226] will be denied.
VII. LINDA’S FIRST MOTION FOR NEW TRIAL [178]
At the onset of its analysis of Linda’s First Motion for New Trial [178], the Court would
note that it appears to be in large part a copy of Charles’s Second Motion for New Trial [177],51
with large swaths of Charles’s motion copied verbatim, changing only “he” to “she” and “Owen”
to “McDuff,” and in many places forgetting to make these required changes. Because of this
duplication of the issues, the Court adopts its reasoning for denying Charles’s motion to deny
Linda’s motion as to those issues, and addresses only those issues that are unique to her motion.

50
51

The IRS is actually a bureau of the Department of the Treasury.
This includes copying many of the lies and misrepresentations made in Charles’s motion.

37

R.E.88

17-60502.2144

Case: 17-60502
Document: 00514447922 Page: 97 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 38 of 41

A.

Conflict of Interest
1.

Conflict Caused by Court’s Disqualification

Linda argues that the Court caused an “attorney-to-attorney conflict of interest” by
disqualifying Holmes and Dukes. (Linda’s First Motion for New Trial [178] at p. 4) (emphasis
omitted). The disqualification of Holmes and Dukes is not new evidence that entitles Linda to a
new trial under Rule 33(b). Also, the Court has already found that an “attorney-to-attorney conflict
of interest” is not a recognized legal concept.52 See supra IV.D. Furthermore, the Court was
correct in disqualifying Holmes and Dukes.
“[T]he Sixth Amendment simply does not provide an inexorable right to representation by
a criminal defendant’s preferred lawyer.” United States v. Hughey, 147 F.3d 423, 428 (5th Cir.
1998) (citing Wheat v. United States, 486 U.S. 153, 159, 108 S. Ct. 1692, 100 L.Ed.2d 140 (1988)).
“The Sixth Amendment right to counsel of choice is limited, and protects only a paying defendant’s
fair or reasonable opportunity to obtain counsel of the defendant’s choice.” Id. (citations omitted).
Furthermore, although “there is a presumption in favor of a defendant’s counsel of choice, . . . that
presumption may be overcome by an actual conflict of interest, or by showing a serious potential
for conflict.” United States v. Gharbi, 510 F.3d 550, 553 (5th Cir. 2007) (citing Wheat, 486 U.S.
at 164, 108 S. C.t. 1692). The Court can think of no clearer example of “a serious potential
conflict” than where a retained attorney is a potential witness against a criminal defendant. See id.
2.

Continuance After Disqualification

Linda also accuses the Court of wrongfully denying her a continuance after Holmes and
Dukes were disqualified. Again this is not new evidence. This is not even a correct statement of

The Court would also note that there was absolutely nothing preventing Defendants from agreeing to be represented
by the same attorney, which would have alleviated any potential for disagreement among counsel.
52

38

R.E.89

17-60502.2145

Case: 17-60502
Document: 00514447922 Page: 98 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 39 of 41

the record. The Court did in fact grant Linda a 21-day continuance to allow her new attorney more
time to prepare after Holmes and Dukes were disqualified. (See Order [45] at pp. 9-10.)
Because her arguments under this issue are completely baseless, the Court will deny
Linda’s First Motion for New Trial [178] on this issue.
B.

Ineffective Assistance of McDuff

The only unique allegation of ineffective assistance of counsel Linda makes that is not a
copy of Charles’s motion is her contention that McDuff should have objected to the
disqualification of Holmes and Dukes. As Holmes and Dukes were disqualified on July 28, 2016,
and McDuff did not enter his appearance until August 26, 2016, the Court is puzzled over how
Linda proposes he should have objected when he had not even been hired by her at the time of
disqualification.
For all the reasons stated in denying Charles’s ineffective assistance of counsel claim, see
supra IV.B, and because Linda’s unique arguments have no merit, the Court will deny Linda’s
First Motion for New Trial [178] under this issue.
C.

McDuff at Sentencing

The only unique claim against McDuff at sentencing that Linda claims entitles her to a new
trial is the fact that he fainted during the sentencing hearing and resumed oral arguments after a
recess, alleging that he was unconscious “for several minutes” and “medically unfit to continue.”
(Linda’s First Motion for New Trial [178] at pp. 61-62.) McDuff strenuously objects to this
characterization of the incident. He states that he “fainted at the podium” but “came to fairly
quickly” and “ultimately made all of the arguments regarding the sentencing that [he] had intended
to make.” (McDuff Response [279] at p. 20.) McDuff’s recitation of the incident comports with
the Court’s memory of the events, and the Court therefore does not find that Linda was in any way
39
R.E.90

17-60502.2146

Case: 17-60502
Document: 00514447922 Page: 99 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 40 of 41

impacted by McDuff’s fainting at sentencing. Her First Motion for New Trial [178] will be denied
here as well.
VIII. LINDA’S SECOND MOTION FOR NEW TRIAL [231]
This motion of Linda’s is based on the same arguments as Charles’s Fourth Motion for
New Trial [226] and is hereby denied for the same reasons.
IX. CHARLES’S REPLY TO OWEN’S RESPONSE [292]
In his Reply to Owen’s Response [292], Charles makes various accusations concerning
Owen’s actions in connection with the Motions for New Trial [175][177][178][181][226][231]
and asks for his response to be stricken. Specifically, Charles claims that Owen went outside the
scope of the waiver of the attorney-client privilege and made impermissible arguments against
issues in Charles’s motions which did not pertain to him. The Court specifically ruled that there
were no limits to the waiver of the attorney-client privilege and does not find any of the formerlyprivileged information revealed by Owen to be irrelevant to the motions at issue. (See Order [273]
at p. 6.) The Court expresses no opinion as to whether Owen had the right to make arguments as
to any issue besides those dealing with ineffective assistance of counsel, except to note that
Charles’s motions are written in a confusing way that makes it difficult to tell which arguments
are addressing ineffective assistance of counsel and to point out that none of Owen’s actions in
connection with these motions have any bearing on Charles’s or Linda’s rights to a new trial.
Furthermore, because the factual information in Owen’s Response [276][277] is needed to fully
address Charles’s motions, the Court will not strike it.
X. CONCLUSION
IT IS THEREFORE ORDERED AND ADJUDGED that Charles’s First Motion for New
Trial [175] is denied.
40
R.E.91

17-60502.2147

Case: 17-60502
Document: 00514447922 Page: 100 Date Filed: 04/05/2018
Case 2:16-cr-00007-KS-MTP Document 295 Filed 07/03/17 Page 41 of 41

IT IS FURTHER ORDERED AND ADJUDGED that Charles’s Second Motion for New
Trial [177] is denied.
IT IS FURTHER ORDERED AND ADJUDGED that Charles’s Third Motion for New
Trial [181] is denied.
IT IS FURTHER ORDERED AND ADJUDGED that Charles’s Fourth Motion for New
Trial [226] is denied.
IT IS FURTHER ORDERED AND ADJUDGED that Linda’s First Motion for New Trial
[178] is denied.
IT IS FURTHER ORDERED AND ADJUDGED that Linda’s Second Motion for New
Trial [231] is denied.
SO ORDERED AND ADJUDGED this the 3rd day of July, 2017.

s/Keith Starrett
UNITED STATES DISTRICT JUDGE

41
R.E.92

17-60502.2148

APPENDIX B

Case: 17-60502

Document: 00514687749

Page: 1

Date Filed: 10/18/2018

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________________
No. 17-60576
_______________________
D.C. Docket No. 2:16-CR-7-1

United States Court of Appeals
Fifth Circuit

FILED
October 18, 2018
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
CHARLES BOLTON,
Defendant - Appellant
Appeals from the United States District Court for the
Southern District of Mississippi
Before STEWART, Chief Judge, and WIENER and HIGGINSON, Circuit
Judges.
JUDGMENT
This cause was considered on the record on appeal and was argued by
counsel.
It is ordered and adjudged that the judgment of the District Court is
affirmed as modified.

Case: 17-60502

Document: 00514687742

Page: 1

Date Filed: 10/18/2018

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________________
No. 17-60502
_______________________
D.C. Docket No. 2:16-CR-7-2
UNITED STATES OF AMERICA,

United States Court of Appeals
Fifth Circuit

FILED
October 18, 2018
Lyle W. Cayce
Clerk

Plaintiff - Appellee
v.
LINDA BOLTON,
Defendant - Appellant
Appeal from the United States District Court for the
Southern District of Mississippi
Before STEWART, Chief Judge, and WIENER and HIGGINSON, Circuit
Judges.
JUDGMENT
This cause was considered on the record on appeal and was argued by
counsel.
It is ordered and adjudged that the judgment of the District Court is
affirmed as modified.

Case: 17-60502

Document: 00514687673

Page: 1

Date Filed: 10/18/2018

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 17-60502
UNITED STATES OF AMERICA,

FILED
October 18, 2018
Lyle W. Cayce
Clerk

Plaintiff - Appellee
v.
CHARLES BOLTON; LINDA BOLTON,
Defendants - Appellants
Consolidated with 17-60576
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
CHARLES BOLTON,
Defendant - Appellant

Appeals from the United States District Court
Southern District of Mississippi
Before STEWART, Chief Judge, and WIENER and HIGGINSON, Circuit
Judges.
CARL E. STEWART, Chief Judge:

Case: 17-60502

Document: 00514687673

Page: 2

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
A grand jury indicted Plaintiffs-Appellants Charles Bolton (“Charles”)
and his wife, Linda Bolton (“Linda”), on five counts of attempted tax evasion
and five counts of filing false tax returns. The jury convicted Charles on four
of the attempted tax evasion counts and all five counts of filing false tax
returns. The jury acquitted both Boltons on one of the attempted tax evasion
counts, failed to reach a verdict as to Linda on the remaining attempted tax
evasion counts, and convicted Linda on all five counts of filing false tax returns.
The district court sentenced Charles to 45 months of imprisonment,
imposed three years of supervised release with a special condition requiring
payment of $145,849.78 in restitution and a $10,000 fine. The district court
sentenced Linda to 30 months of imprisonment, with a one-year term of
supervised release, a $6,000 fine, and restitution of $145,849.78, owed jointly
and severally with Charles. Both Charles and Linda appeal their convictions
and sentences. We affirm the Boltons’ convictions and sentences in all respects
except that we modify the district court’s judgment to reflect that the
restitution owed by the Boltons is not due until their terms of supervised
release commence.
I. Facts & Procedural History
In 1992, Charles became chief deputy sheriff of the Forrest County
Sheriff’s Office (“FCSO”) in Hattiesburg, Mississippi. He was terminated from
the FCSO in 2016 after he was convicted in this case. As chief deputy, he
oversaw the Forrest County Juvenile and Adult Detention Center. At that
time, he and his wife Linda also owned and operated two businesses, 1 Hall
Avenue Package Store and Sports 22 Café and Lounge.

The Boltons’ businesses were Schedule C businesses which are considered sole
proprietorships. Taxes for Schedule C businesses are reported on the owner’s personal
income tax return.
1

2

Case: 17-60502

Document: 00514687673

Page: 3

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
In March 2014, the Federal Bureau of Investigation (“FBI”) and the
Mississippi State Auditor’s Office began an investigation into whether the
Boltons and others were stealing food from the FCSO’s Detention Center. 2 In
July 2015, the U.S. Attorney’s Office for the Southern District of Mississippi
received approval to recuse itself from the investigation and prosecution of
Charles, and the matter was re-assigned to the U.S. Attorney’s Office for the
Eastern District of Louisiana. Around that time, the FBI referred several
suspicious checks related to the Boltons’ businesses to Internal Revenue
Service (“IRS”) Special Agent Bradley Luker who began a criminal tax
investigation to determine whether the Boltons were guilty of violating any tax
laws. Agent Luker provided information about the criminal tax investigation
to Assistant United States Attorney Fred Harper of the Eastern District of
Louisiana who had been assigned to Charles’s case.
A federal grand jury returned a ten-count indictment in March 2016
charging the Boltons with attempted tax evasion and aiding and abetting in
attempted tax evasion for the tax years 2009 through 2013, in violation of 26
U.S.C. § 7201 and 18 U.S.C. § 2 (Counts 1–5), as well as filing false tax returns
and aiding and abetting in the filing of false tax returns for tax years 2009
through 2013, in violation of 26 U.S.C. § 7206(1) and 18 U.S.C. § 2 (Counts 6–
10). After the Boltons were indicted, attorney Joe Sam Owen (“Owen”) enlisted
as counsel of record on behalf of Charles. Linda was represented by several
different attorneys before trial, and by attorney Robert McDuff at trial and
sentencing.

The 2014 food theft investigation did not result in charges against the Boltons in the
underlying proceedings but the district court determined the incident to be relevant conduct
for purposes of sentencing and its calculation of the loss and restitution amounts. See
U.S.S.G. § 1B1.3.
2

3

Case: 17-60502

Document: 00514687673

Page: 4

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
Prior to trial, the government stated its intent to introduce business
records, checks, check registers, and tax returns of an individual named John
Lee (“Lee”), who, through his law practice, Lee P.A., was involved with the
Boltons, as business or public records. The government also subpoenaed Lee
to testify at trial, and Charles subpoenaed a large number of checks from Lee’s
law practice as well as Lee’s casino gambling records.
Before trial, Lee hired attorney Rick Simmons who moved to quash a
subpoena by the government to testify at trial on grounds that Lee would be
invoking his Fifth Amendment privilege against self-incrimination.

The

district court denied the motion, but the parties stipulated at the outset of trial
that Lee would not actually testify even if called. 3 The parties also stipulated
that records or summaries of records were admissible as business records, and
the Boltons stipulated to the authenticity of their handwriting on various
exhibits.

The parties further stipulated that Lee had invoked his Fifth

Amendment privilege, and the jury was instructed that Lee would not be called
as a witness.
The Boltons’ three-day jury trial began in September 2016. At trial, the
government presented evidence that the Boltons treated money received by
their two businesses as “loans” rather than “income” when reporting their
business income on their personal income tax returns, prepared by Renee
Moore (“Moore”) of Nicholson and Company, thus falsely reducing their tax
liability. The deposits in question included checks from various entities and
individuals, including Lee and Manheim Mississippi Auto Auction.

The district court ruled that the Boltons could comment at trial on Lee’s invocation
of his Fifth Amendment privilege.
3

4

Case: 17-60502

Document: 00514687673

Page: 5

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
The jury ultimately convicted Charles on four counts of attempted tax
evasion and all five counts of filing false tax returns. The jury acquitted each
Bolton on one count of attempted tax evasion, failed to reach a verdict as to
Linda on the remaining attempted tax evasion counts, and convicted Linda on
all five counts of filing false tax returns.
The presentence reports (“PSRs”) for Charles and Linda described an
interview (referred to as an “FBI 302”) of Lee by federal agents regarding
checks he had given to Charles. Linda moved for a new trial based on an
alleged discrepancy between the information in the FBI 302 and the testimony
of Agent Luker. Linda also argued that the failure to disclose the substance of
the interview violated the government’s discovery obligations and constituted
a Brady violation. Charles joined the motion. The district court denied the
new trial motion, finding no discrepancy between Agent Luker’s trial
testimony and the information in the FBI 302.
Three days before sentencing, Charles’s attorney, Owen, advised the
court that Charles had obtained new counsel and that Charles would be
complaining about his (Owen’s) handling of the case. On the day of sentencing,
Charles sought to be represented by new counsel, Willie J. Huntley—an outof-state attorney who said he would need more time to review the case before
being ready to proceed. The district court declined to grant a continuance and
offered Charles the choice of being represented at sentencing by Owen or by an
attorney from the Federal Public Defender’s Office. Ultimately, Charles was
represented at sentencing by Owen, and Huntley was allowed to assist.
In sentencing Charles, the district court upwardly varied from the
guidelines range of 27 to 33 months, imposing a 45-month term of
imprisonment. The variance was based on the district court’s finding that he
had stolen food inventory from the FCSO Detention Center and used the food
5

Case: 17-60502

Document: 00514687673

Page: 6

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
at his Sports 22 restaurant and catering business. The district court also
imposed three years of supervised release with a special condition requiring
payment of $145,849.78 in restitution and a $10,000 fine. Charles reported to
federal prison on May 3, 2017. He then moved the district court for release
pending appeal, which the district court denied. 4
After sentencing, Owen sought and received permission to withdraw as
counsel of record for Charles. Three days after entry of the judgment, Charles
filed a notice of appeal, and also filed three motions seeking a new trial or
vacatur of his conviction and sentence. Among numerous other arguments,
Charles argued that his representation by Owen was paid for by Lee and was
therefore tainted by a conflict of interest.

This court remanded the case

pursuant to Federal Rule of Appellate Procedure 12.1(b) so that the district
court could rule on the motions, expressly declining to retain jurisdiction.
Following remand, the district court issued an order reviving the
pending motions, setting briefing deadlines, and ordering former counsel Owen
and McDuff to respond to various allegations of ineffective assistance of
counsel. The government filed a consolidated response to all of the Boltons’
pending motions, as did Owen and McDuff. On July 3, 2017, the district court
denied the new trial motions. Charles noticed his appeal on July 12 (entered
July 13), citing the district court’s July 3 new trial order. Linda noticed her
appeal on July 13, also citing the district court’s July 3 new trial order.
Owen asked the district court to deem the attorney-client privilege and
the work-product doctrine waived so that he could respond to the Boltons’
allegations of conflict and ineffective assistance of counsel. Charles objected
and Owen noted that, in multiple motions, he and his firm were accused of

4

This court denied Charles’s motion for release pending appeal on August 7, 2017.

6

Case: 17-60502

Document: 00514687673

Page: 7

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
harboring a conflict-of-interest and a litany of instances of ineffective
assistance. The government supported the waiver. Charles then sought a
protective order, which Owen opposed, precluding the availability of the
documents to the prosecution, law enforcement, or the public. Owen identified
the claims against him as involving an alleged conflict about Lee, trial
preparation and use of an expert, jury selection, trial strategy, exhibits,
witnesses, Linda’s decision not to testify, Charles’s decision not to testify,
Charles’s conviction, the PSR and objections, the in-camera sentencing
conference, the sentencing hearing, and the post-sentencing submissions
under seal.
The district court acknowledged that Charles had waived his attorneyclient privilege and work-product doctrine but determined that the documents
should be filed under seal and not served on the government. The government
moved for reconsideration on grounds that it would need the materials to
respond to any appeal filed by Charles and to defend against allegations of
ineffective assistance of counsel under 28 U.S.C. § 2255. The district court
granted the government’s motion and placed Owen’s response to Charles’s new
trial motions on the public docket, finding that Charles “did not point to a
single piece of formerly privileged evidence which would prejudice him either
on appeal or in the event of a new trial.” Charles noticed his appeal of that
order (appeal No. 17-60576).

Charles’s second appeal, No. 17-60576, was

consolidated with the existing appeal of the Boltons’ convictions and sentences,
No. 17-60502.
II. Discussion
The Boltons each raise a host of arguments on appeal including but not
limited to: (1) whether the indictment was sufficient; (2) whether the evidence
was sufficient to support the Boltons’ convictions; (3) whether one or more
7

Case: 17-60502

Document: 00514687673

Page: 8

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
Brady violations took place in the proceedings below; (4) whether the Boltons’
Confrontation Clause rights were violated; (5) whether the government
engaged in prosecutorial misconduct during trial; (6) whether the district court
erred in its issuance of jury instructions; (7) whether the district court erred in
imposing the Boltons’ sentences; (8) whether Charles was denied his right to
conflict-free choice of counsel or received ineffective assistance of counsel; and
(9) whether the district court erred in holding that Charles waived his
attorney-client privilege. We address each issue in turn.
Indictment
Charles argues that his indictment was insufficient. Because Charles
failed to preserve his objection to the alleged defective indictment, plain error
review applies. United States v. Robinson, 367 F.3d 278, 285 (5th Cir. 2004).
“Plain error exists if (1) there is an error, (2) the error is plain, . . . (3) the error
affect[s] substantial rights and (4) the error seriously affect[s] the fairness,
integrity or public reputation of judicial proceedings.” United States v. GarciaCarrillo, 749 F.3d 376, 378 (5th Cir. 2014) (per curiam) (internal quotation
marks and citation omitted).
“An indictment is legally sufficient if (1) ‘each count contains the
essential elements of the offense charged,’ (2) ‘the elements are described with
particularity,’ and (3) ‘the charge is specific enough to protect the defendant
against a subsequent prosecution for the same offense.’” United States v.
Fairley, 880 F.3d 198, 206 (5th Cir. 2018) (“‘[T]he validity of an indictment is
governed by practical, not technical considerations,’ and ‘[t]he basic purpose
behind an indictment is to inform a defendant of the charge against him[.]’”).
The government charged five counts of attempted tax evasion and aiding
and abetting in attempted tax evasion for the tax years 2009 through 2013 in
violation of 26 U.S.C. § 7201 and 18 U.S.C. § 2 (Counts 1-5), and five counts of
8

Case: 17-60502

Document: 00514687673

Page: 9

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
filing false tax returns and aiding and abetting in the filing of false tax returns
for the tax years 2009 through 2013 in violation of 26 U.S.C. § 7206(1) and 18
U.S.C. § 2 (Counts 6-10).
A. Tax Evasion
“The elements of [§7201 tax evasion are]: (1) willfulness, (2) existence of
a tax deficiency; and (3) an affirmative act constituting an evasion or
attempted evasion of the tax.” United States v. Nolen, 472 F.3d 362, 377 (5th
Cir. 2006).

The indictment charged that, for the tax evasion counts, the

Boltons “did willfully attempt to evade and defeat a large part of the income
tax due and owing by defendants to the United States of America by, among
other things, preparing and causing to be prepared, and by signing and causing
to be signed, a false and fraudulent joint U.S. Individual Income Tax Return,
Form 1040, on behalf of defendants, which was filed with the Internal Revenue
Service.” The indictment further alleged that the Boltons attempted to evade
and evaded the assessment of their income taxes by cashing tens of thousands
of dollars in checks purportedly issued in payment for liquor, wine, and
catering services to prevent those payments from being recorded on their
business bank statements; providing deceptive records to their tax return
preparer; and making false statements to their tax return preparer that some
payments for goods and services were loans. When compared to the elements
required to prove tax evasion under § 7201, the indictment was sufficient in
that it alleged with specificity the affirmative acts willfully taken by the
Boltons to evade the tax they knew they owed, provided the Boltons notice of
the alleged crime, and protected them from subsequent prosecution for the
same crime. Fairley, 880 F.3d at 206.

9

Case: 17-60502

Document: 00514687673

Page: 10

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
B. Filing False Tax Returns
“A person commits the felony of filing a false tax return in violation of 26
U.S.C. § 7206(1) when he ‘willfully makes and subscribes any return,
statement, or other document, which contains or is verified by a written
declaration that it is made under the penalties of perjury, and which he does
not believe to be true and correct as to every material matter.’” United States
v. Bishop, 264 F.3d 535, 546 (5th Cir. 2001) (quoting 26 U.S.C. § 7206(1)).
The indictment alleged that the Boltons “did willfully make and
subscribe to a joint United States Income Tax Return, Form 1040, which was
verified by a written declaration that it was made under penalty of perjury and
was filed with the Internal Revenue Service [which] defendants herein did not
believe to be true and correct as to every material matter for each calendar tax
year noted [2009–2013]” in that they knew and believed they had failed to
report a substantial amount of income on Line 22 of the Form.
Viewing the language of the indictment against the elements required to
prove the crime of filing a false tax return, the indictment was sufficient in
that it alleged with specificity the Boltons’ falsification of the tax returns,
provided the Boltons notice of the alleged crime, and protected the Boltons from
subsequent prosecution for the same crime.

Fairley, 880 F.3d at 206.

Accordingly, Charles failed to show plain error with respect to the sufficiency
of the indictments for tax evasion and filing false tax returns. Garcia-Carrillo,
749 F.3d at 378. In light of this holding, we do not reach Charles’s alternative
arguments as to the alleged insufficiency or defectiveness of the indictment.
Sufficiency of the Evidence
Both Charles and Linda argue that the evidence was insufficient to
support the jury’s verdicts of guilt against them as to the crimes of tax evasion
(Charles) and filing false tax returns (Charles and Linda).
10

The Boltons

Case: 17-60502

Document: 00514687673

Page: 11

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
preserved their challenges to the sufficiency of the evidence by moving for and
renewing their motions for a judgment of acquittal. Accordingly, “[w]e review
preserved challenges to the sufficiency of the evidence de novo, but we are
‘highly deferential to the verdict.’” United States v. Scott, 892 F.3d 791, 796
(5th Cir. 2018).
“When reviewing the sufficiency of the evidence, we view all evidence,
whether circumstantial or direct, in the light most favorable to the
government, with all reasonable inferences and credibility choices to be made
in support of the jury’s verdict.” Id. It is the province of the jury to “weigh any
conflicting evidence and to evaluate the credibility of witnesses.” Id. at 796–
97. We consider the evidence “sufficient to support a conviction if ‘any rational
trier of fact could have found the essential elements of the crime beyond a
reasonable doubt.’” Id. at 797. Our question is whether “the jury’s verdict was
reasonable, not whether we believe it to be correct.” Id.
The jury convicted Charles on four of the five counts of tax evasion.
Linda was not convicted of tax evasion. 26 U.S.C. § 7201 provides that “[a]ny
person who willfully attempts in any manner to evade or defeat any tax
imposed by this title or the payment thereof shall . . . be guilty of a felony[.]”
“The elements of [§ 7201 tax evasion are]: (1) willfulness, (2) existence of a tax
deficiency; and (3) an affirmative act constituting an evasion or attempted
evasion of the tax.” Nolen, 472 F.3d at 377. “Affirmative acts that satisfy the
[third] element may include keeping double sets of books, concealment of
assets, or ‘any conduct, the likely effect of which would be to mislead or to
conceal.’” United States v. Miller, 588 F.3d 897, 907 (5th Cir. 2009). To prove
willfulness “the government must show that: (1) the law imposed a duty on the
defendant; (2) the defendant knew of that duty; and (3) the defendant
voluntarily and intentionally violated that duty.”
11

Id.

“Such evidence is

Case: 17-60502

Document: 00514687673

Page: 12

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
ordinarily circumstantial, since direct proof is often unavailable.” United
States v. Kim, 884 F.2d 189, 192 (5th Cir. 1989). To prove a tax deficiency the
government must establish that the taxpayer had unreported taxable income.
United States v. Conaway, 11 F.3d 40, 43 (5th Cir. 1993).
The jury convicted both Charles and Linda of five counts of filing false
tax returns, or aiding and abetting in filing false tax returns, for the years of
2009 through 2013. A person commits the felony of filing a false tax return in
violation of 26 U.S.C. § 7206(1) when he “[w]illfully makes and subscribes any
return, statement, or other document, which contains or is verified by a written
declaration that it is made under the penalties of perjury, and which he does
not believe to be true and correct as to every material matter[.]”
At the Boltons’ trial, the government presented sufficient evidence that
Charles evaded taxes for the years 2010 through 2013 and that the Boltons
filed false tax returns in which they consistently underreported their income
from 2009 through 2013.

The government’s evidence included numerous

instances when the Boltons (1) cashed a significant number of checks before
they were recorded in the Boltons’ financial books, and (2) designated
significant amounts of income as non-taxable loans. Agent Luker testified at
trial that he had traced the income derived from the cashed checks and the
checks marked as loans in the Boltons’ records and concluded that they had a
tax deficiency resulting from underreporting their income from their two
businesses. Agent Luker used a multitude of specific examples of the checks
marked as loans and the checks that were cashed before they “hit the books”
to illuminate the discrepancy between the Boltons’ actual income and their
reported income. The government also presented a number of charts at trial
which featured year-by-year summary computations of the Boltons’ “reported”
12

Case: 17-60502

Document: 00514687673

Page: 13

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
versus their “corrected” taxable income resulting from cashed checks and
checks marked as loans.
Consequently, given this court’s high level of deference to the jury’s
verdict and the mountain of evidence presented at trial in support of the jury’s
verdict, specifically proving the elements of tax evasion as to Charles and filing
false returns as to both Charles and Linda, we hold that the evidence was
sufficient to support the Boltons’ convictions. Scott, 892 F.3d at 796–97. In
light of this holding, we do not reach either Charles’s or Linda’s alternative
arguments as to the alleged insufficiency of the evidence.
Alleged Brady Violations
The Boltons contend that the Brady material suppressed by the
government includes: (1) a Department of Justice memorandum dated July 29,
2015, (2) an FBI 302 interview report documenting Lee’s statements to law
enforcement that allegedly contradict the trial testimony of Agent Luker, (3) a
subpoena issued by the government to Carl Nicholson (“Nicholson”), and (4)
Lee’s plea agreement. “We review a district court’s determination on a Brady
claim de novo, though we defer to factual findings underlying the district
court’s decision.” United States v. Swenson, 894 F.3d 677, 683 (5th Cir. 2018)
(citing United States v. Cessa, 861 F.3d 121, 128 (5th Cir. 2017)).
Under Brady, “the government violates a defendant’s due process rights
if it withholds evidence that is favorable to the accused and material to the
defendant’s guilt or punishment.” Swenson, 894 F.3d at 683 (citing Brady v.
Maryland, 373 U.S. 83, 87 (1963)). The rule is applied regardless “of the good
faith or bad faith of the prosecution . . . [and] extends to impeachment evidence
as well as exculpatory evidence.” Id. (citing Youngblood v. West Virginia, 547
U.S. 867, 869 (2006); Brady, 373 U.S. at 87). For a defendant to prevail on a
Brady claim, he “must show: (1) the evidence at issue was favorable to the
13

Case: 17-60502

Document: 00514687673

Page: 14

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
accused, either because it was exculpatory or impeaching; (2) the evidence was
suppressed by the prosecution; and (3) the evidence was material.” Id. The
usual remedy for a Brady violation is a new trial. Swenson, 894 F.3d at 684.
The Boltons fail to make a successful argument on any of their purported
Brady claims. With respect to Charles’s argument regarding the DOJ
memorandum dated July 29, 2015, that memo simply addressed conflicts
within the US Attorney’s Office, Mississippi division, and authorized transfer
to the US Attorney’s Office, Louisiana division. This subject matter has no
bearing on Agent Luker’s status as an IRS agent within the Department of
Treasury. Moreover, the recusal information of the Mississippi division of the
US Attorney’s Office is immaterial to Charles’s ability to “prepare a proper
defense against the indictment” for his own crimes of tax evasion and filing
false tax returns. Accordingly, the memorandum does not qualify as Brady
material. Swenson, 894 F.3d at 683.
Both Charles and Linda argue that the FBI 302 interview report, which
documents Lee’s statements to law enforcement that allegedly contradict
Agent Luker’s trial testimony, was improperly suppressed Brady material.
They claim that they would have used Lee’s statements in the interview that
he could not remember what each and every check he wrote to the Boltons’
businesses was for to contradict Agent Luker’s testimony that Lee told him
that the checks were written for food and liquor. As the district court properly
observed, Lee’s statements did not go to the truth of Agent Luker’s testimony
or to his own credibility because they were intended to highlight the suspicious
nature of all the money going from Lee’s firm to the Boltons’ restaurant under
the auspices of purchasing “business supplies”; they were not solicited to
disprove Agent Luker’s testimony that Lee had told him that the checks were
written for food and liquor. United States v. St. Junius, 739 F.3d 193, 202 (5th
14

Case: 17-60502

Document: 00514687673

Page: 15

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
Cir. 2013) (“Under Federal Rule of Evidence 801(c), hearsay is a statement,
other than one made by the declarant while testifying at trial or a hearing,
offered in evidence to prove the truth of the matter asserted . . . The rule
against hearsay does not apply when an out-of-court statement is offered for
some purpose other than to prove the truth of the matter asserted.”).
Moreover, Lee’s statement to Agent Luker that the checks were written for
food and liquor does not contradict or undermine his statement in the FBI 302
interview that he could not remember what each individual check was for when
he was shown a spreadsheet of payments at a later date.

It is certainly

conceivable that Lee stood by his story that all of the checks were written either
for food or liquor without claiming to remember what each specific check was
written for. Further, the government did not withhold the report from the
Boltons; it was turned over as required Jencks 5 material. Accordingly, the FBI
302 interview report does not qualify as Brady material. Swenson, 894 F.3d at
683.
Charles argues that the subpoena issued by the government to Nicholson
was improperly suppressed Brady material because it “addressed the nature
of certain checks that were written from John Lee to Joe Sam Owen and
provided written acknowledgement of those checks.”

As the government

observes, however, Charles’s argument on this issue goes to the purported
conflict of interest that he believed his attorney had—not to his own defense of
the charges against him for tax evasion and filing false tax returns.
Accordingly, the subpoena was immaterial and neither exculpatory nor
impeaching. Thus, it did not qualify as Brady material. Swenson, 894 F.3d at
683.

5

18 U.S.C. § 3500.

15

Case: 17-60502

Document: 00514687673

Page: 16

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
Finally, Charles fails to brief his argument that Lee’s plea agreement
was improperly suppressed Brady material and thus has waived the issue. See
Procter & Gamble Co. v. Amway Corp., 376 F.3d 496, 499 n.1 (5th Cir. 2004)
(“Failure [to] adequately [] brief an issue on appeal constitutes waiver of that
argument.”). In any event, the plea agreement was signed after the Boltons
were tried and convicted and thus could not have conceivably qualified as
Brady material. Swenson, 894 F.3d at 683.
Confrontation Clause Rights
Both Charles and Linda argue that their Confrontation Clause rights
were violated when Agent Luker was permitted to testify as to out-of-court
statements that Lee had made to him since Lee was not available for crossexamination at trial given his invocation of the Fifth Amendment right against
self-incrimination. “Alleged Confrontation Clause violations are reviewed de
novo and subject to harmless error analysis.” United States v. Garcia, 887 F.3d
205, 209 (5th Cir. 2018). However, “[a] defendant may not complain on appeal
of errors that he himself invited or provoked the [district] court . . . to commit.”
United States v. Salazar, 751 F.3d 326, 332 (5th Cir. 2014) (citing United States
v. Wells, 519 U.S. 482, 487–88 (1997)). Only errors attributed to the actions of
the defense will be considered invited errors. Id. The standard of review for
invited error is higher than that of plain error review. Id. “We will not reverse
on the basis of invited error, absent manifest injustice.” Id.
“The Confrontation Clause guarantees a defendant the opportunity for
effective cross-examination.” United States v. Lockhart, 844 F.3d 501, 510 (5th
Cir. 2016) (citing Delaware v. Fensterer, 474 U.S. 15, 19–20 (1985)). The
Supreme Court has held “that the prosecution violates this clause when it
introduces ‘testimonial statements of a witness who did not appear at trial
unless he was unavailable to testify, and the defendant had had a prior
16

Case: 17-60502

Document: 00514687673

Page: 17

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
opportunity for cross-examination.’” Garcia, 887 F.3d at 212 (quoting Crawford
v. Washington, 541 U.S. 36, 53–54 (2004)).
During the trial, the district court ruled that the government could not
elicit testimony concerning Lee’s out-of-court statements on grounds that Lee
was unavailable to be cross-examined because he had asserted his Fifth
Amendment privilege against self-incrimination and would not testify at trial.
The district court ruled that any out-of-court statement by Lee would be
considered hearsay without an applicable exception. The record reflects that
the government did not question Agent Luker or anyone else about the content
of any out-of-court statement by Lee.

However, during Owen’s cross-

examination of Agent Luker, he asked Luker to “[t]ell the jury, please, what
business supply John Lee purchased from Sports 22.”

The district court

interrupted and suggested that the solicited testimony would be inadmissible
hearsay and a bench conference was held with all counsel. Outside of the
presence of the jury, both defense counsel urged the court to allow the line of
questioning and acknowledged that Agent Luker’s answers would involve
statements that Lee had made to him. The bench conference ended and Owen
stated to Agent Luker: “So if I understand your testimony, what John Lee has
told you with reference to the cashed checks is that he bought $273,520 worth
of food and liquor from Sports 22 and Hall’s Package.” Agent Luker responded,
“Over the five years, that’s correct.” Owen commented “You will agree that’s a
lot of ribs, isn’t it?” and Agent Luker answered affirmatively.
Given the above record evidence, we conclude that the Boltons, through
their counsel, invited the error of soliciting Agent Luker to testify as to
statements that Lee made, resulting in the admission of hearsay. Salazar, 751
F.3d at 332.

Considering, however, the substantial amount of evidence

presented at trial against the Boltons that did not include the checks written
17

Case: 17-60502

Document: 00514687673

Page: 18

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
by Lee, admission of the hearsay statements did not result in a “manifest
injustice.” Id.
Charles claims he dissented from Owen’s decision to solicit the hearsay
statements but he misinterprets the law on this issue. As the government
points out, the right to confrontation is susceptible to waiver by counsel but
when a defendant does not object to his attorney’s decision at trial or present
an argument as to why his counsel’s actions could not have been a legitimate
trial tactic, he waives that right. United States v. Ceballos, 789 F.3d 607, 616
(5th Cir. 2015) (quoting United States v. Reveles, 190 F.3d 678, 683 (5th Cir.
1999) (“When a defendant has waived a right, the district court cannot be said
to have erred by failing to override the intentions of the defendant’s counsel by
asserting the right sua sponte.” (emphasis in original))); see also United States
v. Stephens, 609 F.2d 230, 232–33 (5th Cir. 1980) (holding “that counsel in a
criminal case may waive his client’s Sixth Amendment right of confrontation
by stipulating to the admission of evidence, so long as the defendant does not
dissent from his attorney’s decision, and so long as it can be said that the
attorney’s decision was a legitimate trial tactic or part of a prudent trial
strategy”). Here, the Boltons have failed in both respects since they did not
object to their respective counsels’ decisions to solicit the hearsay statements
at trial, and they have failed to present any type of argument on appeal as to
why admission of the statements could not have been a legitimate trial tactic.
Ceballos, 789 F.3d at 616.
Based on a close review of the trial record, we hold that the district
court’s admission of the hearsay statements was invited error, solicited by both
sets of defense counsel. Salazar, 751 F.3d at 332. The invited error did not
rise to the level of manifest injustice given the substantial evidence presented
at trial to support the Boltons’ convictions, aside from the evidence involving
18

Case: 17-60502

Document: 00514687673

Page: 19

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
the checks written by Lee. Id. Further, to the extent they attempt to argue
otherwise, the Boltons have failed to show that they have not waived their
Confrontation Clause rights under Ceballos. 789 F.3d at 616.
Prosecutorial Misconduct
According to Charles, “his Fifth and Fourteenth Amendments rights to
due process of law [were] violated where the Government engaged in (1)
improper vouching for the credibility of its witnesses, (2) making false
statements to the jury, (3) engaging in derogatory name calling, and (4) making
improper personal impressions.” He urges de novo review.
This court conducts a two-part analysis of prosecutorial misconduct.
United States v. Meza, 701 F.3d 411, 429 (5th Cir. 2012). First, we consider
whether the prosecutor made an improper remark and if so, we look next to
see if the remark affected the substantial rights of the defendant. Id. Usually,
we review the first question de novo and the second for abuse of discretion. Id.
We will conclude that “a defendant’s substantial rights are affected only where
the error in question affected the outcome of the district court proceedings.”
Id. To determine whether the error affected the outcome of the proceedings,
we must “assess (1) the magnitude of the statement’s prejudice, (2) the effect
of any cautionary instructions given, and (3) the strength of the evidence of the
defendant’s

guilt.”

Id.

However, when a defendant

fails

to

object

contemporaneously to the prosecutor’s allegedly improper statements, we
review his prosecutorial misconduct claims for plain error. United States v.
Bennett, 874 F.3d 236, 247 (5th Cir. 2017). Under this standard, a defendant
must show an error that is plain and affects his substantial rights. Id. at 247–
48. “If these conditions are present, we may exercise our discretion to correct
the error if it ‘seriously affects the fairness, integrity, or public reputation of
judicial proceedings.’” Id. at 248.
19

Case: 17-60502

Document: 00514687673

Page: 20

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
“In attempting to establish that a prosecutor’s improper comments
constitute reversible error, the criminal defendant bears a substantial burden.”
Id. at 247. This court does “not lightly make the decision to overturn a criminal
conviction on the basis of a prosecutor’s remarks alone.” Id. “We also presume
that a jury can and will follow an instruction that attorneys’ statements are
not evidence, ‘unless there is an overwhelming probability that the jury will be
unable to follow the instruction and there is a strong probability that the effect
is devastating.’” Id. Our ultimate question is “whether the prosecutor’s
remarks cast serious doubt on the correctness of the jury’s verdict.” Id.
Despite the fervor of Charles’s claims of prosecutorial misconduct, the
trial record does not support them. Moreover, the district court instructed the
jury at the start of trial that attorney statements are not evidence, rendering
any potential prejudice harmless. 6 Meza, 701 F.3d at 429. Additionally, given
the strength of the evidence presented against the Boltons at trial, it is unlikely
that the verdict would have been different absent the prosecutor’s remarks. Id.
The prosecutor’s alleged misconduct, even if proven, did not amount to error,
plain or otherwise. Bennett, 874 F.3d at 247–48.
Jury Instructions
According to Charles, “[t]he cumulative errors in the indictment, jury
instructions, jury verdict form and response to jury notes violated [his] Fifth

6

The district court stated:

The first step in the trial will be the opening statements. The government in
its opening statement will tell you about the evidence which it intends to put
before you so that you will have an idea or a roadmap as to what the
government's case is going to be. Just as the indictment is not evidence, neither
is the opening statement evidence. Its purpose is only to help you understand
what the evidence will be and what the government will try to prove.

20

Case: 17-60502

Document: 00514687673

Page: 21

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
and Fourteenth Amendment rights to due process and a fair trial and resulted
in faulty guilty verdicts and sentences.” We disagree. A review of Charles’s
seven arguments on this issue in the context of the record reveals that he has
failed to show plain error with respect to the indictment (for reasons previously
explained), the jury instructions, or the jury verdict form. See Fairley, 880 F.3d
at 208. We first note that any instances when the district court misstated an
oral instruction were subsequently cured by the correct written instructions
that were provided to the jury. Thus, he has failed to show plain error on any
of his arguments to this effect. Id. We reject all of Charles’s additional claims
about the jury instructions as meritless.
Sentencing
In sentencing Charles, the district court upwardly varied from the
guidelines range of 27 to 33 months, adding an additional 12 months for the
unpaid taxes on the FCSO food theft, and sentenced him to 45 months of
imprisonment.

The district court also imposed three years of supervised

release with a special condition requiring payment of $145,849.78 in
restitution and a $10,000 fine. The district court sentenced Linda to 30 months
of imprisonment, along with one year’s supervised release, a $6,000 fine, and
restitution of $145,849.78, owed jointly and severally with Charles.
A. Loss Amount
Charles and Linda both argue that the district court improperly
calculated the loss amount. We disagree. A district court’s loss calculation is
a factual finding that this court reviews for clear error. See Fairley, 880 F.3d
at 215. The district court’s method of calculation is an application of the
guidelines that this court reviews de novo. Id. “[T]he guidelines emphasize
the deference that must be shown to the sentencing judge, who is in a unique
position to assess the applicable loss, so this court need only determine
21

Case: 17-60502

Document: 00514687673

Page: 22

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
whether the district court made ‘a reasonable estimate of the loss.’” Id. “Under
the Sentencing Guidelines, the base offense level for a tax fraud offense derives
from the amount of loss that is the object of the offense.” United States v.
Johnson, 841 F.3d 299, 303 (5th Cir. 2016). If the tax loss is uncertain, the
district court is permitted to “make a reasonable estimate based on the
available facts.” Id. “To prevail on an argument that the district court’s
calculation of tax loss was clearly erroneous, a defendant must introduce
evidence to contradict or rebut the alleged improper computation of the loss.”
Id.
The district court may include tax losses in the total loss computation
that qualify as relevant conduct under U.S.S.G. § 1B1.3, whether charged or
not. See United States v. Powell, 124 F.3d 655, 666 (5th Cir. 1997) (“[T]he facts
of [the defendant’s] conduct make clear that the district court did not clearly
err in deciding that the state tax evasion was part of [the defendant’s] relevant
conduct. It was therefore proper for the district court, in calculating [the
defendant’s] sentence, to include the amount of state fuel excise taxes evaded
in the total ‘tax loss’ used to determine [the defendant’s] base offense level.”).
“It is well established . . . that a ‘jury’s verdict of acquittal does not
prevent the sentencing court from considering conduct underlying the
acquitted charge, so long as that conduct has been proved by a preponderance
of the evidence.’” United States v. Andradi, 309 F. App’x 891, 893 (5th Cir.
2009) (quoting United States v. Watts, 519 U.S. 148, 157 (1997)).
Here, the district court’s total loss amount of $145,849.78 (as reflected in
the PSR) was based on the tax owed as a result of the charged offenses
($117,369.84) and the estimated amount of tax that the Boltons failed to pay
($28,479.94) on the food stolen from the FCSO Detention Center that was used
at their businesses. Testimony was presented at trial that the Boltons received
22

Case: 17-60502

Document: 00514687673

Page: 23

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
approximately $273,000 worth of checks from Lee as income. Charles
incorrectly argues that using the tax loss amounts from the Lee checks was
error because “[t]he John Lee cashed checks were proven to be false based on
the ‘inadmissible hearsay’ testimony of IRS Agent Luker.” As we have stated,
Agent Luker’s testimony that Lee told him that the checks were for “food and
liquor” does not negate Lee’s statements in the FBI 302 interview that he could
not remember what each individual check was for.

Additionally, these

statements do nothing to undermine the information in the PSR or show that
it “was inaccurate or materially untrue.” United States v. Scher, 601 F.3d 408,
414 (5th Cir. 2010) (“[The defendant] simply failed to produce reliable evidence
supporting an alternate number or demonstrating that the information in the
PSR was inaccurate or materially untrue.”).
Further, the district court properly included the uncharged tax loss of
$28,479.94 on grounds that the tax loss from the stolen food qualified as
relevant conduct. This conclusion was supported by witness statements and
detailed information in the PSR. Powell, 124 F.3d at 664 (observing that
relevant conduct includes “all such acts and omissions that were part of the
same course of conduct or common scheme or plan as the offense of conviction”
(quoting U.S.S.G. § 1B1.3(a)(2))).
Additionally, the district court’s inclusion of the loss amount from Count
1 was proper. Charles’s acquittal on Count 1 did not prevent the district court
from considering the conduct underlying the acquitted charge as long as it was
proven by a preponderance of the evidence, which it was in this case. Watts,
519 U.S. at 157; Andradi, 309 F. App’x at 893. There was sufficient evidence
presented at trial to prove that the Boltons committed tax fraud in 2009 and
they were both convicted of filing false returns that year.
23

Case: 17-60502

Document: 00514687673

Page: 24

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
In sum, because the Boltons have failed to produce sufficient rebuttal
evidence as to the loss amount, the district court did not clearly err in adopting
the PSR’s loss amount of $145,849.78. Scher, 601 F.3d at 414.
B. Sentences
Charles and Linda both argue that their sentences were substantively
unreasonable or otherwise defective. Neither Charles nor Linda objected to
their sentences in the proceedings below so their claims on appeal are reviewed
for plain error. See United States v. Ruiz, 621 F.3d 390, 398 (5th Cir. 2010).
“A sentence within the Guidelines range is presumptively reasonable,
and this presumption is rebutted only if the appellant demonstrates that the
sentence does not account for a factor that should receive significant weight,
gives significant weight to an irrelevant or improper factor, or represents a
clear error of judgment in balancing sentencing factors.” United States v.
Hernandez, 876 F.3d 161, 166 (5th Cir. 2017). On the other hand, “[a] nonGuidelines sentence unreasonably fails to reflect the statutory sentencing
factors set forth in § 3553(a) where it (1) does not account for a factor that
should have received significant weight, (2) gives significant weight to an
irrelevant or improper factor, or (3) represents a clear error of judgment in
balancing the sentencing factors.” United States v. Nguyen, 854 F.3d 276, 283
(5th Cir. 2017). When “reviewing a challenge to the length of a non-Guidelines
sentence, this court ‘may take the degree of variance into account and consider
the extent of a deviation from the Guidelines.’” Id. We give “‘due deference to
the district court’s decision that the § 3553(a) factors, on a whole, justify the
extent of the variance.’” Id. (quoting Gall v. United States, 552 U.S. 38, 51
(2007)).
Charles argues that his sentence was substantively unreasonable or
otherwise defective and that the district court’s upward variance was not
24

Case: 17-60502

Document: 00514687673

Page: 25

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
warranted. This argument fails. The district court based the upward variance
on relevant § 3553(a) factors, including Charles’s history and characteristics
(specifically his theft of food from the FCSO detention center) and the need to
deter future criminal conduct. See 18 U.S.C. § 3553(a)(1)–(2). The district
court was within its discretion to use the food theft as a basis for an upward
variance because it was admitted as relevant conduct in the PSR and was not
established

to

be

materially

untrue,

inaccurate

or

unreliable.

See

U.S.S.G. § 1B1.3(a)(2); United States v. Zuniga, 720 F.3d 587, 591 (5th Cir.
2013). As the government further points out, the district court was permitted
to consider the food theft in the context of the upward variance even it was
determined not to be relevant conduct. United States v. Rhine, 637 F.3d 525,
528–29 (5th Cir. 2011). Moreover, contrary to Charles’s assertion, the record
reveals that the district court explained that it was imposing the upward
variance because, among other reasons, “[t]here was a culture of corruption in
the Forrest County Jail, and [Charles] knew it and . . . allowed it to go on.” For
these reasons, Charles has failed to show that the district court plainly erred
in imposing his sentence or in applying the sentencing factors under § 3553(a).
Nguyen, 854 F.3d at 283. His remaining contentions on this issue are denied
as meritless.
Linda claims that her sentence was substantively unreasonable because
the loss amount was an inadequate measure of culpability and the district
court failed to consider other relevant sentencing factors such as her age and
the fact that she had “nearly zero chance of recidivism.” Her argument is
misplaced.

This court has acknowledged that “[a] sentence within the

Guidelines range is presumptively reasonable, and this presumption is
rebutted only if the appellant demonstrates that the sentence does not account
for a factor that should receive significant weight, gives significant weight to
25

Case: 17-60502

Document: 00514687673

Page: 26

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
an irrelevant or improper factor, or represents a clear error of judgment in
balancing sentencing factors.” See Hernandez, 876 F.3d at 166. Although
Linda attempts to argue that the total loss amount was an inadequate measure
of her culpability, she was convicted by a jury on five counts of filing false tax
returns and she was unable to present evidence to rebut the loss amount as
shown in the PSR or to prove that it “was inaccurate or materially untrue” in
general or as it related specifically to her. Scher, 601 F.3d at 414. While
Linda’s age and allegedly low chances of recidivism might be relevant
considerations, the district court was free to give other § 3553(a) factors more
significant weight in imposing her sentence. 18 U.S.C. § 3553(a). Accordingly,
Linda has failed to rebut the presumption of reasonableness afforded to her
within-guidelines sentence. United States v. Gomez-Herrera, 523 F.3d 554,
565–66 (5th Cir. 2008) (“As [the defendant] was sentenced within a properly
calculated Guidelines range, his sentence is entitled to a presumption of
reasonableness that we see no reason to disturb.”). Consequently, we hold that
the district court did not plainly err in imposing Linda’s sentence. See Ruiz,
621 F.3d at 398.
C. Restitution
Charles argues that the district court erred in imposing restitution. We
review Charles’s claim that the district court lacked the authority to impose
restitution de novo. See United States v. Westbrooks, 858 F.3d 317, 327 (5th
Cir. 2017). We review the restitution amount imposed by the district court for
abuse of discretion. United States v. Benns, 810 F.3d 327, 329 (5th Cir. 2016).
“Restitution to the IRS may be imposed as a condition of supervised
release under § 3583[.]” Nolen, 472 F.3d at 382. To calculate the restitution
amount, the district court is granted wide latitude and “may simply make a
reasonable estimate based on the available facts.” Westbrooks, 858 F.3d at 329.
26

Case: 17-60502

Document: 00514687673

Page: 27

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
Nevertheless, “a restitution award due prior to the commencement of a term of
supervised release is a component of the sentence, not a condition of supervised
release,” and is therefore unauthorized. Id. at 328.
Charles’s general challenge to the district court’s authority to impose
restitution fails as it is well-established that “[r]estitution to the IRS may be
imposed as a condition of supervised release under § 3583[.]” Nolen, 472 F.3d
at 382. However, he does correctly argue and the government concedes that “a
restitution award due prior to the commencement of a term of supervised
release is a component of the sentence, not a condition of supervised release,”
and is therefore unauthorized. Westbrooks, 858 F.3d at 328. Here, the district
court’s condition that the restitution amount was due “immediately” 7 was
unauthorized under this court’s precedent in Westbrooks. Id. at 328 (“We thus
conclude that the judgment contains an error in ordering that [the defendant]
begin making payments while in prison—a timeline that exceeds the court’s
statutory authority. But that error does not overcome the other indications
that the court intended to impose restitution under the statute permitting it
as part of supervised release.”). Accordingly, we modify the judgment to reflect
that the Boltons do not owe restitution until their terms of supervised release
begin. Id. (“The most efficient remedy in this situation is to modify the
judgment so that [the defendant] does not owe restitution until she begins her
term of supervised release.” (citing 28 U.S.C. § 2106)).
Finally, as to the amount of restitution, this court gives the district court
“wide latitude” to determine the amount of loss based on the available facts.

The district court stated at sentencing: “It’s ordered that the defendant pay a
thousand dollars a month toward the restitution beginning immediately. Payment begins
and shall continue while he is in prison.”
7

27

Case: 17-60502

Document: 00514687673

Page: 28

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
Westbrooks, 858 F.3d at 329. Because the district court used the same figures
to calculate the restitution amount that it used to calculate the damages
amount, Charles has failed to show that the restitution award was an abuse of
discretion. See Scher, 601 F.3d at 414. All of his remaining arguments on this
issue are meritless.
Conflict-Free Choice of Counsel or Ineffective Assistance of Counsel
Charles claims that his trial counsel (Owen) “labored under an actual
conflict of interest and provided unconstitutional representation before trial,
during trial, and at sentencing because of a direct conflict of interest
concerning Owen’s relationship to attorney John Lee.” Charles presented his
allegations of conflict of counsel and ineffective assistance of counsel in three
separate post-trial motions, all three of which moved for a new trial.
A district court’s denial of a motion for a new trial is reviewed for abuse
of discretion. Olibas v. Barclay, 838 F.3d 442, 448 (5th Cir. 2016). “This
standard is necessarily deferential to the trial court because we have only read
the record, and have not seen the impact of the witnesses on the jury or
observed the demeanor of the witnesses ourselves, as has the trial judge.”
United States v. Stanford, 823 F.3d 814, 838 (5th Cir. 2016). Questions of law
are reviewed de novo. United States v. Anderson, 755 F.3d 782, 800 (5th Cir.
2014). When there are mixed questions of law and fact, this court reviews “the
underlying facts for abuse of discretion, but the conclusions to be drawn from
those facts de novo.” Stanford, 823 F.3d at 838.
Whether a defendant’s counsel labored under a conflict of interest is a
mixed question of law and fact that this court reviews de novo. United States
v. Hernandez, 690 F.3d 613, 619 (5th Cir. 2012). We also conduct a de novo
review of the district court’s determinations concerning ineffective assistance
of counsel claims. See United States v. Shepherd, 880 F.3d 734, 740 (5th Cir.
28

Case: 17-60502

Document: 00514687673

Page: 29

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
2018). A district court’s decision to disallow substitution of counsel is reviewed
for abuse of discretion. United States v. Jones, 733 F.3d 574, 587 (5th Cir.
2013).
Although generally disfavored, a new trial may be granted on the basis
of newly discovered evidence when “(1) the evidence is newly discovered and
was unknown to the defendant at the time of trial; (2) the failure to detect the
evidence was not due to a lack of diligence by the defendant; (3) the evidence
is not merely cumulative or impeaching; (4) the evidence is material; and (5)
the evidence if introduced at a new trial would probably produce an acquittal.”
Anderson, 755 F.3d at 800; Fed. R. Crim. P. 33.
“The Sixth Amendment right to counsel includes the ‘right to
representation that is free from any conflict of interest.’” Hernandez, 690 F.3d
at 618. Generally, this court will determine that “a conflict exists when defense
counsel allows a situation to arise that tempts a division in counsel’s loyalties.”
Id. “If a defendant chooses to proceed with representation by counsel who has
a conflict of interest, a district court must conduct what is commonly known as
a ‘Garcia hearing’ 8 to ensure a valid waiver by the defendant of his Sixth
Amendment right.” Id. A district court’s requirement to conduct a Garcia
hearing only exists if there is an actual conflict of interest and not just a
“speculative or potential conflict.” Id. at 618–19.
Ineffective assistance of counsel claims are evaluated under the legal
standard articulated in Strickland v. Washington, 466 U.S. 668 (1984). Under
Strickland, a defendant must prove both deficient performance and prejudice.
466 U.S. at 700. To prove deficient performance, the defendant must show that

8

United States v. Garcia, 517 F.2d 272, 278 (5th Cir. 1975).

29

Case: 17-60502

Document: 00514687673

Page: 30

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
his counsel’s performance “fell below an objective standard of reasonableness.”
Id. at 688. To show prejudice, the defendant “must show that there is a
reasonable probability that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different.” Id. at 694.
Charles’s claim that Owen labored under an actual conflict of interest
when he represented Charles is meritless.

In its memorandum opinion

denying Charles’s motions for post-trial relief, the district court carefully
described the payment arrangements between Charles and Owen and the
parties that paid Owen’s retainer on Charles’s behalf and Charles’s knowledge
of those payments. The district court clarified that Lee was not a government
witness, he was never called to testify at trial, and the parties understood that
if he were called, he would invoke his Fifth Amendment privilege against selfincrimination and not testify. Additionally, the record reflects that Charles
gave Owen a check written by Lee to represent him in the food theft case back
in 2014, but the tax fraud investigation against Lee did not commence until
2016.

Consequently, Owen’s acceptance of Lee’s payment could not have

created a conflict in Owen’s representation of Charles.

Moreover, as the

district court noted, Charles not only knew of Lee’s payments to Owen, he
hand-delivered the checks. He has failed to meet the requirements for a new
trial in that the evidence he attempts to use to support his motion was known
and available to him several years prior to the commencement of his trial.
Anderson, 755 F.3d at 800; Fed. R. Crim. P. 33.
Charles has also failed to show that he was denied his “counsel of choice”
at sentencing. As the government points out, neither the district court nor
Owen knew that Charles had retained new counsel to represent him at
sentencing until shortly before the hearing. The district court was within its
30

Case: 17-60502

Document: 00514687673

Page: 31

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
sound discretion to deny Charles’s motion to continue as it was his fourth
motion. At that point, Huntley had neither sought pro hac vice admission nor
made an appearance to represent Charles. Nevertheless, the district court
“allowed the Boltons to confer privately with [Huntley], along with a
representative of the local Federal Public Defender’s Office invited by the
district court, to determine who should represent [Charles]. Owen appeared
at sentencing on behalf of [Charles], but the district court allowed Huntley to
unofficially appear on [Charles]’s behalf as well.” The district court went above
and beyond to accommodate Charles’s “choice of counsel” at sentencing and his
choice to instruct Owen to continue to represent Charles alongside Huntley at
sentencing was not an abuse of discretion. See United States v. GonzalezLopez, 548 U.S. 140, 152 (2006) (observing that trial courts have “wide latitude
in balancing the right to counsel of choice against the needs of fairness and
against the demands of its calendar”). Likewise, the district court’s decision to
deny Charles a Garcia hearing was proper given that the district court
conducted extensive fact-finding and concluded that no actual conflict existed.
Hernandez, 690 F.3d at 618–19 (noting that a district court’s requirement to
conduct a Garcia hearing only exists if there is an actual conflict of interest
and not just a “speculative or potential conflict”).

His remaining arguments

on this issue are denied as meritless.
Attorney-Client Privilege Waiver
Charles argues that his communications with Owen should be protected
by the attorney-client privilege, that he did not waive that privilege, and that
the

district

court

erred

in

granting

the

government’s

motion

for

reconsideration and unsealing the record. He also complains that the district
court did not have jurisdiction over his case when it issued an order on July
24, 2017 for him to file a response to the government’s motion for
31

Case: 17-60502

Document: 00514687673

Page: 32

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
reconsideration. He argues that this is because he filed an appeal on July 13,
2017 and this court had accepted jurisdiction which effectively divested the
district court of jurisdiction over the proceedings at the time it ordered him to
respond to the government’s motion.
“In evaluating a claim of attorney-client privilege, we review factual
findings for clear error and ‘the application of the controlling law de novo.’” In
re Itron, Inc., 883 F.3d 553, 557 (5th Cir. 2018). The controlling law to be
applied here is that of Mississippi, which governs . . . any assertion of attorneyclient privilege or putative waiver thereof. Id. “Our task is to apply the law
as would the Mississippi Supreme Court.” Id. (citing Guilbeau v. Hess Corp.,
854 F.3d 310, 311 & n.4 (5th Cir. 2017)). Mississippi law allows clients the
“privilege to refuse to disclose . . . any confidential communication[s] made to
facilitate professional legal services, if those communications were made
between the client . . . and [his] lawyer or among lawyers . . . representing the
same client.”

Id. (citing Miss. R. Evid. 502(b) (internal quotation marks

omitted)).
“By definition, the attorney-client privilege protects only confidential
communications.” Id. at 558 (citing Miss. R. Evid. 502(b) (emphasis omitted)).
A client waives the privilege “[b]y disclosing such communications to third
parties—such as by revealing them in open court[.]” Id. The waiver extends to
related subject matter. Id. A client also “waives the privilege by affirmatively
relying on attorney-client communications to support an element of a legal
claim or defense—thereby putting those communications ‘at issue’ in the case.”
Id. That is to say, “when a party entitled to claim the attorney-client privilege
uses confidential information against his adversary (the sword), he implicitly
waives its use protectively (the shield) under that privilege.” Id.
32

Case: 17-60502

Document: 00514687673

Page: 33

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
The issue of whether Charles waived the attorney-client privilege arose
out of Owen’s filing a motion to deem the privilege and the work-product
doctrine waived so that his responses to Charles’s allegations could be filed in
the public record. In June 2017, the district court found that Charles had
waived the attorney-client privilege but ordered that Owen’s responses to
Charles’s allegations against him be filed under seal until the conclusion of the
Boltons’ convictions and sentences.

However, in its order placing Owen’s

responses under seal, the district court acknowledged “that Charles has
repeated[ly] used both this Court and the media in an attempt to [publicly]
vilify both Owen and the Government.” The government filed a motion to
reconsider requesting that the responses be unsealed. Charles was ordered to
respond and the district court ultimately granted the government’s motion for
reconsideration stating that “[t]he Court is concerned only with previously
privileged information which could prejudice Bolton on appeal or in the event
of a new trial. Because Bolton makes no specific arguments towards any of the
previously privileged information, the Court finds that the Motion for
Reconsideration should be granted.” Charles then filed a second notice of
appeal, No. 17-60576, of the district court’s order granting the motion for
reconsideration and unsealing Owen’s responses to Charles’s allegations
against him.
Charles’s argument is unconvincing that the district court was divested
of jurisdiction when it ordered him to file a response to the government’s
motion for reconsideration. The Supreme Court has held and this court has
recently recognized that “[a]n appeal divests the district court of its jurisdiction
‘over those aspects of the case involved in the appeal.’” United States v. Pena,
713 F. App’x 271, 272 (5th Cir. 2017) (per curiam) (unpublished) (quoting
Marrese v. Am. Acad. of Orthopaedic Surgeons, 470 U.S. 373, 379 (1985)). As
33

Case: 17-60502

Document: 00514687673

Page: 34

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
Charles acknowledges, he has filed two appeals: (1) No. 17-60502, filed on July
13, 2017, pertaining to his convictions and sentences and (2) No. 17-60576, filed
August 2017, pertaining to the district court’s grant of the motion for
reconsideration and the unsealing of Owen’s responses.

The only appeal

pending at the time the district court issued its order to him to respond to the
government’s motion for reconsideration was No. 17-60502, the appeal
pertaining to his convictions and sentences. The district court had not been
divested of jurisdiction with respect to the issues involved in Charles’s second
appeal pertaining to his allegations against Owen, waiver of the attorneyclient privilege, release of the work-product doctrine information, and
unsealing the record. Marrese, 470 U.S. at 379; Pena, 713 F. App’x at 272.
Next, under controlling Mississippi law, Charles waived the attorneyclient privilege when he charged Owen with providing him with ineffective
assistance and further when he made public statements to third parties via
the media, social media, the court, and the press, to publicly criticize and make
derogatory comments about Owen and his firm’s representation of him. See In
re Itron, Inc., 883 F.3d at 558 (noting that a client waives the privilege “[b]y
disclosing such communications to third parties—such as by revealing them in
open court” and “by affirmatively relying on attorney-client communications to
support an element of a legal claim or defense—thereby putting those
communications ‘at issue’ in the case”). The district court properly granted the
government’s motion for reconsideration to modify the protective order and
unseal Owen’s responses to Charles’s allegations. See United States v. Morales,
807 F.3d 717, 723 (5th Cir. 2015). His remaining arguments on this issue are
denied as meritless.

34

Case: 17-60502

Document: 00514687673

Page: 35

Date Filed: 10/18/2018

No. 17-60502
c/w No. 17-60576
III. Conclusion
For the foregoing reasons, we AFFIRM the convictions and sentences of
Charles and Linda Bolton and MODIFY the district court’s judgment to show
that the restitution owed by the Boltons does not become due until they begin
their terms of supervised release.

35

APPENDIX C

Case: 17-60502

Document: 00514692617

Page: 1

Date Filed: 10/22/2018

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_____________________
NO. 17-60502

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
CHARLES BOLTON; LINDA BOLTON,
Defendants-Appellants.

Consolidated with 17-60576
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
CHARLES BOLTON,
Defendant-Appellant.

Appeal From The United States District Court
For The Southern District of Mississippi
Honorable Keith Starrett, District Judge
Criminal Docket No. 16-CR-00007
MOTION TO CORRECT STATEMENT
The government respectfully requests that this Court correct one statement
in its opinion regarding allegations of a Brady violation arising from an FBI 302
report of an interview with John Lee. In particular, the opinion states that the FBI

Case: 17-60502

Document: 00514692617

Page: 2

Date Filed: 10/22/2018

302 was turned over as required Jencks material. Slip op. at 15. However, the
author of the report, an FBI agent, did not testify, and the FBI 302 thus was not
turned over as required Jencks material.
Rather, IRS Agent Luker testified, and Agent Luker’s investigative report
was turned over under Jencks. As the government stated in its brief, “the Boltons
received Agent Luker’s report as Jencks material.” Gov. Br. at 60 (citing district
court order at ROA.17-60502.372); see ROA.17-60502.6687-95 (Luker report).
Further, as the record reflects, the district court, in its order denying a renewed
motion for new trial and for discovery, stated, “The Government turned over Agent
Luker’s report of the interview as required Jencks material. The FBI report was not
turned over because it was not required to be turned over, as it was not exculpatory
or impeaching, nor was it a statement of a testifying witness.” ROA.17-60502.372.
The government thus respectfully requests that the opinion be corrected in this
regard.
Jeffrey M. Brandt, counsel for defendant-appellant Linda Bolton, stated that
Linda Bolton concurs in the government’s request that the Court correct the
statement that the FBI 302 was turned over as required Jencks material. However,
a representative from the office of Ivan Bates, counsel for defendant-appellant
Charles Bolton, stated, “Charles Bolton does not concur. The court’s opinion was

2

Case: 17-60502

Document: 00514692617

Page: 3

Date Filed: 10/22/2018

based in part on this erroneous fact, and it may have led to the court’s ultimate
conclusion.”
CONCLUSION
For the foregoing reasons, the government respectfully requests that the Court
correct the statement at page 15 of its opinion to reflect that the FBI 302 was not
turned over as required Jencks material.
Respectfully submitted,

PETER G. STRASSER
UNITED STATES ATTORNEY

/s/ Diane Hollenshead Copes
DIANE HOLLENSHEAD COPES
Assistant United States Attorney
LA Bar Roll No. 23456
U.S. Attorney’s Office (E.D. La.)
650 Poydras Street, Suite 1600
New Orleans, Louisiana 70130
Telephone. (504) 680-3029
E-Mail: diane.copes@usdoj.gov

3

Case: 17-60502

Document: 00514692617

Page: 4

Date Filed: 10/22/2018

CERTIFICATE OF SERVICE AND ECF COMPLIANCE
I hereby certify that on this 22nd day of October, 2018, I electronically filed
the foregoing with the Clerk of Court by using the CM/ECF system, which will
send a notice of electronic filing to ECF-registered counsel of record.
I further certify the foregoing document meets the required privacy
redactions; that it is an exact copy of the paper document; and the document has
been scanned with the most recent version of a commercial virus scanning program
and is virus-free.
/s/Diane Hollenshead Copes
DIANE HOLLENSHEAD COPES
Assistant U.S. Attorney

4

Case: 17-60502

Document: 00514692617

Page: 5

Date Filed: 10/22/2018

CERTIFICATE OF COMPLIANCE
Certificate of Compliance with Type-Volume Limitation, Typeface
Requirements, and Type Style Requirements
1.
This document complies with the type-volume limitation of FED. R.
APP. P. 27(d)(2) because:


this document contains 313 words, excluding the parts of the
document exempted by FED. R. APP. P. 32(f), or

G

this document uses a monospaced typeface and contains ___________
lines of text, excluding the parts of the document exempted by FED.
R. APP. P. 32(f).

2.
This document complies with the typeface requirements of FED. R.
APP. P. 32(a)(5) and the type style requirements of FED. R. APP. P. 32(a)(6)
because:


this document has been prepared in a proportionally spaced typeface
using Word 2010 in 14 point New Times Roman, or

G

this document has been prepared in a monospaced typeface using
_______________[state name and version of word processing
program ] with ___________ [state number of characters per inch and
name of type style].

/s/ Diane Hollenshead Copes
DIANE HOLLENSHEAD COPES
Assistant U.S. Attorney
October 22, 2018

5

APPENDIX D

Case: 17-60502

Document: 00514694374

Page: 1

Date Filed: 10/23/2018

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
___________________
No. 17-60502
___________________
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
CHARLES BOLTON; LINDA BOLTON,
Defendants - Appellants
Consolidated with 17-60576
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
CHARLES BOLTON,
Defendant - Appellant
_______________________
Appeals from the United States District Court
for the Southern District of Mississippi
_______________________

Case: 17-60502

Document: 00514694374

Page: 2

Date Filed: 10/23/2018

Before STEWART, Chief Judge, and WIENER and HIGGINSON, Circuit
Judges.
PER CURIAM:
IT IS ORDERED that appellee’s opposed motion to correct this court’s
opinion is GRANTED.

APPENDIX E

Case: 17-60502

Document: 00514696499

Page: 1

Date Filed: 10/24/2018

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_____________________
NO. 17-60502

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
CHARLES BOLTON; LINDA BOLTON,
Defendants-Appellants.

Consolidated with 17-60576
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
CHARLES BOLTON,
Defendant-Appellant.

Appeal From The United States District Court
For The Southern District of Mississippi
Honorable Keith Starrett, District Judge
Criminal Docket No. 16-CR-00007
MOTION TO CORRECT SUBSTITUTED STATEMENT
The government respectfully requests that this Court amend its substituted
opinion and apologizes for failing to sufficiently communicate the problematic

Case: 17-60502

Document: 00514696499

Page: 2

Date Filed: 10/24/2018

language in the first instance. As discussed below, the government respectfully
suggests that the Court simply delete the sentence.
In its original opinion, on page 15, this Court stated:
Further, the government did not withhold the report from
the Boltons; it was turned over as required Jencks5
material.
5

18 U.S.C. § 3500.

The government understood this reference to the “report” to mean the FBI
302, which was not turned over to the Boltons. See ROA.17-60203.372 (district
court opinion stating, “The FBI report was not turned over because it was not
required to be turned over, as it was not exculpatory or impeaching, nor was it a
statement of a testifying witness.”).
Yesterday, the government moved to correct the reference in the Court’s
opinion but apologizes for failing to explain the problem sufficiently as, on page
15, the Court substituted the following language:
Further, the government did not withhold the report from
the Boltons; it voluntarily turned over the report under
Jencks.5
5

18 U.S.C. § 3500.

2

Case: 17-60502

Document: 00514696499

Page: 3

Date Filed: 10/24/2018

To be clear, the FBI 302 was not turned over either voluntarily or as Jencks
material. 1 Rather, the district court ruled that the FBI 302 was not Brady material
and denied discovery of the FBI 302.2
For simplicity’s sake, the government respectfully suggests that the Court
consider simply deleting the sentence and footnote. Jeffrey M. Brandt, counsel for
defendant-appellant Linda Bolton, concurs in this request for relief. Charles
Bolton’s counsel did not respond to the government’s email requesting his
position, although a representative from the office of Ivan Bates stated yesterday
that Charles Bolton did not concur with the government’s initial motion to correct
the statement: “Charles Bolton does not concur. The court’s opinion was based in
part on this erroneous fact, and it may have led to the court’s ultimate conclusion.”
Presumably, Mr. Bolton also would oppose the relief sought herein.

1

A description of Jencks materials given over pretrial is at ROA.17-60502.6675-76. As
the government stated in its brief, IRS Agent Bradley Luker testified, and his report was turned
over as Jencks. Gov. Br. at 60 (citing district court order at ROA.17-60502.372); see also
ROA.17-60502.6687-95 (Luker report).
2

See Gov. Br. at 11 (citing ROA.17-60502.368-74); Gov. Br. at 55-63 & n.57 (citing
ROA.17-60502.369-73, 2133).

3

Case: 17-60502

Document: 00514696499

Page: 4

Date Filed: 10/24/2018

CONCLUSION
For the foregoing reasons, the government respectfully requests that the Court
delete the statement at page 15 of its opinion regarding the government’s having
turned over the FBI 302 voluntarily or under Jencks.
Respectfully submitted,
PETER G. STRASSER
UNITED STATES ATTORNEY

/s/ Diane Hollenshead Copes
DIANE HOLLENSHEAD COPES
Assistant United States Attorney
LA Bar Roll No. 23456
U.S. Attorney’s Office (E.D. La.)
650 Poydras Street, Suite 1600
New Orleans, Louisiana 70130
Telephone. (504) 680-3029
E-Mail: diane.copes@usdoj.gov

4

Case: 17-60502

Document: 00514696499

Page: 5

Date Filed: 10/24/2018

CERTIFICATE OF SERVICE AND ECF COMPLIANCE
I hereby certify that on this 24th day of October, 2018, I electronically filed
the foregoing with the Clerk of Court by using the CM/ECF system, which will
send a notice of electronic filing to ECF-registered counsel of record.
I further certify the foregoing document meets the required privacy
redactions; that it is an exact copy of the paper document; and the document has
been scanned with the most recent version of a commercial virus scanning program
and is virus-free.
/s/Diane Hollenshead Copes
DIANE HOLLENSHEAD COPES
Assistant U.S. Attorney

5

Case: 17-60502

Document: 00514696499

Page: 6

Date Filed: 10/24/2018

CERTIFICATE OF COMPLIANCE
Certificate of Compliance with Type-Volume Limitation, Typeface
Requirements, and Type Style Requirements
1.
This document complies with the type-volume limitation of FED. R.
APP. P. 27(d)(2) because:


this document contains 423 words, excluding the parts of the
document exempted by FED. R. APP. P. 32(f), or

G

this document uses a monospaced typeface and contains ___________
lines of text, excluding the parts of the document exempted by FED.
R. APP. P. 32(f).

2.
This document complies with the typeface requirements of FED. R.
APP. P. 32(a)(5) and the type style requirements of FED. R. APP. P. 32(a)(6)
because:


this document has been prepared in a proportionally spaced typeface
using Word 2010 in 14 point New Times Roman, or

G

this document has been prepared in a monospaced typeface using
_______________[state name and version of word processing
program ] with ___________ [state number of characters per inch and
name of type style].

/s/ Diane Hollenshead Copes
DIANE HOLLENSHEAD COPES
Assistant U.S. Attorney
October 24, 2018

6

APPENDIX F

Case: 17-60502

Document: 00514699661

Page: 1

Date Filed: 10/26/2018

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
___________________
No. 17-60502
___________________
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
CHARLES BOLTON; LINDA BOLTON,
Defendants - Appellants
Consolidated with 17-60576
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
CHARLES BOLTON,
Defendant – Appellant
_______________________
Appeals from the United States District Court
for the Southern District of Mississippi
_______________________

Case: 17-60502

Document: 00514699661

Page: 2

Date Filed: 10/26/2018

Before STEWART, Chief Judge, and WIENER and HIGGINSON, Circuit
Judges.
PER CURIAM:
IT IS ORDERED that appellee’s opposed motion to correct this court’s
opinion issued October 23, 2018 is GRANTED.

APPENDIX G

Case: 17-60502

Document: 00514699852

Page: 1

Date Filed: 10/26/2018

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________________
No. 17-60502
_______________________
D.C. Docket No. 2:16-CR-7-1

United States Court of Appeals
Fifth Circuit

FILED
October 26, 2018
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
CHARLES BOLTON
Defendant - Appellant
Appeal from the United States District Court for the
Southern District of Mississippi
Before STEWART, Chief Judge, and WIENER and HIGGINSON, Circuit
Judges.
JUDGMENT
This cause was considered on the record on appeal and was argued by
counsel.
It is ordered and adjudged that the judgment of the District Court is
affirmed as modified.

Case: 17-60502

Document: 00514699872

Page: 1

Date Filed: 10/26/2018

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________________
No. 17-60502
_______________________
D.C. Docket No. 2:16-CR-7-2

United States Court of Appeals
Fifth Circuit

FILED
October 26, 2018
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
LINDA BOLTON,
Defendant - Appellant
Appeal from the United States District Court for the
Southern District of Mississippi
Before STEWART, Chief Judge, and WIENER and HIGGINSON, Circuit
Judges.
JUDGMENT
This cause was considered on the record on appeal and was argued by
counsel.
It is ordered and adjudged that the judgment of the District Court is
affirmed as modified.

Case: 17-60502

Document: 00514699814

Page: 1

Date Filed: 10/26/2018

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 17-60502
UNITED STATES OF AMERICA,

FILED
October 26, 2018
Lyle W. Cayce
Clerk

Plaintiff - Appellee
v.
CHARLES BOLTON; LINDA BOLTON,
Defendants - Appellants
Consolidated with 17-60576
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
CHARLES BOLTON,
Defendant - Appellant

Appeals from the United States District Court
Southern District of Mississippi
Before STEWART, Chief Judge, and WIENER and HIGGINSON, Circuit
Judges.
CARL E. STEWART, Chief Judge:
IT IS ORDERED that our prior panel opinion, United States v. Bolton,

Case: 17-60502

Document: 00514699814

Page: 2

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
No. 17-60502 c/w 17-60576, 2018 WL 5303661 (5th Cir. Oct. 23, 2018), is
WITHDRAWN and the following opinion is SUBSTITUTED therefor.
A grand jury indicted Plaintiffs-Appellants Charles Bolton (“Charles”)
and his wife, Linda Bolton (“Linda”), on five counts of attempted tax evasion
and five counts of filing false tax returns. The jury convicted Charles on four
of the attempted tax evasion counts and all five counts of filing false tax
returns. The jury acquitted both Boltons on one of the attempted tax evasion
counts, failed to reach a verdict as to Linda on the remaining attempted tax
evasion counts, and convicted Linda on all five counts of filing false tax returns.
The district court sentenced Charles to 45 months of imprisonment,
imposed three years of supervised release with a special condition requiring
payment of $145,849.78 in restitution and a $10,000 fine. The district court
sentenced Linda to 30 months of imprisonment, with a one-year term of
supervised release, a $6,000 fine, and restitution of $145,849.78, owed jointly
and severally with Charles. Both Charles and Linda appeal their convictions
and sentences. We affirm the Boltons’ convictions and sentences in all respects
except that we modify the district court’s judgment to reflect that the
restitution owed by the Boltons is not due until their terms of supervised
release commence.
I. Facts & Procedural History
In 1992, Charles became chief deputy sheriff of the Forrest County
Sheriff’s Office (“FCSO”) in Hattiesburg, Mississippi. He was terminated from
the FCSO in 2016 after he was convicted in this case. As chief deputy, he
oversaw the Forrest County Juvenile and Adult Detention Center. At that

2

Case: 17-60502

Document: 00514699814

Page: 3

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
time, he and his wife Linda also owned and operated two businesses, 1 Hall
Avenue Package Store and Sports 22 Café and Lounge.
In March 2014, the Federal Bureau of Investigation (“FBI”) and the
Mississippi State Auditor’s Office began an investigation into whether the
Boltons and others were stealing food from the FCSO’s Detention Center. 2 In
July 2015, the U.S. Attorney’s Office for the Southern District of Mississippi
received approval to recuse itself from the investigation and prosecution of
Charles, and the matter was re-assigned to the U.S. Attorney’s Office for the
Eastern District of Louisiana. Around that time, the FBI referred several
suspicious checks related to the Boltons’ businesses to Internal Revenue
Service (“IRS”) Special Agent Bradley Luker who began a criminal tax
investigation to determine whether the Boltons were guilty of violating any tax
laws. Agent Luker provided information about the criminal tax investigation
to Assistant United States Attorney Fred Harper of the Eastern District of
Louisiana who had been assigned to Charles’s case.
A federal grand jury returned a ten-count indictment in March 2016
charging the Boltons with attempted tax evasion and aiding and abetting in
attempted tax evasion for the tax years 2009 through 2013, in violation of 26
U.S.C. § 7201 and 18 U.S.C. § 2 (Counts 1–5), as well as filing false tax returns
and aiding and abetting in the filing of false tax returns for tax years 2009
through 2013, in violation of 26 U.S.C. § 7206(1) and 18 U.S.C. § 2 (Counts 6–

The Boltons’ businesses were Schedule C businesses which are considered sole
proprietorships. Taxes for Schedule C businesses are reported on the owner’s personal
income tax return.
1

The 2014 food theft investigation did not result in charges against the Boltons in the
underlying proceedings but the district court determined the incident to be relevant conduct
for purposes of sentencing and its calculation of the loss and restitution amounts. See
U.S.S.G. § 1B1.3.
2

3

Case: 17-60502

Document: 00514699814

Page: 4

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
10). After the Boltons were indicted, attorney Joe Sam Owen (“Owen”) enlisted
as counsel of record on behalf of Charles. Linda was represented by several
different attorneys before trial, and by attorney Robert McDuff at trial and
sentencing.
Prior to trial, the government stated its intent to introduce business
records, checks, check registers, and tax returns of an individual named John
Lee (“Lee”), who, through his law practice, Lee P.A., was involved with the
Boltons, as business or public records. The government also subpoenaed Lee
to testify at trial, and Charles subpoenaed a large number of checks from Lee’s
law practice as well as Lee’s casino gambling records.
Before trial, Lee hired attorney Rick Simmons who moved to quash a
subpoena by the government to testify at trial on grounds that Lee would be
invoking his Fifth Amendment privilege against self-incrimination.

The

district court denied the motion, but the parties stipulated at the outset of trial
that Lee would not actually testify even if called. 3 The parties also stipulated
that records or summaries of records were admissible as business records, and
the Boltons stipulated to the authenticity of their handwriting on various
exhibits.

The parties further stipulated that Lee had invoked his Fifth

Amendment privilege, and the jury was instructed that Lee would not be called
as a witness.
The Boltons’ three-day jury trial began in September 2016. At trial, the
government presented evidence that the Boltons treated money received by
their two businesses as “loans” rather than “income” when reporting their
business income on their personal income tax returns, prepared by Renee

The district court ruled that the Boltons could comment at trial on Lee’s invocation
of his Fifth Amendment privilege.
3

4

Case: 17-60502

Document: 00514699814

Page: 5

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
Moore (“Moore”) of Nicholson and Company, thus falsely reducing their tax
liability. The deposits in question included checks from various entities and
individuals, including Lee and Manheim Mississippi Auto Auction.
The jury ultimately convicted Charles on four counts of attempted tax
evasion and all five counts of filing false tax returns. The jury acquitted each
Bolton on one count of attempted tax evasion, failed to reach a verdict as to
Linda on the remaining attempted tax evasion counts, and convicted Linda on
all five counts of filing false tax returns.
The presentence reports (“PSRs”) for Charles and Linda described an
interview (referred to as an “FBI 302”) of Lee by federal agents regarding
checks he had given to Charles. Linda moved for a new trial based on an
alleged discrepancy between the information in the FBI 302 and the testimony
of Agent Luker. Linda also argued that the failure to disclose the substance of
the interview violated the government’s discovery obligations and constituted
a Brady violation. Charles joined the motion. The district court denied the
new trial motion, finding no discrepancy between Agent Luker’s trial
testimony and the information in the FBI 302.
Three days before sentencing, Charles’s attorney, Owen, advised the
court that Charles had obtained new counsel and that Charles would be
complaining about his (Owen’s) handling of the case. On the day of sentencing,
Charles sought to be represented by new counsel, Willie J. Huntley—an outof-state attorney who said he would need more time to review the case before
being ready to proceed. The district court declined to grant a continuance and
offered Charles the choice of being represented at sentencing by Owen or by an
attorney from the Federal Public Defender’s Office. Ultimately, Charles was
represented at sentencing by Owen, and Huntley was allowed to assist.
5

Case: 17-60502

Document: 00514699814

Page: 6

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
In sentencing Charles, the district court upwardly varied from the
guidelines range of 27 to 33 months, imposing a 45-month term of
imprisonment. The variance was based on the district court’s finding that he
had stolen food inventory from the FCSO Detention Center and used the food
at his Sports 22 restaurant and catering business. The district court also
imposed three years of supervised release with a special condition requiring
payment of $145,849.78 in restitution and a $10,000 fine. Charles reported to
federal prison on May 3, 2017. He then moved the district court for release
pending appeal, which the district court denied. 4
After sentencing, Owen sought and received permission to withdraw as
counsel of record for Charles. Three days after entry of the judgment, Charles
filed a notice of appeal, and also filed three motions seeking a new trial or
vacatur of his conviction and sentence. Among numerous other arguments,
Charles argued that his representation by Owen was paid for by Lee and was
therefore tainted by a conflict of interest.

This court remanded the case

pursuant to Federal Rule of Appellate Procedure 12.1(b) so that the district
court could rule on the motions, expressly declining to retain jurisdiction.
Following remand, the district court issued an order reviving the
pending motions, setting briefing deadlines, and ordering former counsel Owen
and McDuff to respond to various allegations of ineffective assistance of
counsel. The government filed a consolidated response to all of the Boltons’
pending motions, as did Owen and McDuff. On July 3, 2017, the district court
denied the new trial motions. Charles noticed his appeal on July 12 (entered
July 13), citing the district court’s July 3 new trial order. Linda noticed her
appeal on July 13, also citing the district court’s July 3 new trial order.

4

This court denied Charles’s motion for release pending appeal on August 7, 2017.

6

Case: 17-60502

Document: 00514699814

Page: 7

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
Owen asked the district court to deem the attorney-client privilege and
the work-product doctrine waived so that he could respond to the Boltons’
allegations of conflict and ineffective assistance of counsel. Charles objected
and Owen noted that, in multiple motions, he and his firm were accused of
harboring a conflict-of-interest and a litany of instances of ineffective
assistance. The government supported the waiver. Charles then sought a
protective order, which Owen opposed, precluding the availability of the
documents to the prosecution, law enforcement, or the public. Owen identified
the claims against him as involving an alleged conflict about Lee, trial
preparation and use of an expert, jury selection, trial strategy, exhibits,
witnesses, Linda’s decision not to testify, Charles’s decision not to testify,
Charles’s conviction, the PSR and objections, the in-camera sentencing
conference, the sentencing hearing, and the post-sentencing submissions
under seal.
The district court acknowledged that Charles had waived his attorneyclient privilege and work-product doctrine but determined that the documents
should be filed under seal and not served on the government. The government
moved for reconsideration on grounds that it would need the materials to
respond to any appeal filed by Charles and to defend against allegations of
ineffective assistance of counsel under 28 U.S.C. § 2255. The district court
granted the government’s motion and placed Owen’s response to Charles’s new
trial motions on the public docket, finding that Charles “did not point to a
single piece of formerly privileged evidence which would prejudice him either
on appeal or in the event of a new trial.” Charles noticed his appeal of that
order (appeal No. 17-60576).

Charles’s second appeal, No. 17-60576, was

consolidated with the existing appeal of the Boltons’ convictions and sentences,
No. 17-60502.
7

Case: 17-60502

Document: 00514699814

Page: 8

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
II. Discussion
The Boltons each raise a host of arguments on appeal including but not
limited to: (1) whether the indictment was sufficient; (2) whether the evidence
was sufficient to support the Boltons’ convictions; (3) whether one or more
Brady violations took place in the proceedings below; (4) whether the Boltons’
Confrontation Clause rights were violated; (5) whether the government
engaged in prosecutorial misconduct during trial; (6) whether the district court
erred in its issuance of jury instructions; (7) whether the district court erred in
imposing the Boltons’ sentences; (8) whether Charles was denied his right to
conflict-free choice of counsel or received ineffective assistance of counsel; and
(9) whether the district court erred in holding that Charles waived his
attorney-client privilege. We address each issue in turn.
Indictment
Charles argues that his indictment was insufficient. Because Charles
failed to preserve his objection to the alleged defective indictment, plain error
review applies. United States v. Robinson, 367 F.3d 278, 285 (5th Cir. 2004).
“Plain error exists if (1) there is an error, (2) the error is plain, . . . (3) the error
affect[s] substantial rights and (4) the error seriously affect[s] the fairness,
integrity or public reputation of judicial proceedings.” United States v. GarciaCarrillo, 749 F.3d 376, 378 (5th Cir. 2014) (per curiam) (internal quotation
marks and citation omitted).
“An indictment is legally sufficient if (1) ‘each count contains the
essential elements of the offense charged,’ (2) ‘the elements are described with
particularity,’ and (3) ‘the charge is specific enough to protect the defendant
against a subsequent prosecution for the same offense.’” United States v.
Fairley, 880 F.3d 198, 206 (5th Cir. 2018) (“‘[T]he validity of an indictment is
8

Case: 17-60502

Document: 00514699814

Page: 9

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
governed by practical, not technical considerations,’ and ‘[t]he basic purpose
behind an indictment is to inform a defendant of the charge against him[.]’”).
The government charged five counts of attempted tax evasion and aiding
and abetting in attempted tax evasion for the tax years 2009 through 2013 in
violation of 26 U.S.C. § 7201 and 18 U.S.C. § 2 (Counts 1-5), and five counts of
filing false tax returns and aiding and abetting in the filing of false tax returns
for the tax years 2009 through 2013 in violation of 26 U.S.C. § 7206(1) and 18
U.S.C. § 2 (Counts 6-10).
A. Tax Evasion
“The elements of [§7201 tax evasion are]: (1) willfulness, (2) existence of
a tax deficiency; and (3) an affirmative act constituting an evasion or
attempted evasion of the tax.” United States v. Nolen, 472 F.3d 362, 377 (5th
Cir. 2006).

The indictment charged that, for the tax evasion counts, the

Boltons “did willfully attempt to evade and defeat a large part of the income
tax due and owing by defendants to the United States of America by, among
other things, preparing and causing to be prepared, and by signing and causing
to be signed, a false and fraudulent joint U.S. Individual Income Tax Return,
Form 1040, on behalf of defendants, which was filed with the Internal Revenue
Service.” The indictment further alleged that the Boltons attempted to evade
and evaded the assessment of their income taxes by cashing tens of thousands
of dollars in checks purportedly issued in payment for liquor, wine, and
catering services to prevent those payments from being recorded on their
business bank statements; providing deceptive records to their tax return
preparer; and making false statements to their tax return preparer that some
payments for goods and services were loans. When compared to the elements
required to prove tax evasion under § 7201, the indictment was sufficient in
that it alleged with specificity the affirmative acts willfully taken by the
9

Case: 17-60502

Document: 00514699814

Page: 10

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
Boltons to evade the tax they knew they owed, provided the Boltons notice of
the alleged crime, and protected them from subsequent prosecution for the
same crime. Fairley, 880 F.3d at 206.
B. Filing False Tax Returns
“A person commits the felony of filing a false tax return in violation of 26
U.S.C. § 7206(1) when he ‘willfully makes and subscribes any return,
statement, or other document, which contains or is verified by a written
declaration that it is made under the penalties of perjury, and which he does
not believe to be true and correct as to every material matter.’” United States
v. Bishop, 264 F.3d 535, 546 (5th Cir. 2001) (quoting 26 U.S.C. § 7206(1)).
The indictment alleged that the Boltons “did willfully make and
subscribe to a joint United States Income Tax Return, Form 1040, which was
verified by a written declaration that it was made under penalty of perjury and
was filed with the Internal Revenue Service [which] defendants herein did not
believe to be true and correct as to every material matter for each calendar tax
year noted [2009–2013]” in that they knew and believed they had failed to
report a substantial amount of income on Line 22 of the Form.
Viewing the language of the indictment against the elements required to
prove the crime of filing a false tax return, the indictment was sufficient in
that it alleged with specificity the Boltons’ falsification of the tax returns,
provided the Boltons notice of the alleged crime, and protected the Boltons from
subsequent prosecution for the same crime.

Fairley, 880 F.3d at 206.

Accordingly, Charles failed to show plain error with respect to the sufficiency
of the indictments for tax evasion and filing false tax returns. Garcia-Carrillo,
749 F.3d at 378. In light of this holding, we do not reach Charles’s alternative
arguments as to the alleged insufficiency or defectiveness of the indictment.
10

Case: 17-60502

Document: 00514699814

Page: 11

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
Sufficiency of the Evidence
Both Charles and Linda argue that the evidence was insufficient to
support the jury’s verdicts of guilt against them as to the crimes of tax evasion
(Charles) and filing false tax returns (Charles and Linda).

The Boltons

preserved their challenges to the sufficiency of the evidence by moving for and
renewing their motions for a judgment of acquittal. Accordingly, “[w]e review
preserved challenges to the sufficiency of the evidence de novo, but we are
‘highly deferential to the verdict.’” United States v. Scott, 892 F.3d 791, 796
(5th Cir. 2018).
“When reviewing the sufficiency of the evidence, we view all evidence,
whether circumstantial or direct, in the light most favorable to the
government, with all reasonable inferences and credibility choices to be made
in support of the jury’s verdict.” Id. It is the province of the jury to “weigh any
conflicting evidence and to evaluate the credibility of witnesses.” Id. at 796–
97. We consider the evidence “sufficient to support a conviction if ‘any rational
trier of fact could have found the essential elements of the crime beyond a
reasonable doubt.’” Id. at 797. Our question is whether “the jury’s verdict was
reasonable, not whether we believe it to be correct.” Id.
The jury convicted Charles on four of the five counts of tax evasion.
Linda was not convicted of tax evasion. 26 U.S.C. § 7201 provides that “[a]ny
person who willfully attempts in any manner to evade or defeat any tax
imposed by this title or the payment thereof shall . . . be guilty of a felony[.]”
“The elements of [§ 7201 tax evasion are]: (1) willfulness, (2) existence of a tax
deficiency; and (3) an affirmative act constituting an evasion or attempted
evasion of the tax.” Nolen, 472 F.3d at 377. “Affirmative acts that satisfy the
[third] element may include keeping double sets of books, concealment of
assets, or ‘any conduct, the likely effect of which would be to mislead or to
11

Case: 17-60502

Document: 00514699814

Page: 12

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
conceal.’” United States v. Miller, 588 F.3d 897, 907 (5th Cir. 2009). To prove
willfulness “the government must show that: (1) the law imposed a duty on the
defendant; (2) the defendant knew of that duty; and (3) the defendant
voluntarily and intentionally violated that duty.”

Id.

“Such evidence is

ordinarily circumstantial, since direct proof is often unavailable.” United
States v. Kim, 884 F.2d 189, 192 (5th Cir. 1989). To prove a tax deficiency the
government must establish that the taxpayer had unreported taxable income.
United States v. Conaway, 11 F.3d 40, 43 (5th Cir. 1993).
The jury convicted both Charles and Linda of five counts of filing false
tax returns, or aiding and abetting in filing false tax returns, for the years of
2009 through 2013. A person commits the felony of filing a false tax return in
violation of 26 U.S.C. § 7206(1) when he “[w]illfully makes and subscribes any
return, statement, or other document, which contains or is verified by a written
declaration that it is made under the penalties of perjury, and which he does
not believe to be true and correct as to every material matter[.]”
At the Boltons’ trial, the government presented sufficient evidence that
Charles evaded taxes for the years 2010 through 2013 and that the Boltons
filed false tax returns in which they consistently underreported their income
from 2009 through 2013.

The government’s evidence included numerous

instances when the Boltons (1) cashed a significant number of checks before
they were recorded in the Boltons’ financial books, and (2) designated
significant amounts of income as non-taxable loans. Agent Luker testified at
trial that he had traced the income derived from the cashed checks and the
checks marked as loans in the Boltons’ records and concluded that they had a
tax deficiency resulting from underreporting their income from their two
businesses. Agent Luker used a multitude of specific examples of the checks
marked as loans and the checks that were cashed before they “hit the books”
12

Case: 17-60502

Document: 00514699814

Page: 13

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
to illuminate the discrepancy between the Boltons’ actual income and their
reported income. The government also presented a number of charts at trial
which featured year-by-year summary computations of the Boltons’ “reported”
versus their “corrected” taxable income resulting from cashed checks and
checks marked as loans.
Consequently, given this court’s high level of deference to the jury’s
verdict and the mountain of evidence presented at trial in support of the jury’s
verdict, specifically proving the elements of tax evasion as to Charles and filing
false returns as to both Charles and Linda, we hold that the evidence was
sufficient to support the Boltons’ convictions. Scott, 892 F.3d at 796–97. In
light of this holding, we do not reach either Charles’s or Linda’s alternative
arguments as to the alleged insufficiency of the evidence.
Alleged Brady Violations
The Boltons contend that the Brady material suppressed by the
government includes: (1) a Department of Justice memorandum dated July 29,
2015, (2) an FBI 302 interview report documenting Lee’s statements to law
enforcement that allegedly contradict the trial testimony of Agent Luker, (3) a
subpoena issued by the government to Carl Nicholson (“Nicholson”), and (4)
Lee’s plea agreement. “We review a district court’s determination on a Brady
claim de novo, though we defer to factual findings underlying the district
court’s decision.” United States v. Swenson, 894 F.3d 677, 683 (5th Cir. 2018)
(citing United States v. Cessa, 861 F.3d 121, 128 (5th Cir. 2017)).
Under Brady, “the government violates a defendant’s due process rights
if it withholds evidence that is favorable to the accused and material to the
defendant’s guilt or punishment.” Swenson, 894 F.3d at 683 (citing Brady v.
Maryland, 373 U.S. 83, 87 (1963)). The rule is applied regardless “of the good
faith or bad faith of the prosecution . . . [and] extends to impeachment evidence
13

Case: 17-60502

Document: 00514699814

Page: 14

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
as well as exculpatory evidence.” Id. (citing Youngblood v. West Virginia, 547
U.S. 867, 869 (2006); Brady, 373 U.S. at 87). For a defendant to prevail on a
Brady claim, he “must show: (1) the evidence at issue was favorable to the
accused, either because it was exculpatory or impeaching; (2) the evidence was
suppressed by the prosecution; and (3) the evidence was material.” Id. The
usual remedy for a Brady violation is a new trial. Swenson, 894 F.3d at 684.
The Boltons fail to make a successful argument on any of their purported
Brady claims. With respect to Charles’s argument regarding the DOJ
memorandum dated July 29, 2015, that memo simply addressed conflicts
within the US Attorney’s Office, Mississippi division, and authorized transfer
to the US Attorney’s Office, Louisiana division. This subject matter has no
bearing on Agent Luker’s status as an IRS agent within the Department of
Treasury. Moreover, the recusal information of the Mississippi division of the
US Attorney’s Office is immaterial to Charles’s ability to “prepare a proper
defense against the indictment” for his own crimes of tax evasion and filing
false tax returns. Accordingly, the memorandum does not qualify as Brady
material. Swenson, 894 F.3d at 683.
Both Charles and Linda argue that the FBI 302 interview report, which
documents Lee’s statements to law enforcement that allegedly contradict
Agent Luker’s trial testimony, was improperly suppressed Brady material.
They claim that they would have used Lee’s statements in the interview that
he could not remember what each and every check he wrote to the Boltons’
businesses was for to contradict Agent Luker’s testimony that Lee told him
that the checks were written for food and liquor. As the district court properly
observed, Lee’s statements did not go to the truth of Agent Luker’s testimony
or to his own credibility because they were intended to highlight the suspicious
nature of all the money going from Lee’s firm to the Boltons’ restaurant under
14

Case: 17-60502

Document: 00514699814

Page: 15

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
the auspices of purchasing “business supplies”; they were not solicited to
disprove Agent Luker’s testimony that Lee had told him that the checks were
written for food and liquor. United States v. St. Junius, 739 F.3d 193, 202 (5th
Cir. 2013) (“Under Federal Rule of Evidence 801(c), hearsay is a statement,
other than one made by the declarant while testifying at trial or a hearing,
offered in evidence to prove the truth of the matter asserted . . . The rule
against hearsay does not apply when an out-of-court statement is offered for
some purpose other than to prove the truth of the matter asserted.”).
Moreover, Lee’s statement to Agent Luker that the checks were written for
food and liquor does not contradict or undermine his statement in the FBI 302
interview that he could not remember what each individual check was for when
he was shown a spreadsheet of payments at a later date.

It is certainly

conceivable that Lee stood by his story that all of the checks were written either
for food or liquor without claiming to remember what each specific check was
written for. Accordingly, the FBI 302 interview report does not qualify as
Brady material. Swenson, 894 F.3d at 683.
Charles argues that the subpoena issued by the government to Nicholson
was improperly suppressed Brady material because it “addressed the nature
of certain checks that were written from John Lee to Joe Sam Owen and
provided written acknowledgement of those checks.”

As the government

observes, however, Charles’s argument on this issue goes to the purported
conflict of interest that he believed his attorney had—not to his own defense of
the charges against him for tax evasion and filing false tax returns.
Accordingly, the subpoena was immaterial and neither exculpatory nor
impeaching. Thus, it did not qualify as Brady material. Swenson, 894 F.3d at
683.
15

Case: 17-60502

Document: 00514699814

Page: 16

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
Finally, Charles fails to brief his argument that Lee’s plea agreement
was improperly suppressed Brady material and thus has waived the issue. See
Procter & Gamble Co. v. Amway Corp., 376 F.3d 496, 499 n.1 (5th Cir. 2004)
(“Failure [to] adequately [] brief an issue on appeal constitutes waiver of that
argument.”). In any event, the plea agreement was signed after the Boltons
were tried and convicted and thus could not have conceivably qualified as
Brady material. Swenson, 894 F.3d at 683.
Confrontation Clause Rights
Both Charles and Linda argue that their Confrontation Clause rights
were violated when Agent Luker was permitted to testify as to out-of-court
statements that Lee had made to him since Lee was not available for crossexamination at trial given his invocation of the Fifth Amendment right against
self-incrimination. “Alleged Confrontation Clause violations are reviewed de
novo and subject to harmless error analysis.” United States v. Garcia, 887 F.3d
205, 209 (5th Cir. 2018). However, “[a] defendant may not complain on appeal
of errors that he himself invited or provoked the [district] court . . . to commit.”
United States v. Salazar, 751 F.3d 326, 332 (5th Cir. 2014) (citing United States
v. Wells, 519 U.S. 482, 487–88 (1997)). Only errors attributed to the actions of
the defense will be considered invited errors. Id. The standard of review for
invited error is higher than that of plain error review. Id. “We will not reverse
on the basis of invited error, absent manifest injustice.” Id.
“The Confrontation Clause guarantees a defendant the opportunity for
effective cross-examination.” United States v. Lockhart, 844 F.3d 501, 510 (5th
Cir. 2016) (citing Delaware v. Fensterer, 474 U.S. 15, 19–20 (1985)). The
Supreme Court has held “that the prosecution violates this clause when it
introduces ‘testimonial statements of a witness who did not appear at trial
unless he was unavailable to testify, and the defendant had had a prior
16

Case: 17-60502

Document: 00514699814

Page: 17

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
opportunity for cross-examination.’” Garcia, 887 F.3d at 212 (quoting Crawford
v. Washington, 541 U.S. 36, 53–54 (2004)).
During the trial, the district court ruled that the government could not
elicit testimony concerning Lee’s out-of-court statements on grounds that Lee
was unavailable to be cross-examined because he had asserted his Fifth
Amendment privilege against self-incrimination and would not testify at trial.
The district court ruled that any out-of-court statement by Lee would be
considered hearsay without an applicable exception. The record reflects that
the government did not question Agent Luker or anyone else about the content
of any out-of-court statement by Lee.

However, during Owen’s cross-

examination of Agent Luker, he asked Luker to “[t]ell the jury, please, what
business supply John Lee purchased from Sports 22.”

The district court

interrupted and suggested that the solicited testimony would be inadmissible
hearsay and a bench conference was held with all counsel. Outside of the
presence of the jury, both defense counsel urged the court to allow the line of
questioning and acknowledged that Agent Luker’s answers would involve
statements that Lee had made to him. The bench conference ended and Owen
stated to Agent Luker: “So if I understand your testimony, what John Lee has
told you with reference to the cashed checks is that he bought $273,520 worth
of food and liquor from Sports 22 and Hall’s Package.” Agent Luker responded,
“Over the five years, that’s correct.” Owen commented “You will agree that’s a
lot of ribs, isn’t it?” and Agent Luker answered affirmatively.
Given the above record evidence, we conclude that the Boltons, through
their counsel, invited the error of soliciting Agent Luker to testify as to
statements that Lee made, resulting in the admission of hearsay. Salazar, 751
F.3d at 332.

Considering, however, the substantial amount of evidence

presented at trial against the Boltons that did not include the checks written
17

Case: 17-60502

Document: 00514699814

Page: 18

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
by Lee, admission of the hearsay statements did not result in a “manifest
injustice.” Id.
Charles claims he dissented from Owen’s decision to solicit the hearsay
statements but he misinterprets the law on this issue. As the government
points out, the right to confrontation is susceptible to waiver by counsel but
when a defendant does not object to his attorney’s decision at trial or present
an argument as to why his counsel’s actions could not have been a legitimate
trial tactic, he waives that right. United States v. Ceballos, 789 F.3d 607, 616
(5th Cir. 2015) (quoting United States v. Reveles, 190 F.3d 678, 683 (5th Cir.
1999) (“When a defendant has waived a right, the district court cannot be said
to have erred by failing to override the intentions of the defendant’s counsel by
asserting the right sua sponte.” (emphasis in original))); see also United States
v. Stephens, 609 F.2d 230, 232–33 (5th Cir. 1980) (holding “that counsel in a
criminal case may waive his client’s Sixth Amendment right of confrontation
by stipulating to the admission of evidence, so long as the defendant does not
dissent from his attorney’s decision, and so long as it can be said that the
attorney’s decision was a legitimate trial tactic or part of a prudent trial
strategy”). Here, the Boltons have failed in both respects since they did not
object to their respective counsels’ decisions to solicit the hearsay statements
at trial, and they have failed to present any type of argument on appeal as to
why admission of the statements could not have been a legitimate trial tactic.
Ceballos, 789 F.3d at 616.
Based on a close review of the trial record, we hold that the district
court’s admission of the hearsay statements was invited error, solicited by both
sets of defense counsel. Salazar, 751 F.3d at 332. The invited error did not
rise to the level of manifest injustice given the substantial evidence presented
at trial to support the Boltons’ convictions, aside from the evidence involving
18

Case: 17-60502

Document: 00514699814

Page: 19

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
the checks written by Lee. Id. Further, to the extent they attempt to argue
otherwise, the Boltons have failed to show that they have not waived their
Confrontation Clause rights under Ceballos. 789 F.3d at 616.
Prosecutorial Misconduct
According to Charles, “his Fifth and Fourteenth Amendments rights to
due process of law [were] violated where the Government engaged in (1)
improper vouching for the credibility of its witnesses, (2) making false
statements to the jury, (3) engaging in derogatory name calling, and (4) making
improper personal impressions.” He urges de novo review.
This court conducts a two-part analysis of prosecutorial misconduct.
United States v. Meza, 701 F.3d 411, 429 (5th Cir. 2012). First, we consider
whether the prosecutor made an improper remark and if so, we look next to
see if the remark affected the substantial rights of the defendant. Id. Usually,
we review the first question de novo and the second for abuse of discretion. Id.
We will conclude that “a defendant’s substantial rights are affected only where
the error in question affected the outcome of the district court proceedings.”
Id. To determine whether the error affected the outcome of the proceedings,
we must “assess (1) the magnitude of the statement’s prejudice, (2) the effect
of any cautionary instructions given, and (3) the strength of the evidence of the
defendant’s

guilt.”

Id. However, when a defendant

fails

to

object

contemporaneously to the prosecutor’s allegedly improper statements, we
review his prosecutorial misconduct claims for plain error. United States v.
Bennett, 874 F.3d 236, 247 (5th Cir. 2017). Under this standard, a defendant
must show an error that is plain and affects his substantial rights. Id. at 247–
48. “If these conditions are present, we may exercise our discretion to correct
the error if it ‘seriously affects the fairness, integrity, or public reputation of
judicial proceedings.’” Id. at 248.
19

Case: 17-60502

Document: 00514699814

Page: 20

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
“In attempting to establish that a prosecutor’s improper comments
constitute reversible error, the criminal defendant bears a substantial burden.”
Id. at 247. This court does “not lightly make the decision to overturn a criminal
conviction on the basis of a prosecutor’s remarks alone.” Id. “We also presume
that a jury can and will follow an instruction that attorneys’ statements are
not evidence, ‘unless there is an overwhelming probability that the jury will be
unable to follow the instruction and there is a strong probability that the effect
is devastating.’” Id. Our ultimate question is “whether the prosecutor’s
remarks cast serious doubt on the correctness of the jury’s verdict.” Id.
Despite the fervor of Charles’s claims of prosecutorial misconduct, the
trial record does not support them. Moreover, the district court instructed the
jury at the start of trial that attorney statements are not evidence, rendering
any potential prejudice harmless. 5 Meza, 701 F.3d at 429. Additionally, given
the strength of the evidence presented against the Boltons at trial, it is unlikely
that the verdict would have been different absent the prosecutor’s remarks. Id.
The prosecutor’s alleged misconduct, even if proven, did not amount to error,
plain or otherwise. Bennett, 874 F.3d at 247–48.
Jury Instructions
According to Charles, “[t]he cumulative errors in the indictment, jury
instructions, jury verdict form and response to jury notes violated [his] Fifth

5

The district court stated:

The first step in the trial will be the opening statements. The government in
its opening statement will tell you about the evidence which it intends to put
before you so that you will have an idea or a roadmap as to what the
government's case is going to be. Just as the indictment is not evidence, neither
is the opening statement evidence. Its purpose is only to help you understand
what the evidence will be and what the government will try to prove.

20

Case: 17-60502

Document: 00514699814

Page: 21

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
and Fourteenth Amendment rights to due process and a fair trial and resulted
in faulty guilty verdicts and sentences.” We disagree. A review of Charles’s
seven arguments on this issue in the context of the record reveals that he has
failed to show plain error with respect to the indictment (for reasons previously
explained), the jury instructions, or the jury verdict form. See Fairley, 880 F.3d
at 208. We first note that any instances when the district court misstated an
oral instruction were subsequently cured by the correct written instructions
that were provided to the jury. Thus, he has failed to show plain error on any
of his arguments to this effect. Id. We reject all of Charles’s additional claims
about the jury instructions as meritless.
Sentencing
In sentencing Charles, the district court upwardly varied from the
guidelines range of 27 to 33 months, adding an additional 12 months for the
unpaid taxes on the FCSO food theft, and sentenced him to 45 months of
imprisonment.

The district court also imposed three years of supervised

release with a special condition requiring payment of $145,849.78 in
restitution and a $10,000 fine. The district court sentenced Linda to 30 months
of imprisonment, along with one year’s supervised release, a $6,000 fine, and
restitution of $145,849.78, owed jointly and severally with Charles.
A. Loss Amount
Charles and Linda both argue that the district court improperly
calculated the loss amount. We disagree. A district court’s loss calculation is
a factual finding that this court reviews for clear error. See Fairley, 880 F.3d
at 215. The district court’s method of calculation is an application of the
guidelines that this court reviews de novo. Id. “[T]he guidelines emphasize
the deference that must be shown to the sentencing judge, who is in a unique
position to assess the applicable loss, so this court need only determine
21

Case: 17-60502

Document: 00514699814

Page: 22

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
whether the district court made ‘a reasonable estimate of the loss.’” Id. “Under
the Sentencing Guidelines, the base offense level for a tax fraud offense derives
from the amount of loss that is the object of the offense.” United States v.
Johnson, 841 F.3d 299, 303 (5th Cir. 2016). If the tax loss is uncertain, the
district court is permitted to “make a reasonable estimate based on the
available facts.” Id. “To prevail on an argument that the district court’s
calculation of tax loss was clearly erroneous, a defendant must introduce
evidence to contradict or rebut the alleged improper computation of the loss.”
Id.
The district court may include tax losses in the total loss computation
that qualify as relevant conduct under U.S.S.G. § 1B1.3, whether charged or
not. See United States v. Powell, 124 F.3d 655, 666 (5th Cir. 1997) (“[T]he facts
of [the defendant’s] conduct make clear that the district court did not clearly
err in deciding that the state tax evasion was part of [the defendant’s] relevant
conduct. It was therefore proper for the district court, in calculating [the
defendant’s] sentence, to include the amount of state fuel excise taxes evaded
in the total ‘tax loss’ used to determine [the defendant’s] base offense level.”).
“It is well established . . . that a ‘jury’s verdict of acquittal does not
prevent the sentencing court from considering conduct underlying the
acquitted charge, so long as that conduct has been proved by a preponderance
of the evidence.’” United States v. Andradi, 309 F. App’x 891, 893 (5th Cir.
2009) (quoting United States v. Watts, 519 U.S. 148, 157 (1997)).
Here, the district court’s total loss amount of $145,849.78 (as reflected in
the PSR) was based on the tax owed as a result of the charged offenses
($117,369.84) and the estimated amount of tax that the Boltons failed to pay
($28,479.94) on the food stolen from the FCSO Detention Center that was used
at their businesses. Testimony was presented at trial that the Boltons received
22

Case: 17-60502

Document: 00514699814

Page: 23

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
approximately $273,000 worth of checks from Lee as income. Charles
incorrectly argues that using the tax loss amounts from the Lee checks was
error because “[t]he John Lee cashed checks were proven to be false based on
the ‘inadmissible hearsay’ testimony of IRS Agent Luker.” As we have stated,
Agent Luker’s testimony that Lee told him that the checks were for “food and
liquor” does not negate Lee’s statements in the FBI 302 interview that he could
not remember what each individual check was for.

Additionally, these

statements do nothing to undermine the information in the PSR or show that
it “was inaccurate or materially untrue.” United States v. Scher, 601 F.3d 408,
414 (5th Cir. 2010) (“[The defendant] simply failed to produce reliable evidence
supporting an alternate number or demonstrating that the information in the
PSR was inaccurate or materially untrue.”).
Further, the district court properly included the uncharged tax loss of
$28,479.94 on grounds that the tax loss from the stolen food qualified as
relevant conduct. This conclusion was supported by witness statements and
detailed information in the PSR. Powell, 124 F.3d at 664 (observing that
relevant conduct includes “all such acts and omissions that were part of the
same course of conduct or common scheme or plan as the offense of conviction”
(quoting U.S.S.G. § 1B1.3(a)(2))).
Additionally, the district court’s inclusion of the loss amount from Count
1 was proper. Charles’s acquittal on Count 1 did not prevent the district court
from considering the conduct underlying the acquitted charge as long as it was
proven by a preponderance of the evidence, which it was in this case. Watts,
519 U.S. at 157; Andradi, 309 F. App’x at 893. There was sufficient evidence
presented at trial to prove that the Boltons committed tax fraud in 2009 and
they were both convicted of filing false returns that year.
23

Case: 17-60502

Document: 00514699814

Page: 24

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
In sum, because the Boltons have failed to produce sufficient rebuttal
evidence as to the loss amount, the district court did not clearly err in adopting
the PSR’s loss amount of $145,849.78. Scher, 601 F.3d at 414.
B. Sentences
Charles and Linda both argue that their sentences were substantively
unreasonable or otherwise defective. Neither Charles nor Linda objected to
their sentences in the proceedings below so their claims on appeal are reviewed
for plain error. See United States v. Ruiz, 621 F.3d 390, 398 (5th Cir. 2010).
“A sentence within the Guidelines range is presumptively reasonable,
and this presumption is rebutted only if the appellant demonstrates that the
sentence does not account for a factor that should receive significant weight,
gives significant weight to an irrelevant or improper factor, or represents a
clear error of judgment in balancing sentencing factors.” United States v.
Hernandez, 876 F.3d 161, 166 (5th Cir. 2017). On the other hand, “[a] nonGuidelines sentence unreasonably fails to reflect the statutory sentencing
factors set forth in § 3553(a) where it (1) does not account for a factor that
should have received significant weight, (2) gives significant weight to an
irrelevant or improper factor, or (3) represents a clear error of judgment in
balancing the sentencing factors.” United States v. Nguyen, 854 F.3d 276, 283
(5th Cir. 2017). When “reviewing a challenge to the length of a non-Guidelines
sentence, this court ‘may take the degree of variance into account and consider
the extent of a deviation from the Guidelines.’” Id. We give “‘due deference to
the district court’s decision that the § 3553(a) factors, on a whole, justify the
extent of the variance.’” Id. (quoting Gall v. United States, 552 U.S. 38, 51
(2007)).
Charles argues that his sentence was substantively unreasonable or
otherwise defective and that the district court’s upward variance was not
24

Case: 17-60502

Document: 00514699814

Page: 25

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
warranted. This argument fails. The district court based the upward variance
on relevant § 3553(a) factors, including Charles’s history and characteristics
(specifically his theft of food from the FCSO detention center) and the need to
deter future criminal conduct. See 18 U.S.C. § 3553(a)(1)–(2). The district
court was within its discretion to use the food theft as a basis for an upward
variance because it was admitted as relevant conduct in the PSR and was not
established

to

be

materially

untrue,

inaccurate

or

unreliable.

See

U.S.S.G. § 1B1.3(a)(2); United States v. Zuniga, 720 F.3d 587, 591 (5th Cir.
2013). As the government further points out, the district court was permitted
to consider the food theft in the context of the upward variance even it was
determined not to be relevant conduct. United States v. Rhine, 637 F.3d 525,
528–29 (5th Cir. 2011). Moreover, contrary to Charles’s assertion, the record
reveals that the district court explained that it was imposing the upward
variance because, among other reasons, “[t]here was a culture of corruption in
the Forrest County Jail, and [Charles] knew it and . . . allowed it to go on.” For
these reasons, Charles has failed to show that the district court plainly erred
in imposing his sentence or in applying the sentencing factors under § 3553(a).
Nguyen, 854 F.3d at 283. His remaining contentions on this issue are denied
as meritless.
Linda claims that her sentence was substantively unreasonable because
the loss amount was an inadequate measure of culpability and the district
court failed to consider other relevant sentencing factors such as her age and
the fact that she had “nearly zero chance of recidivism.” Her argument is
misplaced.

This court has acknowledged that “[a] sentence within the

Guidelines range is presumptively reasonable, and this presumption is
rebutted only if the appellant demonstrates that the sentence does not account
for a factor that should receive significant weight, gives significant weight to
25

Case: 17-60502

Document: 00514699814

Page: 26

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
an irrelevant or improper factor, or represents a clear error of judgment in
balancing sentencing factors.” See Hernandez, 876 F.3d at 166. Although
Linda attempts to argue that the total loss amount was an inadequate measure
of her culpability, she was convicted by a jury on five counts of filing false tax
returns and she was unable to present evidence to rebut the loss amount as
shown in the PSR or to prove that it “was inaccurate or materially untrue” in
general or as it related specifically to her. Scher, 601 F.3d at 414. While
Linda’s age and allegedly low chances of recidivism might be relevant
considerations, the district court was free to give other § 3553(a) factors more
significant weight in imposing her sentence. 18 U.S.C. § 3553(a). Accordingly,
Linda has failed to rebut the presumption of reasonableness afforded to her
within-guidelines sentence. United States v. Gomez-Herrera, 523 F.3d 554,
565–66 (5th Cir. 2008) (“As [the defendant] was sentenced within a properly
calculated Guidelines range, his sentence is entitled to a presumption of
reasonableness that we see no reason to disturb.”). Consequently, we hold that
the district court did not plainly err in imposing Linda’s sentence. See Ruiz,
621 F.3d at 398.
C. Restitution
Charles argues that the district court erred in imposing restitution. We
review Charles’s claim that the district court lacked the authority to impose
restitution de novo. See United States v. Westbrooks, 858 F.3d 317, 327 (5th
Cir. 2017). We review the restitution amount imposed by the district court for
abuse of discretion. United States v. Benns, 810 F.3d 327, 329 (5th Cir. 2016).
“Restitution to the IRS may be imposed as a condition of supervised
release under § 3583[.]” Nolen, 472 F.3d at 382. To calculate the restitution
amount, the district court is granted wide latitude and “may simply make a
reasonable estimate based on the available facts.” Westbrooks, 858 F.3d at 329.
26

Case: 17-60502

Document: 00514699814

Page: 27

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
Nevertheless, “a restitution award due prior to the commencement of a term of
supervised release is a component of the sentence, not a condition of supervised
release,” and is therefore unauthorized. Id. at 328.
Charles’s general challenge to the district court’s authority to impose
restitution fails as it is well-established that “[r]estitution to the IRS may be
imposed as a condition of supervised release under § 3583[.]” Nolen, 472 F.3d
at 382. However, he does correctly argue and the government concedes that “a
restitution award due prior to the commencement of a term of supervised
release is a component of the sentence, not a condition of supervised release,”
and is therefore unauthorized. Westbrooks, 858 F.3d at 328. Here, the district
court’s condition that the restitution amount was due “immediately” 6 was
unauthorized under this court’s precedent in Westbrooks. Id. at 328 (“We thus
conclude that the judgment contains an error in ordering that [the defendant]
begin making payments while in prison—a timeline that exceeds the court’s
statutory authority. But that error does not overcome the other indications
that the court intended to impose restitution under the statute permitting it
as part of supervised release.”). Accordingly, we modify the judgment to reflect
that the Boltons do not owe restitution until their terms of supervised release
begin. Id. (“The most efficient remedy in this situation is to modify the
judgment so that [the defendant] does not owe restitution until she begins her
term of supervised release.” (citing 28 U.S.C. § 2106)).
Finally, as to the amount of restitution, this court gives the district court
“wide latitude” to determine the amount of loss based on the available facts.

The district court stated at sentencing: “It’s ordered that the defendant pay a
thousand dollars a month toward the restitution beginning immediately. Payment begins
and shall continue while he is in prison.”
6

27

Case: 17-60502

Document: 00514699814

Page: 28

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
Westbrooks, 858 F.3d at 329. Because the district court used the same figures
to calculate the restitution amount that it used to calculate the damages
amount, Charles has failed to show that the restitution award was an abuse of
discretion. See Scher, 601 F.3d at 414. All of his remaining arguments on this
issue are meritless.
Conflict-Free Choice of Counsel or Ineffective Assistance of Counsel
Charles claims that his trial counsel (Owen) “labored under an actual
conflict of interest and provided unconstitutional representation before trial,
during trial, and at sentencing because of a direct conflict of interest
concerning Owen’s relationship to attorney John Lee.” Charles presented his
allegations of conflict of counsel and ineffective assistance of counsel in three
separate post-trial motions, all three of which moved for a new trial.
A district court’s denial of a motion for a new trial is reviewed for abuse
of discretion. Olibas v. Barclay, 838 F.3d 442, 448 (5th Cir. 2016). “This
standard is necessarily deferential to the trial court because we have only read
the record, and have not seen the impact of the witnesses on the jury or
observed the demeanor of the witnesses ourselves, as has the trial judge.”
United States v. Stanford, 823 F.3d 814, 838 (5th Cir. 2016). Questions of law
are reviewed de novo. United States v. Anderson, 755 F.3d 782, 800 (5th Cir.
2014). When there are mixed questions of law and fact, this court reviews “the
underlying facts for abuse of discretion, but the conclusions to be drawn from
those facts de novo.” Stanford, 823 F.3d at 838.
Whether a defendant’s counsel labored under a conflict of interest is a
mixed question of law and fact that this court reviews de novo. United States
v. Hernandez, 690 F.3d 613, 619 (5th Cir. 2012). We also conduct a de novo
review of the district court’s determinations concerning ineffective assistance
of counsel claims. See United States v. Shepherd, 880 F.3d 734, 740 (5th Cir.
28

Case: 17-60502

Document: 00514699814

Page: 29

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
2018). A district court’s decision to disallow substitution of counsel is reviewed
for abuse of discretion. United States v. Jones, 733 F.3d 574, 587 (5th Cir.
2013).
Although generally disfavored, a new trial may be granted on the basis
of newly discovered evidence when “(1) the evidence is newly discovered and
was unknown to the defendant at the time of trial; (2) the failure to detect the
evidence was not due to a lack of diligence by the defendant; (3) the evidence
is not merely cumulative or impeaching; (4) the evidence is material; and (5)
the evidence if introduced at a new trial would probably produce an acquittal.”
Anderson, 755 F.3d at 800; Fed. R. Crim. P. 33.
“The Sixth Amendment right to counsel includes the ‘right to
representation that is free from any conflict of interest.’” Hernandez, 690 F.3d
at 618. Generally, this court will determine that “a conflict exists when defense
counsel allows a situation to arise that tempts a division in counsel’s loyalties.”
Id. “If a defendant chooses to proceed with representation by counsel who has
a conflict of interest, a district court must conduct what is commonly known as
a ‘Garcia hearing’ 7 to ensure a valid waiver by the defendant of his Sixth
Amendment right.” Id. A district court’s requirement to conduct a Garcia
hearing only exists if there is an actual conflict of interest and not just a
“speculative or potential conflict.” Id. at 618–19.
Ineffective assistance of counsel claims are evaluated under the legal
standard articulated in Strickland v. Washington, 466 U.S. 668 (1984). Under
Strickland, a defendant must prove both deficient performance and prejudice.
466 U.S. at 700. To prove deficient performance, the defendant must show that

7

United States v. Garcia, 517 F.2d 272, 278 (5th Cir. 1975).

29

Case: 17-60502

Document: 00514699814

Page: 30

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
his counsel’s performance “fell below an objective standard of reasonableness.”
Id. at 688. To show prejudice, the defendant “must show that there is a
reasonable probability that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different.” Id. at 694.
Charles’s claim that Owen labored under an actual conflict of interest
when he represented Charles is meritless.

In its memorandum opinion

denying Charles’s motions for post-trial relief, the district court carefully
described the payment arrangements between Charles and Owen and the
parties that paid Owen’s retainer on Charles’s behalf and Charles’s knowledge
of those payments. The district court clarified that Lee was not a government
witness, he was never called to testify at trial, and the parties understood that
if he were called, he would invoke his Fifth Amendment privilege against selfincrimination and not testify. Additionally, the record reflects that Charles
gave Owen a check written by Lee to represent him in the food theft case back
in 2014, but the tax fraud investigation against Lee did not commence until
2016.

Consequently, Owen’s acceptance of Lee’s payment could not have

created a conflict in Owen’s representation of Charles.

Moreover, as the

district court noted, Charles not only knew of Lee’s payments to Owen, he
hand-delivered the checks. He has failed to meet the requirements for a new
trial in that the evidence he attempts to use to support his motion was known
and available to him several years prior to the commencement of his trial.
Anderson, 755 F.3d at 800; Fed. R. Crim. P. 33.
Charles has also failed to show that he was denied his “counsel of choice”
at sentencing. As the government points out, neither the district court nor
Owen knew that Charles had retained new counsel to represent him at
sentencing until shortly before the hearing. The district court was within its
30

Case: 17-60502

Document: 00514699814

Page: 31

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
sound discretion to deny Charles’s motion to continue as it was his fourth
motion. At that point, Huntley had neither sought pro hac vice admission nor
made an appearance to represent Charles. Nevertheless, the district court
“allowed the Boltons to confer privately with [Huntley], along with a
representative of the local Federal Public Defender’s Office invited by the
district court, to determine who should represent [Charles]. Owen appeared
at sentencing on behalf of [Charles], but the district court allowed Huntley to
unofficially appear on [Charles]’s behalf as well.” The district court went above
and beyond to accommodate Charles’s “choice of counsel” at sentencing and his
choice to instruct Owen to continue to represent Charles alongside Huntley at
sentencing was not an abuse of discretion. See United States v. GonzalezLopez, 548 U.S. 140, 152 (2006) (observing that trial courts have “wide latitude
in balancing the right to counsel of choice against the needs of fairness and
against the demands of its calendar”). Likewise, the district court’s decision to
deny Charles a Garcia hearing was proper given that the district court
conducted extensive fact-finding and concluded that no actual conflict existed.
Hernandez, 690 F.3d at 618–19 (noting that a district court’s requirement to
conduct a Garcia hearing only exists if there is an actual conflict of interest
and not just a “speculative or potential conflict”).

His remaining arguments

on this issue are denied as meritless.
Attorney-Client Privilege Waiver
Charles argues that his communications with Owen should be protected
by the attorney-client privilege, that he did not waive that privilege, and that
the

district

court

erred

in

granting

the

government’s

motion

for

reconsideration and unsealing the record. He also complains that the district
court did not have jurisdiction over his case when it issued an order on July
24, 2017 for him to file a response to the government’s motion for
31

Case: 17-60502

Document: 00514699814

Page: 32

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
reconsideration. He argues that this is because he filed an appeal on July 13,
2017 and this court had accepted jurisdiction which effectively divested the
district court of jurisdiction over the proceedings at the time it ordered him to
respond to the government’s motion.
“In evaluating a claim of attorney-client privilege, we review factual
findings for clear error and ‘the application of the controlling law de novo.’” In
re Itron, Inc., 883 F.3d 553, 557 (5th Cir. 2018). The controlling law to be
applied here is that of Mississippi, which governs . . . any assertion of attorneyclient privilege or putative waiver thereof. Id. “Our task is to apply the law
as would the Mississippi Supreme Court.” Id. (citing Guilbeau v. Hess Corp.,
854 F.3d 310, 311 & n.4 (5th Cir. 2017)). Mississippi law allows clients the
“privilege to refuse to disclose . . . any confidential communication[s] made to
facilitate professional legal services, if those communications were made
between the client . . . and [his] lawyer or among lawyers . . . representing the
same client.”

Id. (citing Miss. R. Evid. 502(b) (internal quotation marks

omitted)).
“By definition, the attorney-client privilege protects only confidential
communications.” Id. at 558 (citing Miss. R. Evid. 502(b) (emphasis omitted)).
A client waives the privilege “[b]y disclosing such communications to third
parties—such as by revealing them in open court[.]” Id. The waiver extends to
related subject matter. Id. A client also “waives the privilege by affirmatively
relying on attorney-client communications to support an element of a legal
claim or defense—thereby putting those communications ‘at issue’ in the case.”
Id. That is to say, “when a party entitled to claim the attorney-client privilege
uses confidential information against his adversary (the sword), he implicitly
waives its use protectively (the shield) under that privilege.” Id.
32

Case: 17-60502

Document: 00514699814

Page: 33

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
The issue of whether Charles waived the attorney-client privilege arose
out of Owen’s filing a motion to deem the privilege and the work-product
doctrine waived so that his responses to Charles’s allegations could be filed in
the public record. In June 2017, the district court found that Charles had
waived the attorney-client privilege but ordered that Owen’s responses to
Charles’s allegations against him be filed under seal until the conclusion of the
Boltons’ convictions and sentences.

However, in its order placing Owen’s

responses under seal, the district court acknowledged “that Charles has
repeated[ly] used both this Court and the media in an attempt to [publicly]
vilify both Owen and the Government.” The government filed a motion to
reconsider requesting that the responses be unsealed. Charles was ordered to
respond and the district court ultimately granted the government’s motion for
reconsideration stating that “[t]he Court is concerned only with previously
privileged information which could prejudice Bolton on appeal or in the event
of a new trial. Because Bolton makes no specific arguments towards any of the
previously privileged information, the Court finds that the Motion for
Reconsideration should be granted.” Charles then filed a second notice of
appeal, No. 17-60576, of the district court’s order granting the motion for
reconsideration and unsealing Owen’s responses to Charles’s allegations
against him.
Charles’s argument is unconvincing that the district court was divested
of jurisdiction when it ordered him to file a response to the government’s
motion for reconsideration. The Supreme Court has held and this court has
recently recognized that “[a]n appeal divests the district court of its jurisdiction
‘over those aspects of the case involved in the appeal.’” United States v. Pena,
713 F. App’x 271, 272 (5th Cir. 2017) (per curiam) (unpublished) (quoting
Marrese v. Am. Acad. of Orthopaedic Surgeons, 470 U.S. 373, 379 (1985)). As
33

Case: 17-60502

Document: 00514699814

Page: 34

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
Charles acknowledges, he has filed two appeals: (1) No. 17-60502, filed on July
13, 2017, pertaining to his convictions and sentences and (2) No. 17-60576, filed
August 2017, pertaining to the district court’s grant of the motion for
reconsideration and the unsealing of Owen’s responses.

The only appeal

pending at the time the district court issued its order to him to respond to the
government’s motion for reconsideration was No. 17-60502, the appeal
pertaining to his convictions and sentences. The district court had not been
divested of jurisdiction with respect to the issues involved in Charles’s second
appeal pertaining to his allegations against Owen, waiver of the attorneyclient privilege, release of the work-product doctrine information, and
unsealing the record. Marrese, 470 U.S. at 379; Pena, 713 F. App’x at 272.
Next, under controlling Mississippi law, Charles waived the attorneyclient privilege when he charged Owen with providing him with ineffective
assistance and further when he made public statements to third parties via
the media, social media, the court, and the press, to publicly criticize and make
derogatory comments about Owen and his firm’s representation of him. See In
re Itron, Inc., 883 F.3d at 558 (noting that a client waives the privilege “[b]y
disclosing such communications to third parties—such as by revealing them in
open court” and “by affirmatively relying on attorney-client communications to
support an element of a legal claim or defense—thereby putting those
communications ‘at issue’ in the case”). The district court properly granted the
government’s motion for reconsideration to modify the protective order and
unseal Owen’s responses to Charles’s allegations. See United States v. Morales,
807 F.3d 717, 723 (5th Cir. 2015). His remaining arguments on this issue are
denied as meritless.

34

Case: 17-60502

Document: 00514699814

Page: 35

Date Filed: 10/26/2018

No. 17-60502
c/w No. 17-60576
III. Conclusion
For the foregoing reasons, we AFFIRM the convictions and sentences of
Charles and Linda Bolton and MODIFY the district court’s judgment to show
that the restitution owed by the Boltons does not become due until they begin
their terms of supervised release.

35

APPENDIX H

Case: 17-60502

Document: 00514752630

Page: 1

Date Filed: 12/07/2018

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
___________________
No. 17-60502
___________________
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
CHARLES BOLTON; LINDA BOLTON,
Defendants - Appellants
Consolidated with 17-60576

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
CHARLES BOLTON,
Defendant - Appellant
_______________________
Appeals from the United States District Court
for the Southern District of Mississippi
_______________________

Case: 17-60502

Document: 00514752630

Page: 2

Date Filed: 12/07/2018

ON PETITION FOR REHEARING
Before STEWART, Chief Judge, and WIENER, and HIGGINSON, Circuit
Judges.
PER CURIAM:
IT IS ORDERED that the petition for rehearing is DENIED.

ENTERED FOR THE COURT:
__/s/ Carl E. Stewart________________
UNITED STATES CIRCUIT JUDGE

